<html>
<title> - CYBER SECURITY R&D</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                           CYBER SECURITY R&D 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

                           Serial No. 111-31

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

49-966 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant













                            C O N T E N T S

                             June 10, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

                               Witnesses:

Dr. Seymour E. Goodman, Professor of International Affairs and 
  Computing; Co-Director, Georgia Tech Information Security 
  Center, Georgia Institute of Technology
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    17

Ms. Liesyl I. Franz, Vice President, Information Security and 
  Global Public Policy, TechAmerica
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    22

Dr. Anita D'Amico, Director, Secure Decisions Division, Applied 
  Visions, Inc.
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    33

Dr. Fred B. Schneider, Samuel B. Eckert Professor of Computer 
  Science, Department of Computer Science, Cornell University
    Oral Statement...............................................    33
    Written Statement............................................    34
    Biography....................................................    40

Mr. Timothy G. Brown, Vice President and Chief Architect, CA 
  Security Management
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    49

Discussion.......................................................    49

              Appendix: Answers to Post-Hearing Questions

Dr. Seymour E. Goodman, Professor of International Affairs and 
  Computing; Co-Director, Georgia Tech Information Security 
  Center, Georgia Institute of Technology........................    68

Ms. Liesyl I. Franz, Vice President, Information Security and 
  Global Public Policy, TechAmerica..............................    73

Dr. Anita D'Amico, Director, Secure Decisions Division, Applied 
  Visions, Inc...................................................    76

Dr. Fred B. Schneider, Samuel B. Eckert Professor of Computer 
  Science, Department of Computer Science, Cornell University....    80

Mr. Timothy G. Brown, Vice President and Chief Architect, CA 
  Security Management............................................    87


                           CYBER SECURITY R&D

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                           Cyber Security R&D

                        wednesday, june 10, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of this hearing is to explore the state of federal 
cyber security research and development (R&D). The Subcommittee will 
receive testimony from a panel of outside experts about priorities and 
existing gaps in the cyber security research portfolio as well examine 
the adequacy of cyber security education and workforce training 
programs.

2. Witnesses:

<bullet>  Dr. Seymour Goodman, Professor of International Affairs and 
Computing and Co-Director, Georgia Tech Information Security Center, 
Georgia Institute of Technology

<bullet>  Ms. Liesyl Franz, Vice President, Information Security and 
Global Public Policy, TechAmerica

<bullet>  Dr. Anita D'Amico, Director, Secure Decisions Division, 
Applied Visions, Inc.

<bullet>  Dr. Fred Schneider, Samuel B. Eckert Professor of Computer 
Science, Department of Computer Science, Cornell University

<bullet>  Mr. Timothy Brown, Vice President and Chief Architect, CA 
Security Management

3. Overarching Questions:

<bullet>  Does the federal cyber security R&D portfolio adequately 
address existing security concerns as well as new and emerging threats? 
If not, what are the research gaps? Do the existing priorities for 
federal research investment reflect any risk assessment of current and 
future threats? Is the cyber security R&D portfolio appropriately 
balanced between long-range, game changing research, and research 
targeted toward incremental improvement?

<bullet>  How can the Federal Government facilitate effective public-
private partnerships and increase private sector engagement in 
addressing common research needs for cyber security? How can the 
Federal Government ensure that stakeholder outreach and the process for 
input into cyber security R&D planning are adequate?

<bullet>  Is the ``human factor'' sufficiently integrated into the 
cyber security R&D strategy? If not, what new and continuing areas of 
basic research in the social and behavioral sciences could 
significantly improve our ability to design more effective 
technologies?

<bullet>  What is the state of cyber security education? Are future 
cyber security professionals being adequately trained by colleges and 
universities to meet the demands of the private sector? What role can 
the Federal Government play in supporting formal cyber security 
education and training, and in educating the general public about 
protecting themselves and their networks against cyber threats?

4. Background

    Information technology (IT) has evolved rapidly over the last 
decade, leading to markedly increased connectivity and productivity. 
The benefits provided by these advancements have lead to the widespread 
use and incorporation of information technologies across major sectors 
of the economy. This level of connectivity and the dependence of our 
critical infrastructures on IT have also increased the vulnerability of 
these systems. Reports of cyber criminals and nation-states accessing 
sensitive information and disrupting services have risen steadily over 
the last decade, heightening concerns over the adequacy of our cyber 
security measures. For example, in 2008 the payment processors of an 
international bank were penetrated allowing fraudulent ATM 
transactions. In 2007, a U.S. retailer was the victim of a cyber attack 
and the personal information of 45 million credit and debit card 
holders was compromised.
    According to Symantec's Government Internet Security Threat Report, 
the telecommunications infrastructure was the predominant target of 
cyber attack in 2008. Some estimate that the number of cyber attacks is 
actually much higher because companies avoid reporting incidents due to 
fear over plummeting stock prices and the possibility of further 
attack. Firms that are subject to cyber attack typically observe a 
decline of one to five percent in their stocks, which translates into a 
loss of between $50 and $200 million for large companies.
    In January 2008, the Bush Administration established through a 
series of classified executive directives the Comprehensive National 
Cybersecurity Initiative (CNCI). While the details of the CNCI are 
largely classified, the goal of the multi-faceted initiative was to 
secure federal systems.\1\ A number of security experts have expressed 
concern that the classified nature of the CNCI has prohibited active 
engagement with the private sector despite the fact that 85 percent of 
the Nation's critical infrastructure is owned and operated by private 
entities. While experts are concerned by the lack of transparency and 
public-private cooperation under the CNCI, they have also urged 
President Obama to build upon the existing structure rather than 
starting from scratch. In February 2009, the Obama Administration 
called for a 60-day review of the national cyber security strategy. The 
President's review required the development of a framework that would 
ensure that the CNCI was adequately funded, integrated, and coordinated 
with the private sector and Congress.
---------------------------------------------------------------------------
    \1\ The objectives of the CNCI have been assembled from various 
press releases and media reports. An overview of the CNCI is available 
in the CRS report entitled, ``Comprehensive National Cybersecurity 
Initiative: Legal Authorities and Policy Considerations.''
---------------------------------------------------------------------------
    On May 29, 2009, the Administration released its 60-day review of 
cyberspace policy. The review team acknowledged the difficult task of 
addressing cyber security concerns in a comprehensive fashion due to 
the wide array of federal departments and agencies with cyber security 
responsibilities and overlapping authorities. According to the review, 
cyber security leadership must come from the top. To that end, the 
President plans to appoint a ``cyber czar'' who will oversee the 
development and implementation of a national strategy for improving 
cyber security. The appointee will report to both the National Security 
Council and the National Economic Council and will chair the 
Information and Communications Infrastructure Interagency Policy 
Council (ICI-IPC), an existing policy coordinating body to ensure ``a 
reliable, secure and survivable global information and communications 
infrastructure.'' The review also emphasizes the need for the Federal 
Government to partner with the private sector to guarantee a secure and 
reliable infrastructure. Furthermore, it highlights the need for 
increased public awareness, the education and expansion of the IT 
workforce, and the importance of advancing cyber security research and 
development. The review contains the following action items that are 
relevant to the Committee's work.

Near-Term Action Items:

        1.  Initiate a national public awareness and education campaign 
        to promote cyber security.

        2.  In collaboration with other Executive Office of the 
        President entities, develop a framework for R&D strategies that 
        focus on game-changing technologies that have the potential to 
        enhance the security, reliability, resilience, and 
        trustworthiness of digital infrastructure; provide the research 
        community access to event data to facilitate developing tools, 
        testing theories, and identifying workable solutions.

Mid-Term Action Items:

        1.  Expand support for key education programs and R&D to ensure 
        the Nation's continued ability to compete in the information 
        age economy.

        2.  Develop a strategy to expand and train the workforce, 
        including attracting and retaining cyber security expertise in 
        the Federal Government.

        3.  Develop a set of threat scenarios and metrics that can be 
        used for risk management decisions, recovery planning, and 
        prioritization of R&D.

        4.  Encourage collaboration between academic and industrial 
        laboratories to develop migration paths and incentives for the 
        rapid adoption of research and technology development 
        innovations.

        5.  Use the infrastructure objectives and the R&D framework to 
        define goals for national and international standards bodies.

Cyber Security R&D
    Cyber security related activities are conducted across the Federal 
Government, but three key agencies, NSF, DHS and DOD (specifically 
DARPA) fund the majority of cyber security R&D.
    The task of coordinating unclassified cyber security R&D has been 
assigned to the Networking and Information Technology Research and 
Development (NITRD) program. The NITRD program, which consists of 13 
federal agencies, coordinates a broad spectrum of IT R&D activities, 
but includes an interagency working group and program component area 
focused specifically on cyber security and information assurance (CSIA) 
R&D. The NITRD agencies have requested a total of $343 million for CSIA 
R&D in FY 2010.
    In 2006, the interagency working group produced a federal plan for 
cyber security R&D. The recommendations of the working group were that 
federal CSIA agencies: should explore high-impact threats; should 
assess the security implications of emerging technologies; should 
examine ways to build security in from the beginning; and should create 
metrics for assessing cyber security. The working group also 
recommended sustained interagency coordination and collaboration; 
individual agency as well as interagency prioritization of cyber 
security R&D; the targeting of R&D investments into strategic needs; 
strengthened partnerships, including international partners; and more 
effective coordination with the private sector. Finally, the working 
group recommended the development of a subsequent roadmap or 
implementation document, which to date has not been produced. There is 
concern that while the NITRD program provides a mechanism for 
coordination and collaboration among agencies, a lack of strong 
leadership by the Office of Science and Technology Policy will result 
in a patchwork of mission-driven objectives that fail to advance a 
comprehensive cyber security R&D strategy. These concerns may be 
mediated by the release of the 60-day review and the President's pledge 
to make cyber security one of his key management priorities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Agency Roles in Cyber Security R&D

            NSF
    With a budget of $127 million for FY 2010, NSF is the principal 
agency supporting unclassified cyber security R&D and education. NSF's 
request is an 8.6 percent increase above FY09 levels.
    NSF's cyber security research activities are primarily funded 
through the Directorate for Computer & Information Science & 
Engineering (CISE). CISE supports cyber security R&D through a targeted 
program, Trustworthy Computing, as well as through a number of its core 
activities in Computer Systems Research, Computing Research 
Infrastructure, and Network and Science Engineering. The cyber security 
portfolio supports both theoretical and experimental research.
    The Trustworthy Computing program, funded at $67 million for FY 
2010, is an outgrowth of NSF's Cyber Trust program, which was developed 
in response to the Cyber Security R&D Act of 2003. The program supports 
research into new models, algorithms and theories for analyzing the 
security of computer systems and data components. It also supports 
investigation into new security architectures, methodologies that 
promote usability in conjunction with protection, and new tools for the 
evaluation of system confidence and security.
    In addition to its basic research activities, NSF's Directorate for 
Education & Human Resources (EHR) manages the Scholarship for Service 
program which provides funding to colleges and universities for the 
award of two-year scholarships in information assurance and computer 
security fields. Scholarship recipients are required to work for two 
years in the Federal Government, upon completion of their degree. EHR 
also supports the development of cyber security professionals through 
the Advanced Technological Education (ATE) program, which focuses on 
the education of technicians for high-technology fields.

            DHS
    Cyber security research in DHS is planned, managed, and coordinated 
through the Cyber Security Research and Development Center. The center 
not only supports the research efforts of the Homeland Security 
Advanced Research Projects Agency (HSARPA), but helps to coordinate the 
testing and evaluation of technologies, as well as technology 
transition. The FY 2010 budget includes $37.2 million for cyber 
security R&D at DHS; this is an increase of $6.6 million over FY 2009.
    In addition to conducting R&D, DHS has an operational and 
coordination role in securing cyber space. The National Cyber Security 
Division (NCSD) is the operational arm of DHS's cyber security group 
and handles a host of tasks, including the analysis of cyber threats, 
the dissemination of cyber threat warnings, the facilitation of cyber 
security exercises, and the reduction of software vulnerabilities. The 
budget request for the NCSD is $400 million, an increase of $87 million 
above FY 2009. Within NCSD, The United States Computer Emergency 
Readiness Team (US-CERT) is tasked with monitoring federal non-
classified computer systems and issuing warnings to both federal 
agencies and the public when an attack occurs. Recent GAO reports have 
criticized US-CERT, citing a lack of a national strategy, an absence of 
operational relationships with other key cyber security groups, both 
federal agencies and private entities, and an insufficient level of 
action in response to a cyber attack.

            DARPA
    DARPA is the principal R&D agency of the DOD; its mission is to 
identify and develop high-risk, high-reward technologies of interest to 
the military. DARPA's cyber security activities are conducted primarily 
through the Strategic Technology Office and the Information Assurance 
and Survivability project, which is tasked with developing technologies 
that make emerging information systems such as wireless and mobile 
systems secure. The budget request for the Information Assurance and 
Survivability project is $113.6 million in FY 2010. The project 
includes a variety of targeted programs, for example the Intrinsically 
Assured Mobile Ad-Hoc Network (IAMANET) program is tasked with 
designing a tactical wireless network that is secure and resilient to a 
broad range of threats, including cyber attacks, electronic warfare and 
malicious insiders. The budget request for IAMANET is $14.5 million. 
The goal of the Trustworthy Systems program, with a budget request of 
$11.1 million, is to provide foundational trustworthy computer 
platforms for Defense Department systems. DARPA is also examining 
potential supply chain vulnerabilities in the Trusted, Uncompromised 
Semiconductor Technology program (TrUST) by developing methods to 
determine whether a microchip manufactured through a process that is 
inherently ``untrusted'' (i.e., not under our control) can be 
``trusted'' to perform just the design operations and no more. The 
budget request for TrUST is $33.5 million.
    Finally, DARPA is developing the National Cyber Range (NCR). The 
NCR will provide a revolutionary environment for research organizations 
to test the security of information systems. The NCR will be capable of 
supporting multiple, simultaneous, segmented tests in realistically 
configured or simulated testbed environments and will produce 
qualitative and quantitative assessments of the security of various 
cyber technologies and scenarios. According to DARPA officials, the 
intent is have the NCR available for both classified and unclassified 
research. The budget request for the NCR is $50 million for FY 2010.

            NIST
    NIST conducts limited cyber security research to identify 
improvements in the development of standards and maintains a checklist 
of security settings for federal computers. Cyber security activities 
are conducted through NIST's Information Technology Laboratory which 
has a budget request of $72 million for FY 2010, including $15 million 
in support of the CNCI and $29 million for CSIA R&D. NIST's primary 
mission in cyber security is to protect the federal information 
technology network by creating cyber security standards for federal 
non-classified computer systems, identifying methods for assessing the 
effectiveness of security requirements, and conducting tests to 
validate security in information systems. These tasks were appointed to 
NIST in the Computer Security Act of 1987. The federal standards for 
computing systems help establish a base level of protection against 
intrusion, disruption and theft.

5. Questions for Witnesses:

Dr. Goodman and Dr. Schneider

        <bullet>  Does the current range of federally supported 
        research adequately address existing cyber security threats as 
        well as new and emerging threats? If not, what are the research 
        gaps, and how would you prioritize federal research investments 
        in cyber security?

        <bullet>  How can the Federal Government foster effective 
        partnerships between academia and the private sector?

        <bullet>  What is the state of cyber security education? Are 
        future cyber security professionals being adequately trained by 
        colleges and universities to meet anticipated demands of the 
        private sector? If not, what kind of cyber security training is 
        appropriate and necessary for institutions to develop, and for 
        what kinds of students?

        <bullet>  What role can the Federal Government play in 
        educating the general public about protecting themselves and 
        their networks against cyber threats?

Dr. Anita D'Amico

        <bullet>  How can the behavioral and social sciences contribute 
        to the design and evaluation of more secure information 
        technologies? What new and continuing areas of basic research 
        in the social and behavioral sciences could significantly 
        improve our ability to design more effective technologies in 
        cyber security? Are there promising research opportunities that 
        are not being adequately addressed?

        <bullet>  What is the nature of interactions and collaborations 
        between behavioral and social scientists, and computer 
        scientists and engineers? Is the Federal Government playing an 
        effective role in fostering such collaboration?

        <bullet>  Does the current range of federally supported 
        research adequately address existing cyber security needs of 
        industry as well as new and emerging threats? If not, what are 
        the research gaps, and how would you prioritize federal 
        research investments in cyber security?

        <bullet>  How does the private sector provide input regarding 
        its research needs into the process by which the federal 
        research portfolio is developed? Do you believe your needs are 
        adequately addressed by the federal research agenda? How can 
        the Federal Government more effectively partner with the 
        private sector to address common research needs?

Ms. Franz and Mr. Brown

        <bullet>  Does the current range of federally supported 
        research adequately address the cyber security needs of 
        industry as well as new and emerging threats? If not, what are 
        the research gaps, and how would you prioritize federal 
        research investments in cyber security?

        <bullet>  How does the private sector provide input regarding 
        its research needs into the process by which the federal 
        research portfolio is developed? Do you believe your needs are 
        adequately addressed by the federal research agenda? How can 
        the Federal Government more effectively partner with the 
        private sector to address common research needs?

        <bullet>  What is the state of cyber security education? Are 
        future cyber security professionals being adequately trained by 
        colleges and universities to meet anticipated demands of the 
        private sector? If not, what kind of cyber security training is 
        appropriate and necessary for institutions to develop, and for 
        what kinds of students?

        <bullet>  What role can the Federal Government play in 
        educating the general public about protecting themselves and 
        their networks against cyber threats?
    Chairman Lipinski. This hearing will come to order.
    Good morning, and I welcome you to today's hearing entitled 
``Cyber Security R&D.''
    Welcome to the Research and Science Education Subcommittee 
hearing on cyber security research and development. Information 
technology is an integral part of our daily lives. Computers, 
cell phones and the Internet have greatly increased our 
productivity and connectivity. Unfortunately, this connectivity 
and the dependence on our critical infrastructures on 
information technologies have increased our vulnerabilities to 
cyber attacks. For example, last year the Pentagon reported 
more than 360 million attempts to break into its networks, and 
just two weeks ago, a cyber attacker accessed the design plans 
for the $300 billion Joint Strike Fighter project.
    But it is not just the Pentagon that needs to worry about 
cyber security. Cyber crime is a problem for businesses large 
and small, and for every single American. The FCC estimates 
that identity theft costs consumers about $50 billion annually, 
and even more alarmingly, it is the fastest-growing type of 
fraud in the United States. These are not just individual 
crimes or individual criminals. Increasingly, globalization and 
the Internet mean that sophisticated organized crime groups can 
mine information, selling it both nationally and 
internationally.
    In 2007, nearly 50 million credit card records were taken 
when cyber criminals broke into computer systems used by the 
retailer TJ Maxx. Some analysts put the total cost of the 
breach at over $4 billion, and the stolen card data was used to 
defraud retailers nationwide. As a result of this, Walmart lost 
almost $8 million to fraudulent gift cards. Ultimately, 11 
people were indicted including three U.S. citizens, two 
individuals from China, one from Belarus, one from the Ukraine 
and one from Estonia. This is what cyber attacks are about. It 
is a worldwide challenge to law enforcement and it can affect 
any American.
    Improving the security of cyberspace is of the utmost 
importance and it will take the collective effort of the 
Federal Government, the private sector, our scientists and 
engineers, and every American to be able to accomplish this.
    In order to realize the full benefits of information 
technology, we need advances in cyber security R&D. Cyber 
threats are constantly evolving and cyber security R&D must 
evolve in concert through a combination of near-term fixes and 
long-term projects that build a more secure foundation.
    People are perhaps the most important part of our IT 
infrastructure, and according to experts, they are also the 
weakest link in many systems. Better cyber security education 
for both the general public and for current and future IT 
professionals is vital. However, there is still a lot we don't 
know about how humans interact with technology. Therefore, more 
research into social and behavioral sciences has the potential 
to significantly improve the security of our IT systems.
    Today we will hear from witnesses who are actively engaged 
in efforts to improve the security of our digital 
infrastructure. I look forward to the witnesses providing 
valuable insight into the challenges we face in tackling this 
complex issue and the role of cyber security R&D and education 
in any comprehensive solution.
    The Science and Technology Committee has a key role to play 
in improving cyber security, and to that extent, we are holding 
a series of hearings to examine various aspects of this issue. 
After we focus on R&D and education, next week our subcommittee 
will hold a joint hearing with the Technology and Innovation 
Subcommittee to hear how federal agencies are responding to the 
Administration's 60-day cyberspace policy review. And later 
this month, the Technology and Innovation Subcommittee will 
hold a hearing to assess the efforts of DHS and NIST.
    There is no doubt that our use of the Internet and other 
communication networks is continuing to grow and evolve, and 
that threats from individual hackers, criminal syndicates and 
even other governments are growing and evolving too. I am glad 
the President is taking an active role, and there is no doubt 
in my mind that Administration leadership will help better 
define and prioritize cyber threats, coordinate the federal 
response and develop effective partnerships with the private 
sector. As chairman of this subcommittee, I look forward to 
working with my colleagues and the Administration to ensure the 
development of a strong cyber security strategy.
    I want to thank all of our witnesses for taking the time to 
appear before the Subcommittee this morning and I look forward 
to your testimony.
    Now the Chair will recognize Dr. Ehlers for an opening 
statement.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning. Welcome to this Research and Science Education 
Subcommittee hearing on cyber security research and development.
    Information technology is an integral part of our daily lives. 
Computers, cell phones, and the Internet have greatly increased our 
productivity and connectivity. Unfortunately, this connectivity and the 
dependence of our critical infrastructures on information technologies 
have increased our vulnerability to cyber attacks. For example, last 
year the Pentagon reported more than 360 million attempts to break into 
its networks. Just two weeks ago, a cyber attacker accessed the design 
plans for the $300 billion Joint Strike Fighter project.
    But it's not just the Pentagon that needs to worry about cyber 
security. Cybercrime is a problem for businesses large and small, and 
for every single American. The FTC estimates that identity theft costs 
consumers about $50 billion annually, and that even more alarmingly, 
it's the fastest growing type of fraud in the United States. These 
aren't just individual criminals. Increasing globalization and the 
Internet means that sophisticated organized crime groups can mine 
information, selling it both nationally and internationally.
    In 2007, nearly 50 million credit card records were taken when 
cyber criminals broke into computer systems used by the retailer TJ 
Maxx. Some analysts put the total cost of the breach at over $4 
billion, and the stolen card data was used to defraud retailers nation-
wide. Walmart lost almost $8 million to fraudulent gift cards. 
Ultimately 11 people were indicted, including three U.S. citizens, two 
individuals from China, one from Belarus, one from the Ukraine, and one 
from Estonia. This is what cyber-attacks are about: it's a world-wide 
challenge to law enforcement, and it can affect any American.
    Improving the security of cyberspace is of the utmost importance 
and it will take the collective effort of the Federal Government, the 
private sector, our scientists and engineers, and every American to be 
able to accomplish this.
    In order to realize the full benefits of information technology we 
need advances in cyber security R&D. Cyber threats are constantly 
evolving and cyber security R&D must evolve in concert through a 
combination of near-term fixes and long-term projects that build a more 
secure foundation.
    People are perhaps the most important part of our IT 
infrastructure, and according to experts, they are also the `weakest 
link' in many systems. Better cyber security education for both the 
general public and for current and future IT professionals is vital. 
However, there's still a lot we don't understand about how humans 
interact with technology; therefore, more research into the social and 
behavioral sciences has the potential to significantly improve the 
security of our IT systems.
    Today, we will hear from witnesses who are actively engaged in 
efforts to improve the security of our digital infrastructure. I look 
forward to the witnesses providing valuable insight into the challenges 
we face in tackling this complex issue and the role of cyber security 
R&D and education in any comprehensive solution.
    The Science and Technology Committee has a key role to play in 
improving cyber security, and to that end, we are holding a series of 
hearings to examine various aspects of this issue. After we focus today 
on R&D and education, next week our subcommittee will hold a joint 
hearing with the Technology and Innovation Subcommittee to hear how 
federal agencies are responding to the Administration's 60-day 
cyberspace policy review. And later this month, the Technology and 
Innovation Subcommittee will hold a hearing to assess the efforts of 
DHS and NIST.
    There is no doubt that our use of the Internet and other 
communication networks is continuing to grow and evolve, and that 
threats from individual hackers, criminal syndicates, and even other 
governments are growing and evolving too. I am glad that the President 
is taking an active role, and there is no doubt in my mind that 
Administration leadership will help better define and prioritize cyber-
threats, coordinate the federal response, and develop effective 
partnerships with the private sector. As Chairman of this subcommittee, 
I look forward to working with my colleagues and the Administration to 
ensure the development of a strong cyber security strategy.
    I want to thank all of our witnesses for taking the time to appear 
before the Subcommittee this morning and I look forward to your 
testimony.

    Mr. Ehlers. Thank you, Mr. Chairman. Almost a decade ago, I 
was serving as a rapporteur for the NATO Parliamentary Assembly 
Committee on Science and was charged with the responsibility 
for writing a position paper on cyber security, and that was a 
real eye-opener to me. I had never investigated and obviously 
had to do a great deal of work to prepare the paper. We were of 
course dealing with more than just the commercial cyber 
security concerns, which are largely the concern today. We were 
dealing not only with people trying to find out what was on the 
federal cybernet but also how people could do damage to our 
entire cyber superstructure in the United States through 
various nefarious schemes. That was a real eye opener to me and 
today continues my education on this program.
    Cyber security is of great concern to both the Federal 
Government and private industry, and that is quite a change 
from a decade ago when it was considered entirely the concern 
of the Federal Government. But this is an especially timely 
hearing since a little over a month ago the House passed a 
measure reauthorizing the Networking and Information Technology 
Research and Development Act of 2009, better known as NITRD. As 
you know, the NITRD program is responsible for the coordination 
of all the unclassified federal research and development 
efforts in federal security. However, cyber security efforts 
are only a small part of the overall NITRD mission, and I am 
glad that this hearing will focus special attention on this 
subject.
    As we become more dependent on virtual information and 
services, security becomes more and more challenging to 
maintain. Fostering trust between the public and private sector 
will allow for the type of research partnerships necessary to 
keep our information secure and exchanging information between 
stakeholders is critical. I am also particularly interested in 
learning how we are supporting the education and training of 
students in this rapidly changing field and whether the current 
mechanisms are adequate to ensure our national cyber security 
interests.
    I look forward to learning from our witnesses today about 
their experiences in cyber security research, development and 
education and how we can strengthen our federal efforts in this 
area. I certainly thank you for your attendance and I am hoping 
to learn much more than I learned a decade ago when I first got 
involved in this field.
    Thank you much for being here and I look forward to your 
testimony. I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Cyber security is of great concern to both the Federal Government 
and private industry. This is a timely hearing, since a little over a 
month ago the House passed the measure reauthorizing the Networking and 
Information Technology Research and Development Act of 2009 (NITRD). As 
you know, the NITRD program is responsible for the coordination of all 
the unclassified federal research and development efforts in cyber 
security. However, cyber security efforts are only a small part of the 
overall NITRD mission and I am glad that this hearing will focus 
special attention on this subject.
    As we become more dependent on virtual information and services, 
security becomes more and more challenging to maintain. Fostering trust 
between the public and private sector will allow for the type of 
research partnerships necessary to keep our information secure, and 
exchanging information between stakeholders is critical. I am also 
particularly interested in learning how we are supporting the education 
and training of students in this rapidly changing field, and whether 
the current mechanisms are adequate to ensure our national cyber 
security interests.
    I look forward to learning from our witnesses today about their 
experiences in cyber security research, development and education, and 
how we can strengthen our federal efforts in this area. Thank you for 
your attendance.

    Chairman Lipinski. Thank you, Dr. Ehlers, and I always 
learn a great deal from you. It is always great to have you 
here. You always have better stories to tell.
    Mr. Ehlers. Just remember they are stories.
    Chairman Lipinski. If there are Members who wish to submit 
opening statements, your statements will be added to the record 
at this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman and Ranking Member.
    Cyber security is an area that is worthy of federally-funded 
research.
    I appreciate you holding today's hearing. Members will be 
interested to know the status of research in this area as well the 
areas where there are knowledge gaps.
    Consider the amount of communication and business that is done 
using computers and the Internet.
    E-mail, music, social networking, shopping, and banking: all of 
these activities are conducted online.
    Air traffic control is done using computers. Software manages 
electronic patient records. Imagine the chaos that would occur if part 
of that information was altered or otherwise compromised.
    Our daily lives are so different from even twenty years ago. 
Internet security attacks can happen on a large scale and with serious 
consequences.
    For example, in 2007, a U.S. retailer was victimized by a cyber 
attack. As a result, 45 million credit and debit card holders were 
compromised.
    This past February, the Obama Administration called for 60-day 
review of the national cyber security strategy.
    The review will require the development of a framework to ensure 
that the Comprehensive National Cybersecurity Initiative is adequately 
funded and coordinated.
    The review has since been released, and some of the action items in 
it fall under the purview of the Science Committee.
    Cyber security research is funded through several federal agencies, 
including the Defense Advanced Research Projects Agency (DARPA) and 
National Science Foundation.
    This subcommittee will be interested to know whether the current 
range of federally-funded research is sufficient to understand and 
prepare for cyber security threats.
    Members will also be interested to know whether there exists a 
strong pipeline of educated people to study cyber security.
    If not, the Committee will want to know what federal programs are 
best suited to cultivate a next generation of cyber security analysts 
and researchers.
    I would like to welcome today's witnesses.
    The Committee values the depth of expertise represented on this 
panel and looks forward to your testimony.

    Chairman Lipinski. At this time I would like to introduce 
our witnesses. First, Dr. Seymour Goodman is a Professor of 
International Affairs and Computing and Co-Director of the 
Georgia Tech Information Security Center at the Georgia 
Institute of Technology. Ms. Liesyl Franz is the Vice President 
of Information Security and Global Public Policy at 
TechAmerica. Dr. Anita D'Amico is the Director of the Secure 
Decisions Division at Applied Visions Inc. Dr. Fred Schneider 
is the Samuel B. Eckert Professor of Computer Science in the 
Department of Computer Science at Cornell University. And 
finally, Mr. Timothy Brown is the Vice President and Chief 
Architect for Security Management at CA Incorporated. As our 
witnesses should know, you will each have five minutes for your 
spoken testimony and your written testimony will be included in 
the record for the hearing. When you have all completed your 
spoken testimony, we will begin with questions and each Member 
will have five minutes to question the panel, and right now it 
is about 10:15. We are expecting votes at about 11:15, so we 
would appreciate if the panelists could stick to that five-
minute timeframe and we will have a good amount of time then 
for questions.
    So we will start here with Dr. Goodman. Dr. Goodman.

STATEMENT OF DR. SEYMOUR E. GOODMAN, PROFESSOR OF INTERNATIONAL 
 AFFAIRS AND COMPUTING; CO-DIRECTOR, GEORGIA TECH INFORMATION 
        SECURITY CENTER, GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Goodman. Thank you, Mr. Chairman, Ranking Member 
Ehlers, distinguished Members and staff of the Subcommittee. In 
addition to my academic positions at Georgia Tech, I also serve 
or have recently served as Chair of the National Research 
Council Committee that authored ``Towards a Safer and More 
Secure Cyberspace,'' and as Vice Chair of the Institute for 
Information Infrastructure Protection--a research consortium of 
27 universities, national labs and federally funded non-
profits--and as the principal investigator of Georgia Tech's 
NSF-funded Scholarship for Service Program.
    A large fraction of the American people, its businesses and 
government institutions have become increasingly dependent on 
network information technologies. We are at risk because these 
infrastructures are riddled with vulnerabilities and cannot be 
fully trusted, and there are malicious people greatly enabled 
by network connectivity seeking to exploit those 
vulnerabilities. Like auto safety or public health, cyber 
security should be viewed as a broad societal issue requiring 
continued improved responses to dynamically changing 
circumstances.
    These responses will require better, larger and more agile 
education and research programs and the effective and broad 
deployment of the output of those programs in timely ways. 
Technical progress will be of extreme critical importance but 
not in itself sufficient. Policy, economic and behavioral 
issues must also be addressed. In particular, market forces 
have failed to provide the Nation with a level of cyber 
security adequate for its needs. An authoritative, 
interdisciplinary study of how this may be changed would be of 
enormous benefit to the Nation.
    I would like to raise two other specific subjects of both 
near- and long-term urgency and importance. The first is what I 
fear is a coming tsunami of insecurity due to the spread of 
cellular telephones and other mobile devices. The second 
concerns educating a professional workforce.
    The ubiquitous spread of cell phones and other small 
increasingly powerful computers with wireless connections is 
likely to result in unprecedented opportunities for criminals, 
stalkers, industrial spies, foreign intelligence agencies and 
other unfriendly actors. Cell phone users number over 3.5 
billion, already a majority of the world's population and 
vastly outnumber traditional Internet users. This is leading to 
increased possibilities for information insecurity, not least 
because of the huge increase in the number of connected 
potential malicious actors and potential victims. Attacks 
employed against other computers will be deployed against the 
mobile devices, especially as they become primary means of 
access to the Internet. There are many additional 
vulnerabilities because of battery limitations, the use of 
airwaves instead of wires, the ease with which devices and the 
information on them may be lost or stolen, particular forms of 
denial of service attacks and new target applications such as 
digital wallets.
    The vulnerability of mobile devices potentially affects 
almost every American citizen and organization. Its 
international dimensions are without precedent. Research, 
development and deployment efforts to improve security will 
necessitate a solution to a large number of interdependent 
technical and business problems, and require researchers from 
multiple disciplines, and will depend on strong forms of 
involvement with the private sector and international 
institutions to ensure effective and widespread implementation.
    A safer and more secure cyberspace will also demand many 
more professionals in the workforce on the front-lines 
defending organizations and infrastructures. This will require 
new faculty and curricula at a wide range of educational 
institutions.
    I conclude by drawing your attention to one of the few 
efforts to grow this workforce on a national scale, the NSF 
Scholarship for Service Program. It provides scholarship 
support to U.S. citizens who must start their careers in the 
Federal Government. The results of this modestly funded program 
on the order of about $10 million per year have been 
impressive. Since 2003, 970 mostly Master's-level professionals 
from 34 universities across the country have been placed in 
agencies. Many of them would not have chosen to study cyber 
security or work for the Federal Government without it. The 
government has done well in establishing this program. It 
should be continued and carefully augmented to have a more 
extensive impact.
    Thank you for inviting me to testify. I will be happy to 
try to answer any questions that you have.
    [The prepared statement of Dr. Goodman follows:]
                Prepared Statement of Seymour E. Goodman
    Mr. Chairman, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee: Thank for you for the opportunity to appear before 
you today to discuss the subjects of Cyber Security R&D and Education.
    I am Professor of International Affairs and Computing at Georgia 
Tech, where I Co-Direct two centers: the Georgia Tech Information 
Security Center and the Center for International Strategy, Technology, 
and Policy. I also serve, or have recently served, as chair of the 
National Research Council Committee that authored Toward a Safer and 
More Secure Cyberspace in 2007; as Vice Chair of the Institute for 
Information Infrastructure Protection (I3P), a research consortium of 
27 universities, national labs, and federally funded non-profits; and 
as the Principal Investigator for Georgia Tech's NSF-funded Scholarship 
for Service Program.
    A large fraction of the American people, its businesses, and 
government institutions have become increasingly dependent on networked 
information technologies. We are at risk because these infrastructures 
are riddled with vulnerabilities and cannot be fully trusted, and there 
are malicious people who are greatly enabled by network connectivity 
seeking to exploit those vulnerabilities. Cyber security must be viewed 
as a broad societal issue, in part because vulnerabilities in the 
general commercial or home computing environments have profound 
consequences for the vulnerability of many prominent or critical 
targets. It must also be recognized that cyber protection will be an 
ongoing need, requiring continually improved responses to dynamically 
changing circumstances.
    These responses will require better and larger education and 
research programs, and the effective and broad deployment of the output 
of those programs in timely ways. Technical progress will be of 
critical importance, but not in itself sufficient. Policy, economic, 
and behavioral issues must also be addressed. In particular, as 
discussed in the NRC report, market forces have failed to provide the 
Nation with a level of cyber security adequate for its needs. An 
authoritative interdisciplinary research study on how this may be 
changed could be of enormous benefit to the Nation. We must also ensure 
that federally supported research has a broad impact on current and 
future security challenges. The 2007 NRC report, and the recently 
released NRC report Technology, Policy, Law, and Ethics Regarding U.S. 
Acquisition and Use of Cyberattack Capabilities both note that much of 
cyber security research is classified, and thus unlikely to have much 
impact in improving civilian security.
    I would like to address two particular subjects of both near- and 
long-term urgency and importance. The first is what I fear is a coming 
tsunami of insecurity due to the spread of cellular telephones and 
other mobile devices that contain substantial computing capabilities. 
The second addresses difficulties and progress with efforts to build 
the capacity to educate a professional workforce that is necessary to 
help achieve a safer and more secure cyberspace.
    The ubiquitous spread of cell phones and other small, increasingly 
powerful computers with wireless connections is likely to result in 
unprecedented opportunities for criminals, hackers, terrorists, 
industrial spies, foreign intelligence agencies, and other unfriendly 
actors. Cell phone users currently number over 3.5 billion, a majority 
of the world's population, and vastly outnumber traditional Internet 
users, especially in developing nations. And cell phone use is growing 
faster than Internet use. In the next five to ten years, most of the 
people on the planet will likely be using powerful mobile devices for 
more personal and professional functions. And these devices may 
supplant desktop and laptop computers as the primary form of access to 
a much larger Internet.
    This is leading to increased possibilities for information 
insecurity, not least because of the huge increase in the number of 
connected potential malicious actors and potential victims. Forms of 
attack currently employed against desktops and laptops will be deployed 
against mobile devices. In addition, there are many vulnerabilities 
more specific to them, because of battery limitations, the use of 
airwaves instead of wires, the ease with which they and the information 
on them may be lost or stolen, particular forms of denial of service 
attacks, and new and attractive target applications like digital 
wallets and pocket ATMs.
    The vulnerability of mobile devices potentially affects almost 
every American citizen and organization. Its international dimensions 
are without precedent. Any research, development, and deployment effort 
to improve security will necessitate solutions to a large number of 
interdependent technical and business problems, will require 
researchers from multiple disciplines, and will depend on strong forms 
of involvement with the private sector and international institutions 
to ensure effective and widespread implementation.
    So we have warning of looming security problems in a rapidly 
expanding domain. We have lots of experience and mistakes with the 
Internet. This time, will we be able to get ahead of the problem and 
make the world of mobile cyberspace safer and more secure before the 
Tsunami forms, builds momentum, and hits us?
    A safer and more secure cyberspace will also require many more 
professionals in the workforce on the front lines defending 
organizations and infrastructures. To produce these people, we need to 
increase the capacities of a wide spectrum of educational institutions, 
adding capable faculty and extensive new curricula, neither of which 
can be created overnight.
    I want to draw your attention to one of the few efforts to grow 
this workforce on a national scale: the National Science Foundation 
Scholarship for Service Program (SFS). This program provides some 
support for universities to build their faculty and curriculum to 
enable the offering of concentrations in information security and 
assurance. It primarily provides up to two-year scholarship support to 
U.S. citizens in the best of these programs who must (although most see 
it as an opportunity, rather than an obligation) work in the Federal 
Government for at least the same number of years as they were supported 
by the scholarship. For embryonic information security programs many 
universities find that these students help provide a critical mass for 
enrollments for several early years. Graduates help improve the 
security of the government's information systems and the agencies that 
depend on them, but more broadly these programs, once established, 
graduate others who work elsewhere to improve security postures.
    The results of this modestly funded program (recently on the order 
of $10 million per year) have been impressive. Since 2003, 970 mostly 
MS-level professionals from 34 universities across the country have 
been placed in agencies. Many programs at these universities may not 
have become viable without the NSF support, and the majority of the 
scholarship students would not have chosen to study cyber security and 
work for the Federal Government without the visibility and inducements 
of the program. Some of these universities have become assets to other 
regional educational institutions, including schools for law 
enforcement and two-year colleges.
    Most of the curriculum being developed and offered is in the form 
of computer science courses. These are necessary, but not sufficient, 
to the educational needs. There is a need for multi-disciplinary 
courses that introduce important matters relating to management, law, 
policy, human behavior, and the international dimensions of cyber 
security. Only a small number of universities have serious courses of 
this kind. They should be designed with the intention of facilitating 
export to many institutions since few have faculty in positions to work 
on these aspects at this time. Perhaps an NSF program might help 
address such needs?
    The government has done well in establishing this program, to its 
own direct benefit and the country's more generally. It should be 
continued and carefully augmented to have a more extensive impact. 
Thoughts along those lines might include the range of degrees supported 
with the scholarships, and the range of employment options permitted, 
for example, teaching at two-year colleges or in parts of the country 
with particular needs.
    A major capacity building bottleneck that affects all levels of 
educational and research needs is the production of Ph.D.s in this 
area. Today, at most levels of tertiary education, a Ph.D. is a 
necessary credential for a long-term career. Many who are working these 
problems as researchers and educators are recent additions to the 
ranks, as newly minted Ph.D.s or converts from other fields. Building 
the doctoral ranks takes time and others who can provide close 
supervision. However the task is not insurmountable; it will take a 
concerted effort that should be pursued with national-level vigor.
    This concludes my statement. I will provide some additional written 
material to the Subcommittee's staff.
    Thank you for inviting me to testify. I would be happy to try to 
take any questions you have.

                    Biography for Seymour E. Goodman
    Seymour (Sy) E. Goodman is Professor of International Affairs and 
Computing at the Sam Nunn School of International Affairs and the 
College of Computing, Georgia Institute of Technology. He also serves 
as Co-Director of the Center for International Strategy, Technology, 
and Policy and Co-Director of the Georgia Tech Information Security 
Center.
    Prof. Goodman studies international developments in the information 
technologies and related public policy issues. In this capacity, he has 
over 200 publications and served on many academic, government and 
industry advisory, study, and editorial committees. He has been the 
International Perspectives editor for the Communications of the ACM for 
almost 20 years, and has studied computing on all seven continents and 
in about 90 countries. He recently served as Chair of the Committee on 
Improving Cybersecurity Research in the United States, National 
Research Council, Computer Science and Telecommunications Board, 
National Academies of Science and Engineering.
    Immediately before coming to Georgia Tech, Prof. Goodman was the 
Director of the Consortium for Research in Information Security and 
Policy (CRISP), jointly with the Center for International Security and 
Cooperation and the School of Engineering, Stanford University. He has 
held appointments at the University of Virginia (Applied Mathematics, 
Computer Science, Soviet and East European Studies), The University of 
Chicago (Economics), Princeton University (The Woodrow Wilson School of 
Public and International Affairs, Mathematics), and the University of 
Arizona (MIS, Soviet and Russian Studies, Middle Eastern Studies).
    Prof. Goodman was an undergraduate at Columbia University, and 
obtained his Ph.D. from the California Institute of Technology where he 
worked on problems of applied mathematics and mathematical physics.

    Chairman Lipinski. Thank you, Dr. Goodman.
    The Chair now recognizes Ms. Franz.

 STATEMENT OF MS. LIESYL I. FRANZ, VICE PRESIDENT, INFORMATION 
         SECURITY AND GLOBAL PUBLIC POLICY, TECHAMERICA

    Ms. Franz. Chairman Lipinski, Ranking Member Ehlers and 
distinguished Members and staff of the Subcommittee, thank you 
for the opportunity to testify and to provide the technology 
industry's perspective on cyber security research and 
development and on the cyber workforce. I respectfully submit 
my written statement for the record.
    As innovators of technologic solutions as well as critical 
infrastructure owners and operators, the private sector is a 
key stakeholder and partner in improving our cyber security 
posture. While there are many things we collectively need to do 
on a real-time operational basis, we also need to be working on 
longer-term strategic initiatives that will ensure our cyber 
security posture and leadership for the future. R&D and 
education for a skilled workforce are precisely those areas 
that are strategic in nature and require immediate and 
sustained attention. I will address both in my testimony today.
    Currently, we expect about two-tenths of the Federal 
Government's 2009 budget to go towards cyber security R&D. That 
amounts to about $300 million, which in today's highly 
networked and highly interdependent environment is deemed by 
most to be inadequate. We welcome the Comprehensive National 
Cybersecurity Initiative's R&D efforts under the Cyber Leap 
Year project to identify the most promising game-changing ideas 
to reduce vulnerabilities and we look forward to the results of 
that process. We also welcome the R&D focus in President 
Obama's Cyberspace Policy Review. We are very pleased with the 
report's inclusion of R&D, its acknowledgment of the need for 
public-private collaboration and we view this new impetus for a 
framework as an opportunity to pursue greater cooperation.
    Companies conduct R&D all the time to develop products and 
services needed in the marketplace. On the more strategic side, 
many companies also participate in partnership efforts to 
assess and mitigate risk to the IT sector including R&D under 
the National Infrastructure Protection Plan partnership 
framework. However, there is no institutionalized mechanism for 
providing input into the federal R&D portfolio development but 
through increased collaboration we are enhancing the mutual 
understanding on R&D efforts between industry and government. 
Increased coordination is crucial to identify gaps and fill 
them and to avoid unnecessary duplication between the projects 
that industry might undertake and those that the government 
might undertake. That is why we recommend a more formal 
mechanism be put in place for industry's input, and 
importantly, for public-private collaboration where necessary 
and feasible--and especially in projects that are national in 
nature and will reset the paradigm.
    Another interesting concept is a national clearinghouse to 
serve as an intermediary between government, industry, and 
other stakeholders on dialogue and collaboration for R&D and 
related projects.
    I would like to take my remaining time to focus on the 
cyber security workforce. The adoption of technology has far 
out-paced our education and training capabilities for 
developing a pool of skilled IT security professionals, so we 
are short everywhere. Interestingly, on the way home from work 
yesterday I was behind a city bus in D.C. and there was an 
advertisement for a job fair for IT professionals for DISA and 
JTFGNO, the DOD joint taskforce global network operations. 
Believe me, that is something I never thought I would see on 
the back of a bus, but it is one example of active government 
recruiting efforts in this area.
    Existing federal cyber-related education and service corps 
programs like the one that Dr. Goodman mentioned are laudable 
ones but they are not without their own challenges. Recruitment 
and retention are both difficult. We need to continue efforts 
to improve our university and existing job programs and develop 
a relevant government career path to help meet and retain the 
demand. In addition, we cannot rely only on a university 
education to help shore up our personnel resources for the 
future. We need to adjust our national education curriculum for 
the K through 12 years to reflect the new environment as well. 
Kids today are much more computer savvy than we ever dreamt of 
being so we need to match and magnify that capability for our 
future.
    In sum, we have much to do but we welcome recent efforts 
and are optimistic about the opportunity to work together to 
leverage the momentum and make progress.
    Thank you for the opportunity to appear before you today 
and express industry's perspective on this important issue, and 
I will try to answer any questions you may have.
    [The prepared statement of Ms. Franz follows:]
                 Prepared Statement of Liesyl I. Franz
    Chairman Gordon, Chairman Lipinski, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, my name is Liesyl Franz, and 
I am Vice President for Information Security and Global Public Policy 
at TechAmerica. Thank you for giving us the opportunity to testify 
today and to provide the technology industry's perspective on Cyber 
Security Research and Development.
    TechAmerica is a trade association with the strongest advocacy 
voice for the technology industry in the U.S. formed by the January 
2009 merger of four major technology industry associations--the 
Information Technology Association of America (ITAA), AeA (formerly the 
America Electronics Association), the Government Electronics and IT 
Association (GEIA), and the Cyber Security Industry Alliance (CSIA). 
The new entity brings together over 1,500 member companies in an 
alliance that spans the grass roots--with operations in nearly every 
U.S. state--and the global with relationships with over 70 national IT 
associations around the globe. The U.S. technology industry is the 
driving force behind productivity growth and jobs creation in the 
United States and the foundation of the global innovation economy. 
TechAmerica's members are the very companies--both hardware and 
software manufacturers--that serve as the foundation of our national 
digital infrastructure, as well as those that are providing systems 
integration services, enterprise IT and management solutions, and a 
wide variety of information security solutions for small, medium, and 
large companies, consumers, and government agencies.
    I am here today to highlight the critical role of technology, 
research and development, and science education in helping to secure 
cyberspace--one we share with our government partners, our customers 
and users around the world. As critical infrastructure owners and 
operators, the private sector is a key stakeholder--and partner--in 
improving our cyber security posture. While there are many things we 
collectively need to do on a real-time, operational basis, we also need 
to be working on longer-term, strategic initiatives that will ensure 
our cyber security posture and leadership for the future. Research and 
Development and education for a skilled work force are precisely those 
areas that are strategic in nature and require immediate and sustained 
attention. I will address both in my testimony today.
    TechAmerica, or formerly ITAA, has been very engaged in cyber 
security effort from the beginning. We served as the IT sector 
coordinator and founder of the IT Sharing and Analysis Center (IT-ISAC) 
during the Clinton Administration, and we have been a leading industry 
voice since. We actively advocated for the Cyber Security Research and 
Development Act of 2002. We played a significant role for industry in 
the development of the National Strategy to Secure Cyberspace and the 
Cyber Security Summit that followed in 2003. We played a leading role 
in the establishment of the IT Sector Coordinating Council (IT SCC) 
under the National Infrastructure Protection Plan (NIPP), and I am 
honored to serve as the current Secretary. We have a long-standing and 
robust Information Security Committee that works on all manner of cyber 
security policy issues, and we are happy to provide our input today.

The State of Cyber Security Research and Development Funding

    In 2002, the Congress passed, and President Bush signed into law 
the Cyber Security Research and Development Act, which provided for 
over $900 million over five years in cyber security R&D funding for the 
National Science Foundation (NSF) and the National Institute for 
Standards Technology (NIST). That funding was sorely needed at the time 
and has contributed to the body of knowledge that we have today to 
address the kinds of threats we face in cyberspace.
    Today, we understand that the Federal Government plans to spend 
about $143 billion in 2009 on R&D. The Center for Strategic and 
International Studies' (CSIS) Commission of Cyber Security for the 44th 
Presidency noted that of that amount, two-tenths, or about $300 
million, would go to cyber security. ``Given the important of cyber 
security to all aspects of our national defense and economy coupled 
with the more sophisticated cyber threats we face,'' the report stated, 
``a $300 million R&D investment is in adequate.'' \1\
---------------------------------------------------------------------------
    \1\ Securing Cyberspace for the 44th Presidency: A Report of the 
CSIS Commission on Cybersecurity for the 44th Presidency, Center for 
Strategic and International Studies; page 74; http://www.csis.org/
media/csis/pubs/081208<INF>-</INF>securingcyberspace<INF>-</INF>44.pdf
---------------------------------------------------------------------------
    The CSIS Report acknowledges the introduction of the Comprehensive 
National Cybersecurity Initiative (CNCI) and its recognition of the 
shortfalls in cyber security related R&D funding, along with its 
related efforts. The CNCI calls for increased cyber security R&D 
funding in the future and has embarked on a consultative process under 
the Networking Information Technology Research and Development (NITRD) 
program's Cyber Leap Year project to ``identify the most promising 
game-changing ideas with the potential to reduce vulnerabilities to 
cyber exploitations.'' \2\ Currently in its third phase, the NITRD 
request for information (RFI) process for Cyber Leap Year has canvassed 
the cyber security community for ideas, is holding workshops to explore 
the best ideas presented, and will publish its findings on game-
changing ideas, technical strategies for needed research, 
productization and implementation of capabilities, and recommendations 
for success, including funding.\3\ We look forward to the results of 
the NITRD process.
---------------------------------------------------------------------------
    \2\ http://www.nitrd.gov/leapyear/
    \3\ http://www.nitrd.gov/leapyear/NCLY<INF>-</INF>RFI-3.pdf
---------------------------------------------------------------------------
    Most recently, President Obama released his Cyberspace Policy 
Review on May 29, 2009. In addition to his welcome announcement that he 
would appoint a cyber security coordinator in the White House, the 
President also committed his Administration to ``invest[ing] in the 
cutting-edge research and development necessary for the innovation and 
discovery we need to meet the digital challenges of our time.'' \4\ The 
cyber review itself recommended that R&D frameworks should be linked to 
infrastructure development and called about the Federal Government to 
(1) work with industry to ``develop migration paths and incentives for 
the rapid adoption of research and technology development, including 
collaboration between academic and industrial laboratories,'' and (2) 
``in collaboration with the private sector and other stakeholders . . . 
use the infrastructure objectives and the R&D Framework to help define 
goals for national and international standards bodies.'' In its 
recommended near-term action plan, the report called for the 
development of ``a framework for research and development strategies 
that focus on game-changing technologies that have the potential to 
enhance the security, reliability, resilience, and trustworthiness of 
digital infrastructure; provide the research community to event data to 
facilitate developing tools, testing theories, and identifying workable 
solutions.'' \5\ We were very pleased with the call for working with 
industry on these efforts.
---------------------------------------------------------------------------
    \4\ http://www.whitehouse.gov/
the<INF>-</INF>press<INF>-</INF>office/Remarks-by-the-President-on-
Securing-Our-Nations-Cyber-Infrastructure/
    \5\ Cyberspace Policy Review: Assuring a Trusted and Resilient 
Information and Communications Infrastructure, p. 37, The White House; 
http://www.whitehouse.gov/assets/documents/Cyberspace--Policy--Review--
final.pdf
---------------------------------------------------------------------------
    Industry itself has coalesced its efforts around cyber security 
research and development efforts that seek to affect the greater needs. 
Of course, individual companies conduct R&D all the time on the 
products and services it needs to drive market solutions and meet the 
demands of their customers. In fact, the overwhelming bulk of cyber 
security R&D is provided by private sector entities seeking to develop 
the most innovative solutions to meet the broad market requirements. 
While the protection of our national critical infrastructures relies on 
these efforts, there are gaps in cyber security capabilities for which 
there is such limited market demand or the lack of market awareness. 
The Cyber Leap Year project under the CNCI and other efforts 
demonstrate the Federal Government's understanding that such a gap 
exists and we need to work together or fill it. Further, federal R&D 
will result in technology that can improve the Nation's security if 
that technology is transferred to industry--in accordance with existing 
federal technology transfer policies--for further development and 
integration into cyber infrastructures.
    In addition to discrete company R&D projects, the IT industry has 
been working together on the strategic side of R&D planning in the IT 
SCC's Research and Development Committee. The R&D Committee is charged 
with conducting annual reviews of R&D initiatives in the IT Sector and 
recommending updates to industry priorities based on changes in 
technology, threats, vulnerabilities, and risk. The sector has come a 
long way in the last three years informing the process of R&D 
prioritization through a risk assessment process. This process 
identifies the cyber risks in our IT infrastructure and evaluating what 
protective programs exist to cover those risks. R&D is leveraged to 
evaluate innovative ways to cover gaps in the protective programs and 
evolve programs with the risk. This R&D prioritization process is a 
collaborative one between IT Sector and our Government counterparts. 
Additionally, the IT risk assessment, protective programs, and R&D 
efforts are coordinated across all critical infrastructure and key 
resource sectors (CI/KR) through the Cross-Sector Cyber Working Group 
(CSCSWG).
    Until recently, this coordination has been limited to the 
Department of Homeland Security (DHS) as the Sector Specific Agency 
(SSA) for the IT SCC; however, through joint collaborative success, the 
IT SCC has started coordinating prioritization with the Interagency 
Working Group (IWG) on Cyber Security and Information Assurance (CSIA). 
The purpose of this collaboration is to highlight the role of the 
private sector in cyber security R&D and reduce duplication of 
investment in private and public sector. The IT SCC R&D Committee has 
developed a cyber security R&D information sharing framework that 
highlights those risk areas that receive less private sector emphasis 
due to the limited market need for the investment. With an overwhelming 
amount of market R&D investment addressing commercially viable 
concepts, there are those risks that are of greater interest and need 
higher prioritization in government. The IT-SCC facilitates this 
information sharing between the private sector and the CSIA to help 
agencies better prioritize individual agency R&D spending, as well as 
project selection as well as coordinate cross-agency spending on risks 
that will receive less attention from private sector entities. As an 
example, through the IT-SCC R&D Committee work we have learned that 
there is not much private sector R&D on cyber forensics as it relates 
to law enforcement evidence trail. As such, this area of investment 
appears to be de-prioritized in the private sector and may need to be 
prioritized by government R&D programs to garner the innovation 
necessary to align with the need for the ability to analyze cyber 
incidents. We have also learned that there are cases in which 
government has undertaken R&D in areas where the private sector is 
already making a significant investment, so the increased dialogue is 
important to avoid such duplication.
    There is no institutionalized mechanism for the private sector to 
provide input into the process by which the federal research portfolio 
is developed. It is the vision of the IT-SCC R&D Committee to provide a 
collaborative, partnered environment that allows both government and 
private sector to break down existing barriers and promote 
collaboration in IT Sector security R&D. The goal is to better inform 
both government and industry about existing and prospective work--and 
needs--so that resources are allocated and used more efficiently and 
government can leverage the already existing commercial investment such 
that it can better target the limited R&D resources. While we believe 
these efforts are making a difference in the coordination and dialogue 
between industry and government, we strongly recommend a more formal 
mechanism be put in place for such input and collaboration. Such a 
mechanism should include all the elements of the R&D life cycle: 
identification of current and prospective R&D in the industry; 
determination of the gaps in the market that need to be filled by 
government efforts; and, where necessary and feasible, joint industry 
and government collaboration on R&D projects. Collaboration should also 
take place with our global partners in government and industry so that 
we can leverage, rather than duplicate, efforts.
    As we note, there is discrete R&D occurring in industry and in 
government, respectively. Presumably these are geared toward new 
product development or solutions to problems in the existing 
environment. However, we believe there is now an opportunity for a more 
strategic public private partnership in research and development for 
greater cyber security into the future. We have yet to create a 
mechanism for true government-industry collaboration on specific 
projects, particularly those that will re-set the paradigm. That will 
take some effort to define, fund, and implement, but it will be crucial 
for addressing longer-term challenges and cyber security measures for 
the future.
    Another notion that could be explored in order to help achieve 
greater coordination and collaboration is the creation and funding for 
a national clearinghouse to serve as an intermediary between government 
and industry on dialogue and collaboration for R&D and, even, other 
pertinent projects such as building a reference resource for standards, 
best practices, and collaboration opportunities. Notionally, such an 
entity could be created through a partnership between academia, 
industry and government and be administered by a broad based national 
nonprofit organization meeting such appropriate criteria as substantive 
expertise and a distributed network with operations in most states.

The State of Cyber Security Education

    The exponential growth in the use of information technology for 
just about every aspect of our society and economy today has yielded 
remarkable results in innovation, efficiencies, productivity, and new 
business models for new product services. However, that growth has far 
out-paced our education system and training capabilities for developing 
a pool of skilled information technology--and information security--
professionals. So, we are short, both in industry and in government.
    Certainly there have been efforts to incent universities to build 
robust information security programs, such as the National Centers for 
Academic Excellence in Information Assurance Education (CAEIAE) 
sponsored jointly by the National Security Agency (NSA) and DHS.\6\ 
Currently 93 universities have met the criteria for a national center, 
and students that graduate from these programs are eligible to apply 
for scholarships and grants through the Department of Defense 
Information Assurance Scholarship Program and the Federal Cyber Service 
Scholarship for Service Program. The Federal Cyber Service Scholarship 
for Service Program\7\ is a unique program designed to increase and 
strengthen the cadre of federal information assurance professionals 
that protect the government's critical information infrastructure. This 
program provides scholarships that fully fund the typical costs that 
students pay for books, tuition, and room and board while attending an 
approved institution of higher learning. Additionally, participants 
receive stipends of up to $8,000 for undergraduate and $12,000 for 
graduate students. The scholarships are funded through grants awarded 
by the National Science Foundation (NSF), and recipient students must 
serve at a federal agency in an information assurance position for a 
period equivalent to the length of the scholarship or one year, 
whichever is longer.
---------------------------------------------------------------------------
    \6\ http://www.nsa.gov/ia/academic<INF>-</INF>outreach/
nat<INF>-</INF>cae/index.shtml
    \7\ https://www.sfs.opm.gov/
---------------------------------------------------------------------------
    These are laudable programs, but they are not without their own 
challenges. For example, designation as a national center does not 
guarantee grant funding, and students in the ``cyber corps'' program do 
not always find relevant, open positions in the government on a timely 
basis. An additional challenge for government cyber security 
professionals is that there is not a clear career path that includes 
training and advancement opportunities for cyberspace specialists in 
the Federal Government. Inevitably, skilled, trained, cyberspace 
professionals seek jobs in the private sector. While that is not bad 
for companies who are constantly looking for skilled cyber security 
personnel, it reflects an imbalance in the system and still sees 
shortages for everyone.
    We cannot rely only on university education to help shore up our 
personnel resources for the future. We need to adjust our national 
education curriculum for K-12 years to reflect the new environment as 
well. Yes, it is science and math, certainly, and we welcome President 
Obama's new commitment to education in science in math as part of a 
``national campaign to promote cyber security awareness and digital 
literacy from our boardrooms to our classrooms, and to build a digital 
workforce for the 21st century.'' \8\ Specifically, the President's 
Cyber Policy Review recommends, as part of its mid-term action plan, 
expanded support for key education programs (and R&D) and the 
development of a strategy to expand and train the workforce, including 
attracting and retaining cyber security expertise in the Federal 
Government.\9\ We welcome the recommendations, and industry looks 
forward to working with the government to help meet those objectives.
---------------------------------------------------------------------------
    \8\ http://www.whitehouse.gov/
the<INF>-</INF>press<INF>-</INF>office/Remarks-by-the-President-on-
Securing-Our-Nations-Cyber-Infrastructure/
    \9\ Cyberspace Policy Review: Assuring a Trusted and Resilient 
Information and Communications Infrastructure, p. 38, The White House; 
http://www.whitehouse.gov/assets/documents/
Cyberspace<INF>-</INF>Policy<INF>-</INF>Review<INF>-</INF>final.pdf

Conclusion

    In sum, there are some key areas for short- and longer-term work on 
cyber security R&D and education and training needs.
    We commend the Congress for its early focus on cyber security 
issues and this subcommittee for convening this panel today as part of 
your cyber security series. This congressional session provides a 
significant opportunity to make progress, and we look forward to 
working with you and your colleagues to develop proposals for 
meaningful change.
    Thank you for the opportunity to appear before you today and 
express industry's perspective on this important issue. I would be 
happy to answer any questions you may have.

                     Biography for Liesyl I. Franz
    Liesyl Franz is Vice President for Information Security and Global 
Public Policy at TechAmerica, working with industry and government 
leaders on such issues as cyber security, critical infrastructure 
protection and Internet Governance. In this role she leads 
TechAmerica's strategic and tactical efforts on public policy in these 
areas with the Administration, Congress, and international 
organizations. In addition, she represents TechAmerica in the 
Information Technology Sector Coordinating Council (IT SCC) under the 
National Infrastructure Protection Plan (NIPP), where she currently 
serves as Secretary.
    Liesyl joined TechAmerica (previously ITAA) from the Department of 
Homeland Security, where she served as Deputy Director for Outreach and 
Awareness and Director for International Affairs and Public Policy at 
the National Cyber Security Division (NCSD). She led programs in the 
areas of global affairs, public policy, communications and messaging as 
well as stakeholder outreach, including building international 
partnerships, coordinating public relations for key events such as the 
Cyber Storm National Cyber Exercise and conferences, and managing 
events for National Cyber Security Awareness Month held annually in 
October.
    Prior to her service at DHS, Liesyl was Director for Global 
Government Affairs at EDS Corporation working on cyber security, 
privacy, financial services, and trade issues, and she worked with the 
Coalition of Service Industries where she managed industry's 
participation and input into services trade negotiations in the World 
Trade Organization (WTO).
    Liesyl was recognized in 2005 by the Women's High Tech Coalition 
with the Women in Cyber Security Award for her contribution to public-
private partnerships and international collaboration in cyber security. 
She holds a BA in Political Science from the University of Texas at 
Austin and an MA from the Elliott School of International Affairs at 
George Washington University.

    Chairman Lipinski. Thank you, Ms. Franz.
    The Chair now recognizes Dr. D'Amico.

  STATEMENT OF DR. ANITA D'AMICO, DIRECTOR, SECURE DECISIONS 
                DIVISION, APPLIED VISIONS, INC.

    Dr. D'Amico. Thank you, Mr. Lipinski and Mr. Ehlers and the 
Subcommittee. I am the Director of Secure Decisions, a division 
of Applied Visions, which is a small business in New York. We 
specialize in improving the situational awareness of cyber 
defenders. We help them understand what is going on in the 
network, find suspicious activity and figure out what to do 
about it.
    I would like you to note the name of my division, Secure 
Decisions. As a psychologist, I wanted the name to reflect the 
importance of human decisions of security professionals. I have 
since learned we need to improve the decisions of a lot of 
people, not just security professionals. We must teach 
programmers to make secure design decisions that build security 
into software from the beginning and not just tacked on at the 
end. Home users need to be educated about the risks of their 
Internet decisions before they click on the interesting ad. 
Students need to learn the ethics of using computers for 
entertainment and online socializing. We need to change the 
culture to make good security second nature to all of us and 
not something that we try to avoid.
    But this change in culture is not going to be achieved by a 
bunch of smart engineers designing new intrusion detection 
systems. This cultural shift requires the expertise of those 
who understand how to change minds, that is, the social 
sciences. So my first take-away to this committee is that cyber 
security education is not just for security wonks. We need to 
broaden the base of those we teach and involve the social 
sciences in the education of this larger audience.
    My second take-away is that we have to get better at 
training the people whose job is computer security. New 
graduates with information security degrees have little 
opportunity to learn by doing as prior generations had to do. 
Young soldiers in particular have little time to become 
proficient before rotating out to their next assignment. How do 
we improve this? First, we need to formalize the mentorship of 
the new generation. Before the old guard retires, they need to 
share their knowledge with the newbies but mentorship is not 
something that comes naturally to everyone and that is where 
the social sciences can help.
    Second, we need better ways for security practitioners to 
share information with their own peers. New collaboration 
techniques developed with social scientists can make a 
difference.
    Third, we need to train professionals on realistic yet safe 
training networks where they can practice their skills without 
bringing down eBay. This is also needed for researchers to test 
out their new technologies. And speaking of research, few 
results of federally funded cyber R&D ever make it into the 
real-world operations. As a taxpayer, I find this disturbing. 
Little research funding is directed at technology transition. 
Once the paper is published, many researchers and government 
program managers feel their job is done. The rest of the work, 
making the technology affordable and usable, is abandoned in 
the hope that someone else will pay for it. Furthermore, 
academicians are judged by their publication history but few 
scientific journals consider technology transition worthy of 
their attention.
    And finally, computer scientists are often just not into 
the softer side of security, that is, how people use the 
technology, yet studying how people use cyber security 
technology is exactly what is needed to improve technology 
transition. We need to study the usability of systems and to 
test them in operational environments where real people get to 
try them out. So my third take-away to the Committee is that 
the government should fund projects through the technology 
transition phase and should use transition to evaluate both 
researchers and the government program managers.
    My last message is about how little input the private 
sector has in the federal research portfolio. With the 
exception of a few ISACs, the private sector has no voice. 
Furthermore, the private sector cannot easily tap into the 
results of the federally funded research. I believe the 
government should require researchers to publish their results 
in the trade magazines and the online forums where security 
professionals communicate, not just in the scientific journals.
    In closing, please keep in mind what information security 
experts often say: Cyber security is about people, processes 
and technology. As educators and researchers, we must look at 
all three of these things, not just technology. I am one of the 
few psychologists actively engaged in cyber security R&D. I am 
surrounded by computer scientists and engineers, but I hope 
with this committee's support that in the future my position as 
a psychologist in cyber security will just be a bit less 
lonely. Thank you.
    [The prepared statement of Dr. D'Amico follows:]
                  Prepared Statement of Anita D'Amico

Introduction

    Thank you Chairman Lipinski, Ranking Member Ehlers, and Members of 
the Subcommittee for the opportunity to testify on this important 
topic.
    I am the Director of the Secure Decisions division of Applied 
Visions, Inc. I was educated as an experimental psychologist; applied 
my skills as a human-factors psychologist in maritime ship operations, 
manned spacecraft and surveillance aircraft; and for more than 15 years 
have been involved in various aspects of cyber R&D. For the past nine 
years I have been directing the Secure Decisions division of AVI to 
enhance the situational awareness of those defending our critical 
computing infrastructure.
    As a small business engaged in custom software development, Applied 
Visions recognized over a decade ago the frailty of our country's IT 
infrastructure and the importance to our country of instilling and 
monitoring good cyber security practices. AVI invested in a new 
division dedicated to improving the situational awareness of those 
responsible for defending our critical IT infrastructure. In under ten 
years the Secure Decisions division has become, even as a small 
business, a leader in cyber situational awareness R&D.
    We perform R&D sponsored by the Department of Defense, the 
Intelligence Community, and the Department of Homeland Security. And 
from my perspective one of our most valuable contributions is when we 
transfer that R&D into usable products for use in both DOD and in 
industry. We publish research results--those that we are permitted to 
disseminate--in peer-reviewed journals. We partner with large companies 
like Raytheon and ITT, universities including Johns Hopkins and George 
Mason, and other small businesses.
    We owe our continued growth in cyber security research in part to 
the U.S. Government's Small Business Innovation Research (SBIR) 
program. Our company is a testimony to the valuable role that SBIRs 
play in transforming cyber security research into operationally usable 
software systems and products. Unlike many federally-funded R&D 
programs that have little accountability for the ultimate operational 
utility of their research, the SBIR structure holds us accountable 
for--and rewards--the transition from early stage innovative concepts 
to prototype development and technology transition planning, all within 
a typical SBIR lifespan of three years.

The Human Element in Cyber Security

    We named our division ``Secure Decisions'' to recognize the 
importance of human decisions in cyber security. As a psychologist 
working in a field predominated by computer scientists, I chose a name 
that reflected our goal to enhance the situational awareness and 
decision-making of cyber security practitioners. Of course, security 
practitioners are not the only individuals whose decisions make our 
critical computing infrastructure more or less secure. Many others, 
including home-users of computers, policy-makers, cyber lawyers, 
software developers, and educators, make us all more or less secure 
through their individual actions.
    The current emphasis in cyber security R&D has been technological: 
creating or improving tools to enforce security. While this is indeed 
necessary, there is a significant human element to the problem that 
cannot be ignored. As researchers and educators, we must address all 
the many different roles that we humans play in cyber security, beyond 
just the security practitioner who administers firewalls, tunes 
intrusion detection systems, and monitors networks. We must also 
educate the software developer, lawyer, policy-maker, and all of us 
users who are unwitting accomplices of the attacker. The 
recommendations in the Cyberspace Policy Review just issued by the 
White House\1\ recognize this.
---------------------------------------------------------------------------
    \1\ Cyberspace Policy Review (2009); http://www.whitehouse.gov/
assets/documents/
Cyberspace<INF>-</INF>Policy<INF>-</INF>Review<INF>-</INF>final.pdf
---------------------------------------------------------------------------
    Let's look at the software developer as one example of the need for 
enhanced security education. From the very start of the software life 
cycle--creating the software itself--software developers are 
inadequately schooled in how to program securely; security is often 
added on afterwards. Rewards are given for speed to market, not for 
creating secure software. For example, just two programming errors 
resulted in more than 1.5 million web site security breaches during 
2008.\2\ And all too often, the developer's initial response to the 
discovery of a vulnerability is something akin to ``gee, we never 
thought a user would do that with it.'' We must change the way that 
programmers go about understanding the needs and behaviors of us as 
users, and in creating the software that we use.
---------------------------------------------------------------------------
    \2\ SANS Security Leadership Essentials for Managers: Experts 
Announce Agreement on the 25 Most Dangerous Programming Errors--And How 
to Fix Them, January 12, 2009; http://www.sans.org/top25errors/
?utm<INF>-</INF>source=web&utm<INF>-</INF>medium=text-
ad&utm<INF>-</INF>content=Announcement<INF>-</INF>Bar<INF>-</INF>2009011
1&utm<INF>-</INF>campaign=Top25&ref=37029
---------------------------------------------------------------------------
    Technical solutions must be easily deployable and usable. Gaining a 
deeper understanding of how people use technology by bringing together 
computer science and the behavioral sciences can make our technological 
breakthroughs actually useful and relevant to society.
    We then must educate the cyber policy-makers and legal 
professionals in the fundamentals of confidentiality, integrity, and 
availability of information systems so that they understand the context 
in which they regulate and prosecute. The law generally has lagged far 
behind technology; we need technology-savvy courts to keep pace with 
the changing landscape. Few lawyers are sufficiently schooled in 
technology and security issues to be able to understand the problem 
well enough to decide whether or not proposed solutions to the problem 
are legal--and as a result, the usual answer is ``no.''
    And finally, we must educate the rest of us--the teeming masses who 
actually use the software and cyber infrastructure of the Nation--in 
how to better understand the risks associated with that use, and how to 
make better decisions.
    The cornerstone to this good security decision-making is our 
understanding of risk. Like most of life, security is about making 
decisions and choosing between options--making trade-offs between 
security and convenience, risk and comfort, safety and freedom. 
Overall, we're not bad at making security trade-offs.\3\ The problem we 
have right now is that our understanding of risk, our basis for making 
these choices about security; is still based primarily on our physical 
environment and life as it has been for thousands of years. Our ability 
to understand, evaluate, and react to risks has not yet acclimated to 
our current environment, meaning the realities of the 21st century and 
cyberspace. Our perceived risk and the actual risk do not match, and we 
often make the wrong decisions as a result.
---------------------------------------------------------------------------
    \3\ Schneier, Bruce. (2008) The Psychology of Security. http://
www.schneier.com/essay-155.html, Published Online.
---------------------------------------------------------------------------
    Therefore, part of raising the awareness of our citizens is to 
educate them in the actual, rather than the perceived, risks of 
traveling through cyberspace.

The State of Cyber Education

    The current approach to cyber education falls far short of 
adequately preparing this universe of developers, practitioners, and 
users for life in the cyber world. Current education is focused on 
training security practitioners and educating computer scientists, but 
little is being done for all of the other roles: security practitioner, 
home user, business owner, software and hardware designer/developer, 
policy-makers, legal professionals, and even young students using the 
Internet.

Emphasis on Technology and Not People

    Information security is often said to be about ``people, process, 
and technology.'' Technological change can almost be taken for granted, 
given the natural inclination of engineers and technologists to 
constantly improve things. Instead, changing how people think and the 
process by which we go about doing things should be our primary 
concern. We should be developing a new breed of multi-disciplinary 
cyber security experts educated in the areas of people, such as 
psychology and organizational behavior, and processes, such as 
management, business process, and the law.
    There has indeed been an increase in the number of academic 
institutions offering undergraduate and graduate degrees related to 
cyber and information security, but the majority of these programs are 
still technology-focused: computer science, computer engineering, 
electrical engineering, and so forth. This is not enough. Technology 
can shore up our defenses, but an emphasis on the social sciences can 
change the way we look at things: how we as a society view the risks 
and trade-offs in the digital world, and how we make those day-to-day 
decisions that have such a significant impact on the safety of our 
travels in cyberspace.
    Unfortunately, there are not many examples of the collaboration 
between the social sciences and the computer sciences required to 
achieve this shift in education. Conferences like the Workshop on the 
Economics of Information Security and the 2008 Workshop on Security and 
Human Behaviour are initiating a dialogue between technologists and 
social scientists, and we are beginning to see encouraging signs of 
this collaboration at the educational level. In addition, a workshop 
next month at the National Academy of Sciences, Usability, Security, 
and Privacy of Information Systems, is focused on identifying new 
research areas in ``usable security'' and will influence the research 
agendas of both NSF and NIST, which are sponsoring the workshop.
    Visionary leadership is needed to achieve these changes in 
educational philosophy. As long as technology is viewed as the end-all 
of cyber security research and education, the focus will remain on 
problems in that area. And even if technology development remains the 
focus of our cyber security research and education, we have several 
major hurdles to overcome. One hurdle is the shortage of U.S. citizens 
who are acquiring the requisite math and science skills needed to teach 
and conduct hard research in cyber security.\4\ This leaves many of the 
hard technology questions unanswered by our own citizens. Another 
hurdle--and this one I feel very strongly about--is the limited 
transfer of research findings into real-world use. Advanced education 
programs (such as for a Ph.D. in Computer Science or Information 
Systems) emphasize publication rather than transfer of findings into 
real practice. The system of grants that fund the work of students and 
their professors places more value on prior publications than practical 
results. We need to transition the research into the everyday world of 
Information Technology.
---------------------------------------------------------------------------
    \4\ Zweben, Stuart. Computing Degree and Enrollment Trends, from 
the 2007-2008 CRA Taulbee Survey, 2008, at 4, www.cra.org/taulbee/
CRATaulbeeReport-StudentEnrollment-07-08.pdf
---------------------------------------------------------------------------
    There are encouraging examples of such visionary leadership in 
interdisciplinary security. New York University, for example, recently 
merged with Brooklyn Polytechnic University, and quickly set out to 
build bridges between their engineering and social science communities. 
They now have a program combining Economics with Computer Science. 
Georgia Tech Information Security Center (GTISC) also recognizes the 
importance of interdisciplinary studies, and has launched a cooperative 
effort between their College of Computing and the Sam Nunn School of 
International Affairs. Despite these forward-thinking programs, there 
are few if any educational opportunities in cyber security that combine 
psychology, anthropology, or sociology with computer science.

Educational Challenges in the Military

    The military is also wrestling with this problem, although from a 
different perspective: they see the need for cross-disciplinary 
education to incorporate the social sciences into cyber operations in 
order to better understand the impact of cyber operations on both 
friend and foe--a form of ``battle damage assessment'' for cyber 
warfare. This interdisciplinary approach needs to become the norm 
rather than the exception: cross-disciplinary education needs to be not 
only encouraged, but required.
    The DOD faces other educational challenges that are somewhat unique 
to their organizational model. In fact, there are two characteristics 
of the DOD model that work together to make things quite difficult: 
incoming technical staff are more often chosen by aptitude than by 
experience, so that training must start at the most rudimentary level. 
And, the military tends to rotate people through posts on a regular 
basis, so that once they achieve some level of competency in cyber 
security they are likely to be transferred to some other discipline. 
This is further exacerbated by the fact that technical positions--such 
as Computer Network Defense--are not known to be a path to advancement 
(as opposed to traditional combat roles), and hence suffer high 
turnover.
    Conti and Surdu\5\ cite these challenges, among others, in their 
rationale for creating a fourth branch of the service--a peer to Army, 
Air Force, and Navy--to take on Cyberspace. This has cultural 
significance. They propose that top-notch cyber talent will clamor to 
join a service where cyber excellence is viewed as a path to 
advancement, and where just being a member of that service is a point 
of pride (as the Marines have achieved with their image as ``The Few, 
The Proud . . .''). They observe that many young technically-talented 
individuals make critical decisions in their formative years that 
influence the direction of their lives. Perhaps the most important 
decision made by these rising cyber stars is whether or not to engage 
in illegal activity, like hacking. Creating an elite cyber 
organization, complete with positive role models, will give these 
people a chance to make the right choices in their lives.
---------------------------------------------------------------------------
    \5\ Conti, Lt. Col. Gregory and Surdu, Col. John ``Buck.'' ``Army, 
Navy, Air Force, and Cyber--Is it Time for a Cyberwarfare Branch of the 
Military?'' IA Newsletter, Vol. 12 No. 1, Spring 2009, http://
iac.dtic.mil/iatac

Educating the Practitioners

    Security practitioners have traditionally been trained rather than 
educated: the emphasis has been on the practical application of tools 
and techniques to defend the network, rather than on gaining 
understanding of the principles and behaviors that inform cyber 
security. The ``old guard'' practitioners learned about computer 
security after their formal education was completed, through a form of 
on-the-job-training as they ``wrote the book'' on security best 
practices in the early years. Current practitioners may have had some 
formal education or training, perhaps a degree in computer science or a 
few courses that led them to obtain some certification, but most of 
their real learning still happens on-the-job. What neither group 
realizes is that much of that on-the-job training--which they view as 
``learning the ropes'' with tools and techniques for security--is in 
fact teaching them about the behavioral and social characteristics of 
their adversaries. The newest; upcoming generation is indeed getting 
more formalized education--for example, an MS in Information Security 
is now an option at many universities--but they lack the context for 
that education. Without real-world experience, and without including 
behavioral and social sciences in their education, they too will not 
gain a real understanding of the problems or of their adversaries until 
they have been on the job for a while.
    A few years ago we had an opportunity to conduct a formal Cognitive 
Task Analysis of nearly eighty information assurance analysts in the 
DOD and the Intelligence Community.\6\<SUP>,</SUP>\7\ We learned from 
that analysis that mentorship of network defenders is very important. 
Rapidly transferring corporate knowledge typically acquired through 
years of experience from old guard to new guard will be particularly 
important in the coming years as the first generation of network 
defenders retires. One area ripe for research is how to improve this 
mentorship to maximize the value of learning from the more-experienced 
to the less-experienced practitioner. Social science work on learning, 
mentorship, and collaboration can serve this need.
---------------------------------------------------------------------------
    \6\ D'Amico, A. & Whitley, K. (2005). Achieving cyber situational 
awareness: A cognitive task analysis of information assurance analysts. 
In Proceedings of the Human Factors and Ergonomics Society 49th Annual 
Meeting, Orlando, FL, pp. 229-233.
    \7\ D'Amico, A. & Whitley, K. (2007). The real work of computer 
network defense analysts: The analysis roles and processes that 
transform network data into situation awareness. In Proceedings of the 
Workshop on Visualization for Computer Security, Springer-Verlag Berlin 
Heidelberg, pp. 19-37.
---------------------------------------------------------------------------
    We also learned that the personality characteristics of entry-level 
network defenders are perceived by experts as equally or more important 
than their technical education. Such characteristics as curiosity, 
perseverance, assertive questioning, and good communication skills were 
considered strong markers of future success of an entry level defender. 
How do we select for and train these characteristics in our future 
cyber workforce to ensure that our defenses are as strong as possible? 
This is answered by the social sciences as much as by the technical 
disciplines.

Educating the Developers

    The emphasis on ``securing the perimeter'' of networks is a side-
effect of a more fundamental issue: security is all too often an 
afterthought. We build flawed software and then expend countless 
resources trying to patch the cracks and shore up the defenses. And 
when we do build flawed software products, the pressure to bring these 
products to market causes many to be released before adequate security 
testing has taken place. All of this raises questions about current 
software engineering pedagogy.
    We need to teach secure coding practices--and, more importantly, we 
need to convey a fundamental understanding of the importance of 
security--from the very start, in high school computer science classes. 
Most of our computer science programs in higher education teach 
students the fundamentals of developing software and systems, and 
culminate with students building some hardware or software object, but 
little attention is generally given to the design and implementation of 
security within these objects.
    Systems sometimes fail because the engineers considered a very 
narrow range of threats; again, the issue is a lack of understanding of 
the actual risks in the modern world. Information security needs to be 
an integral part of the core curriculum of computer science for both 
programmers and engineers. We must teach software developers and 
systems engineers how to go beyond just functional requirements in the 
design phase. They need to understand and anticipate all of the ways 
that experts and non-experts may use their systems. Usability and 
security testing needs to be performed side-by-side with functional and 
performance testing during development; students need this as part of 
their basic education.

Educating the Users

    The most difficult audience to get a handle on, but one that 
desperately needs more education, is ``the rest of us''--all of us who 
use these technologies, who suffer the consequences of failed security, 
and who all-too-often serve as unwitting accomplices to an attack.

We Need Realistic Test Data

    Another challenge relevant to the whole educational and research 
spectrum is the need for more realistic testing and evaluation of cyber 
technologies and processes. In most disciplines some form of real-world 
experimentation eventually becomes practical and necessary; for 
example, psychologists can evaluate human subjects and compare the 
results against control groups. In the cyber world this is 
exceptionally difficult: one cannot perform security experiments on an 
operational network (let alone on the Internet), yet ``simulating'' 
such an environment is a huge challenge. Many researchers have built 
small-scale simulated networks in the lab, but the human element--real 
people using the network for real tasks--is completely missing and 
quite difficult to simulate. Realistic training and test data that can 
scale to the size of large networks is needed to add operational 
realism to training and research, and to increase the applicability to 
real world conditions and the potential transfer to implementation. 
With this sort of realistic simulation and test data we can properly 
prepare practitioners and developers to operate in the cyber world; 
without it, they have no other choice but to ``learn by doing'' in the 
``real world,'' with risks and inefficiencies that implies.

The Contribution of Social Sciences to Computer Security

    The social and behavioral sciences can play a valuable role in 
studying and changing the various cultures--software developers, 
college students, and especially home computer users--so that 
individuals and societies engage in secure practices almost without 
ever thinking about them.
    We need to understand why our perception of security risk does not 
match reality. Risk perception is critical to helping us understand how 
to motivate secure behavior, make better decisions, and create policies 
that discourage destructive or invasive behavior through real 
consequences.
    We need to apply what we know about cultural influence to creating 
cultures that are supportive of secure and private computing.

Collaborative Techniques

    Human collaboration is an important means for analyzing information 
about potential attacks. There are numerous instances where one 
government agency or commercial organization was aware of a serious 
attack but did not have the authority, means or motivation to share 
that information.
    One group working to bridge this gap at the organizational level is 
the Information Sharing and Analysis Centers (ISAC) Council. There are 
several individual member councils that focus on various areas of 
critical infrastructures, such as Communications and Information 
Technology, but this group and its members represent the exception, not 
the norm, and information-sharing is particularly problematic within 
the government.
    But we also must foster collaboration at the individual level, and 
this is where the social sciences can help bring about positive change. 
Individual network defenders and law-enforcement agents struggle every 
day to find attackers. Often, several individuals are working at the 
same time in pursuit of the same perpetrator, but they have no idea of 
each other's existence or of their common goal. And worst of all, they 
don't know that each of them holds a different piece of the puzzle that 
carries the answer. If they had an effective means of communication, 
whether through online collaboration or shared visualizations, and if 
they have the understanding that they do not have to--and should not--
solve this problem alone, they would be able to work together more 
effectively. It is at that individual collaboration level that 
psychology and sociology can play a significant role.
    So in addition to all of the effort that is currently being applied 
to getting organizations to collaborate more effectively (as described 
in the President's Cyberspace Policy Review), we must also work just as 
hard to improve the ability of individuals to collaborate effectively 
within and across organizational boundaries. Assuming that policies 
allow for information sharing, we need to have media in place for 
collaboration and shared situational awareness.

Usability to Enhance Security

    There is a never-ending tug-of-war between security and usability. 
The more protections that are built into our systems, the harder they 
are to use. Apple famously lampooned Microsoft's attempts at improving 
the security of Windows Vista by asking users to ``cancel or allow'' a 
wide range of what users perceive as ``normal'' activities. And human 
nature being what it is, users do their utmost to find ways of 
circumventing these controls so they can get on with their work, 
including developing a knee-jerk response to ``allow'' everything that 
comes along.
    A lot of attention is being paid to usability of computing systems 
in general--making applications or web-sites more ``user friendly,'' 
for example--yet the concept is often ignored when security controls 
are designed in. Think of the most basic problem of remembering 
passwords. More stringent passwords, requiring nonsensical strings of 
numbers, letters and special characters, are at odds with people's 
innate ability to remember short, meaningful sequences of information. 
As a result, people simply write them down on post-it notes and stick 
them to their monitors for all to see. There are some encouraging 
sparks of innovation in this area: for example, graphical passcodes\8\ 
for user authentication. These new types of password, which use 
pictorial elements, take advantage of people's visual memory recall and 
are remembered better than meaningless strings of alphanumerics.\9\ 
This sort of forward-thinking research needs to be applied across the 
entire security problem.
---------------------------------------------------------------------------
    \8\ http://www.passfaces.com
    \9\ Johnson, K. & Werner, S. (2008) Graphical user authentication: 
A comparative evaluation of composite scene authentication vs. three 
competing graphical passcode systems. In Proceedings of the 52nd Annual 
Meeting of the Human Factors and Ergonomics Society. New York, NY.

Need for Research on How People Value Information

    The crux of information security is securing information that has 
been designated as valuable. Nevertheless, we have little understanding 
of what makes information valuable to people. Security practitioners 
tend to ``guard the perimeter,'' treating everything within the 
boundaries as if it is of equal value. Yet all information assets 
behind a firewall are not equal. Some workstations or servers are more 
valuable than others--perhaps because of the role of its user, the 
content of its storage device, or the service it provides to the 
enterprise. People want to protect the most valuable information; yet 
there are no metrics or even basic insights into how the value of 
information is determined.\10\
---------------------------------------------------------------------------
    \10\ Stevens, J. (2005) Information Asset Profiling. Pittsburgh, 
PA, Carnegie Mellon University.
---------------------------------------------------------------------------
    If we knew how to measure the value of information, we would be 
able to apply security measures that follow the high-value information, 
even as it moves through a network. Just as the President's bodyguards 
follow him as he moves, so too should security be able to move along 
with important information. If U.S. network defenders can provide 
greater protection to the most valued assets, adversaries may be 
deterred by the extra time and resources required to break into well-
protected cyber assets. Of course, this requires the defender to know 
which information systems contain high-value information--something 
that is difficult without methods to value information and the means to 
locate where the high-value information currently resides in a dynamic 
network configuration.
    If we better understood how people placed value on information, we 
would be able to use that valuation to motivate individuals to comply 
with security practices and change the culture of security. We could 
also use that understanding of information value to support the 
calculation of the Return on Investment of security. The ability to 
recognize and quantify the value of information resident on a network 
will help security practitioners better secure and protect information 
and network assets, allow cyber defenders to prioritize their defensive 
actions by focusing on the most critical net-work assets, and allow 
business owners to immediately assess the impact of an attack on those 
assets.
    Understanding the relative value of information underlies all of 
these decisions. But there is no current methodology used in the DOD 
for assigning an actual value to information. Current 
work\11\<SUP>,</SUP>\12\ on cyber information valuation within DOD has 
advanced the theoretical discussion but remains only conceptual. 
Metrics are not usable unless they have been validated against real-
world observations.
---------------------------------------------------------------------------
    \11\ Grimaila, M.R. and L.W. Fortson. (2007) Towards an Information 
Asset-Based Defensive Cyber Damage Assessment Process, Computational 
Intelligence in Security and Defense Applications.
    \12\ Hellesen, D. (2008) An Analysis of Information Asset Valuation 
(IAV) Quantification Methodology for Application with Cyber Information 
Mission Impact Assessment (CIMIA), Master's thesis, AFIT.
---------------------------------------------------------------------------
    Research is needed to better understand how people place value on 
information, to identify the most promising metrics for valuing 
information, to apply those metrics to information observed in a real-
world environment, and to determine whether or not the conceptual 
metrics are verifiable in real data.

The Private Sector's Role in the Cyber Security Research Agenda

    Security practitioners in the private sector are on the front line 
of cyber defense. These individuals write the security policies, deploy 
the technologies, and attempt to compute ROI for security expenditures. 
They have direct influence on the security practices of individual U.S. 
workers and business owners whose inattention to security could have 
cascading effects on our country's computing infrastructure. Security 
practitioners deal with the people side of security, far more than any 
of today's educators or researchers. Yet the security practitioners 
have virtually no influence on the cyber security research agenda and 
only indirect influence on the curriculum of computer science programs.
    The government does not actively solicit input from the private 
sector in crafting its R&D or education agenda, nor does the government 
actively promote dissemination of the research results to media and 
forums usually consulted by private security practitioners. As a 
member, Board Director, and Advisor of the New York Metropolitan 
Chapter of the Information Systems Security Association (ISSA), I 
regularly meet with hundreds of chapter members who are security 
professionals in New York-based businesses. We have never been asked 
for input into a national research agenda. Our membership has been 
genuinely surprised when they've heard about the results of my own work 
sponsored by DHS, IARPA, the Air Force, and DARPA. Furthermore, these 
members of the private sector are willing to participate in the 
technical transition of the R&D--but they are rarely asked to do so.
    Additionally, the ISACs and other organizations, such as the 
National Academy of Sciences, could be tapped as conduits for 
collaboration between the private sector and government in developing 
the cyber security research agenda.

Conclusion

    Effective cyber security is often said to be about ``people, 
process, and technology.'' Although ``people'' come first in this 
description, the emphasis in federally funded cyber security education 
and research has been on the development of technology within the 
academic environment of computer science and electrical engineering. 
This needs to change.

Broaden the Base of Those Receiving Cyber Security Education

    The current approach to cyber security education falls far short of 
adequately preparing the universe of people who every day take actions 
that make our computing infrastructure more or less secure. We must 
offer information to--and influence the behavior of--software 
developers, business owners, soldiers maintaining network-centric 
systems, policy-makers, lawyers, students, and home-users. The source 
of this education must go beyond college computer science courses. The 
education and training of security awareness, good practices, and cyber 
ethics should start in our elementary schools and extend beyond the 
academic environment into the training programs offered by professional 
organizations.
    Schools of law and law enforcement must not only teach cyber law 
and policy, but teach the foundations of the Internet and computer 
usage that underlie the laws and policies.
    Social science experts in cultural influence should be consulted on 
how to raise our national awareness of cyber risks and change the 
security practices of average Americans.
    Experts in learning should advise the retiring old guard security 
practitioners on how to effectively mentor new security professionals 
and expedite the transfer of their corporate knowledge.
    Computer science curricula must include building security into the 
entire life cycle of software development.
    We must increase the number of U.S. citizens who master the math 
and science needed to advance cyber security technologies, and who 
enroll in advanced degrees in information security.

Use Interdisciplinary Approaches to Make the Cyber Culture More Secure

    Changing how people value security and behave with computer systems 
and networks should be a primary concern of our cyber education and 
research. It is clear that technological change will happen; it already 
does. But safe and ethical behavior is not keeping pace with the 
pervasiveness of computing for work, entertainment, and socializing. 
Interdisciplinary approaches, which combine computer science with the 
more people-centric disciplines of psychology, sociology and 
anthropology, can extend our understanding of how to create a more 
secure computing culture.
    We need research on how people value information. Understanding how 
people place value on information will help security professionals to 
motivate compliance with security practices; it will inform the 
security architects on where to place the greatest defense; and it will 
form the foundation for security metrics.
    Security must be more usable. Interdisciplinary approaches to 
usability can make it easier for practitioners to install and tune 
security technology, and for users to comply with security policies and 
practices.
    Human factors psychologists with expertise in collaborative media 
should work with computer network defenders to develop effective means 
for timely information sharing needed to rapidly detect cyber attacks 
within and across organizations.
    The disciplines of economics, business administration, and 
information systems must study the interdependencies of computing 
assets and business processes so that accurate ROI for security 
investment can be computed, and data-driven plans for continuity of 
operations can be developed.

Foster Technology Transition of Cyber Security Research

    The existing research agenda, framed by and for computer 
scientists, emphasizes publication of research results above technology 
transition. Little current research and education funding is directed 
to the operational implementation of the advanced technologies. The 
problems encountered in getting a technology to work in the real 
world--accreditation, affordability, usability--are not deemed worthy 
of peer-reviewed publications and are therefore dismissed by many 
professors, students, and funding agencies who measure their 
achievements through publication history.
    There is a short supply of U.S. citizens with security-related 
advanced degrees who can transition technology into the DOD where 
security clearances are required. Non-academic research institutions 
who have U.S. citizens to transition technology, such as research 
contractors or government laboratories, do not have the streamlined 
Institutional Review Board processes required for technology evaluation 
studies involving people; hence the human element is all too often left 
out of the research.
    To increase the likelihood of technology transition we must take 
several steps:

        <bullet>  Realistic, scalable test data must be provided to the 
        researchers by the funding agencies.

        <bullet>  Funding agencies should include measures of 
        technology transition in their evaluation of grants and 
        research contracts.

        <bullet>  Funds should be available for crossing the chasm from 
        prototype to operational deployment. This includes funding for 
        accreditation and usability evaluations.

        <bullet>  The government should foster collaboration between 
        university researchers and nonacademic research organizations. 
        The universities can use their Institutional Review Boards to 
        guide corporations anal government laboratories in testing new 
        technologies with human subjects. Research companies with 
        personnel who have security clearances can assist universities 
        with technology transition into DOD sites that are not 
        ordinarily accessible to university students and professors.

Increased the Private Sector's Voice in Cyber Security Education and 
                    Research

    The private sector, which is a conduit both for attacks on our 
critical information infrastructure as well as the prevention of those 
attacks, has no significant influence on the federal R&D agenda in 
cyber security. Security practitioners in the private sector, where 
they can influence U.S. workers and businesses, are neither consulted 
on the national agenda nor given easy access to the results of 
federally sponsored R&D. This can be addressed in several ways:

        <bullet>  The sponsors of cyber security R&D should conduct 
        outreach activities to professional societies of security 
        practitioners including ISSA, ISACA (Information Systems Audit 
        and Control Association), and (ISC)2 (International Information 
        Systems Security Certification Consortium).

        <bullet>  Researchers must be encouraged by the sponsors of 
        their research to publish the results of their work in trade 
        magazines and on-line forums where private security 
        professionals communicate.

        <bullet>  The government should incentivize the private sector 
        to bring interns from academia into their IT infrastructure to 
        gain on-the-job experience prior to their graduation.

        <bullet>  ISACs should be used as a medium for connecting 
        private sector needs with federally funded research.

    In sum, there are many substantive ways in which the social 
sciences can assist us in improving cyber security. My thanks to the 
Committee for allowing me an opportunity to share my viewpoints.

Acknowledgements

    I would like to acknowledge the contributions of Laurin Buchanan 
and Frank Zinghini of AVI, and Geoff Mumford of the American 
Psychological Association, to the preparation of this testimony.

                      Biography for Anita D'Amico
    Dr. D'Amico is the Director of Secure Decisions, a division of 
Applied Visions, Inc. She is a human factors psychologist and an 
information security specialist, with interests in improving 
situational awareness of information security analysts through 
visualization and cognitive analysis. Her most recent work has been in 
the area of combining geographic information with network security and 
network management information to improve security and preserve 
continuity of operations.
    Dr. D'Amico joined Applied Visions in 2000 to help create and grow 
the Secure Decisions division, building upon information visualization 
technology developed by Applied Visions under an Air Force research 
contract. The Secure Decisions division of Applied Visions is now 
recognized as a leading provider of information visualization research 
and technology development to the Department of Defense, the 
Intelligence Community, and the Department of Homeland Security.
    Prior to joining Applied Visions, Dr. D'Amico ran the Information 
Warfare Group for Northrop Grumman, where she was responsible for 
developing that new business area. In the years before that she had 
applied her human factors and psychology training to a variety of 
domains, all centered about the interaction between humans and 
machines, including such disparate domains as aircraft design and ship 
handling.
    Dr. D'Amico has published widely on the topic of cyber security, 
particularly from the perspective of human factors and the impact of 
situational awareness on the effectiveness of cyber security 
practitioners. She is a frequent keynote speaker on the topic at 
industry conferences, and she chaired the 2003 Forum on Information 
Warfare, presented by the Management Information Systems Training 
Institute, Washington, DC. Recently, she conceived and conducted a 
joint industry/government workshop on understanding and determining the 
impact of cyber security breaches on organizational mission.
    Dr. D'Amico received a B.A. from the University of Pennsylvania, 
and an M.S. and Ph.D. in psychology from Adelphi University. She served 
five years as a member of the Board of Directors of the New York Metro 
chapter of the Information Systems Security Association (NYMISSA).

    Chairman Lipinski. Thank you, Dr. D'Amico.
    Dr. Schneider.

STATEMENT OF DR. FRED B. SCHNEIDER, SAMUEL B. ECKERT PROFESSOR 
 OF COMPUTER SCIENCE, DEPARTMENT OF COMPUTER SCIENCE, CORNELL 
                           UNIVERSITY

    Dr. Schneider. Thank you for inviting me here to testify 
today. In the few minutes I have, I want to summarize the key 
points in my written testimony.
    I start with the observation that computing systems we 
deploy today are not as trustworthy as they could be, and we 
don't know how to make them as trustworthy as they need to be. 
As the United States increases our dependence on these systems, 
they become ever more attractive to attackers. Our defenses 
don't keep up so we operate in a reactive mode and we improve 
defenses only after they have been penetrated. We thus prepare 
to fight the last battle rather than the next one. We need to 
move beyond this reactive stance to a proactive one. In short, 
we must build systems whose trustworthiness derives from first 
principles. This proactive approach requires having a science 
base for cyber security. We don't have one and we need to 
develop one. Doing that will require making significant 
investments in research and the investments will have to be 
made on a continuing basis. Cyber security will never be a 
solved problem. We are not going to find a magic bullet 
solution. We have accepted this reality for medical research 
and for defense. The same reality applies to cyber security.
    The analogy with public health and medical research 
highlights two disconnects between cyber security research 
today and what is really needed. The first was the lack of 
science base I just discussed. The second disconnect concerns 
the policy part of the picture. Technology solutions that 
ignore policy questions risk irrelevance as do policy 
initiatives that ignore the limits and capabilities of 
technology. This means that we should also be supporting 
research in policy and research that aims to bridge the gap 
between technology and policy.
    Let me make two further observations about cyber security 
research. First, when the work is classified, it cannot engage 
many of the country's top researchers. It necessarily receives 
less scrutiny by a diverse community of experts and it will be 
slow to impact the civilian infrastructure on which we 
increasingly depend. Second, cyber security research once was 
funded by a diverse ecology of agencies. This was valuable 
because different agencies have different needs, goals, 
cultures, styles and criteria for reviewing proposals; but that 
diversity has been eroding. Getting that diversity restored 
should be a priority and it would undoubtedly bring better 
value per research dollar spent.
    I earlier made the observation that today's systems are not 
as trustworthy as they could be. There are many reasons for 
this, and university education certainly has an important role 
to play in the solution here. With significant increases in 
research funding, more faculty will be working on system 
trustworthiness so more faculty will be available to teach 
these subjects, and that is crucial; but understand that like 
any new discipline, this field is in flux. There is not yet a 
widespread agreement on the core, so we would be ill advised to 
be legislating what gets taught. We would also be ill advised 
to be legislating that everyone be taught. Only a fraction of 
the students that our computer science department teaches end 
up in system-building jobs. Also, many who are building our 
nation's critical infrastructures were not computer science 
majors. What I think we need is a new graduate professional 
degree program. Lawyers, doctors, teachers and most other 
professionals in our society are a good model. We need a post-
Bachelor's degree for systems trustworthiness professionals. On 
the university side, this would mean developing courses, texts 
and other teaching materials, and outside the university it 
would mean creating a force field so people are compelled to 
invest the time and money to pursue this new degree.
    In closing, let me say how encouraged I am by all the 
recent interest and activity at the federal level regarding 
cyber security; but let me caution, long-term activities that 
will require long-term investments are the only way to get a 
long-term solution to this problem. We need to be making long-
term investments in research, and we need to be making long-
term investments in education.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Schneider follows:]
                Prepared Statement of Fred B. Schneider
    Good morning Mr. Chairman and Members of the Committee. I 
appreciate this opportunity to comment on cyber security research and 
education. I am Fred B. Schneider, a Computer Science professor at 
Cornell University and Chief Scientist of the NSF-funded TRUST\1\ 
Science and Technology Center, a collaboration involving researchers at 
U.C.-Berkeley, Carnegie-Mellon University, Cornell University, Stanford 
University, and Vanderbilt University.
---------------------------------------------------------------------------
    \1\ Team for Research in Ubiquitous Secure Technology.
---------------------------------------------------------------------------
    I have been a Computer Science faculty member since 1978, actively 
involved in research, education, and in various advisory capacities for 
both the private and public sectors. Besides teaching and doing 
research at Cornell, I today serve as member of the Dept. of Commerce 
Information Security and Privacy Advisory Board (ISPAB), as a member of 
the Computing Research Association's board of directors, and as a 
council member of the Computing Community Consortium. I also co-chair 
Microsoft's TCAAB external advisory board on trustworthy computing.
    Our nation's increasing dependence on computing systems that are 
not trustworthy puts individuals, commercial enterprises, the public 
sector, and our military at risk. If anything, this dependence will 
accelerate with new initiatives such as the ``smart grid'' and 
electronic health care records. Increased data, increased networking, 
and increased processing all mean increased exposure. These systems 
need to work as we expect--to operate despite failures and despite 
attacks. They need to be trustworthy.
    The growth in attacks we are seeing today should not be surprising. 
The more we depend on a system, the more attractive a target it becomes 
to somebody intent on causing disruption; and the more value that is 
controlled by a system, the more attractive a target it becomes to 
somebody seeking illicit gain. But more disturbing than the growth in 
attacks is that our defenses can't keep up. The core of this problem is 
the asymmetric nature of cyber security:

        <bullet>  Defenders are reactive; attackers are proactive. 
        Defenders must defend all places at all times, against all 
        possible attacks (including those not known about by the 
        defender); attackers need only find one vulnerability, and they 
        have the luxury of inventing and testing new attacks in private 
        as well as selecting the place and time of attack at their 
        convenience.

        <bullet>  New defenses are expensive to develop and deploy; new 
        attacks are cheap. Defenders have significant investments in 
        their approaches and business models, while attackers have 
        minimal sunk costs and thus can be quite agile.

        <bullet>  The effectiveness of defenses cannot be measured; 
        attacks can. Since we cannot currently quantify how a given 
        security technology or approach reduces risk from attack, there 
        are few strong competitive pressures to develop defenses. So 
        vendors frequently compete on the basis of ancillary factors 
        (e.g., speed, integration, brand development, etc.). Attackers 
        see their return-on-investment and have strong incentives to 
        improve their offerings.

    The result has been a cyber security mentality and industry built 
around defending against known attacks. Our defenses improve only after 
they have been successfully penetrated. And this is a recipe to ensure 
some attackers succeed--not a recipe for achieving system 
trustworthiness. We must move beyond reacting to yesterday's attacks 
(or what attacks we predict for tomorrow) and instead start building 
systems whose trustworthiness derives from first principles.
    Yet today we lack the understanding to adopt that proactive 
approach; we lack a ``science base'' for trustworthiness. We understand 
that the landscape includes attacks, defense mechanisms, and security 
properties. But we are only now starting to characterize the lay of the 
land in terms of how these features relate--answers to questions like: 
What security properties can be preserved by a given defense mechanism? 
What attacks are resisted by a given mechanism? How can we overcome the 
inevitable imperfections in anything we might build, yet still resist 
attacks by, for example, forcing attackers to work too hard for their 
expected pay-off. Having a science base should not be equated with 
implementing absolute security or even concluding that security 
requires perfection in design and implementation. Rather, a science 
base should provide--independent of specific systems--a principled 
account for techniques that work, including assumptions they require 
and ways one set of assumptions can be transformed or discharged by 
another. It would articulate and organize a set of abstractions, 
principles, and trade-offs for building trustworthy systems, given the 
realities of the threats, of our security needs, and of a broad new 
collection of defense mechanisms and doctrines. And it would provide 
scientific laws, like the laws of physics and mathematics, for 
trustworthiness.
    An analogy with medicine can be instructive here. Some maladies are 
best dealt with in a reactive manner. We know what to do when somebody 
breaks a finger, and each year we create a new influenza vaccine. But 
only after significant investments in basic medical sciences are we 
starting to understand the mechanisms by which cancers grow, and 
developing a cure seems to require that kind of deep understanding. 
Moreover, nobody believes that disease will some day be a ``solved 
problem.'' We make enormous strides in medical research yet new threats 
emerge and old defenses (e.g., antibiotics) are seen to lose their 
effectiveness.
    Like medicine and disease, system trustworthiness is never going to 
be a ``solved problem''. There will be no ``magic bullet'' 
trustworthiness solution, just as there is not going to be a miracle 
cure for all that ails you. We must plan to make continuing 
investments, because the problem will continue evolving:

        <bullet>  The sophistication of attackers is ever growing, so 
        if a system has vulnerabilities then they will find it. Any 
        assumption made when building a system does, in fact, 
        constitute a vulnerability, so every system will have 
        vulnerabilities of one sort of another. And with enough study, 
        attackers will find these vulnerabilities and find ways to 
        exploit them.

        <bullet>  The technology base used by our systems is rapidly 
        changing. Systems are replaced on a three- to five-year time 
        span, not because computers or software wear out but because 
        newer software and hardware offers improved functionality or 
        better performance (which is then leveraged into new 
        functionality). New systems will work differently, will involve 
        different assumptions, and therefore will require new defenses.

        <bullet>  The settings in which our computing systems are 
        deployed and the functionality they provide is not static. With 
        new settings come new opportunities for attack and disruption, 
        whether it is creating a blackout by attacking the ``smart 
        grid'' or stalking somebody by planting a virus on a GPS-
        equipped cell phone.

    We can expect to transcend the constant evolution only through the 
understanding that a science base provides. A science base is also our 
only hope for developing a suite of sound quantitative trustworthiness 
measures, which in turn could enable intelligent risk-management 
decisions, comparisons of different defenses, and incentivize 
investments in new solutions.
    A science base for trustworthiness would not distinguish between 
classified and unclassified systems, nor would it distinguish between 
government and private-sector systems. The threats and trade-offs might 
be different; the principles are going to be the same. But even an 
understanding of how to build trustworthy systems for the private 
sector would by itself be useful in military and government settings, 
simply because so-called COTS (commercial off the shelf) technologies 
that are developed by the private sector for the private sector are 
widely used within the government too.
    Many equate cyber security research with investigations solely into 
technical matters. This oversimplifies. Achieving system 
trustworthiness is not purely a technology problem. It also involves 
policy (economic and regulatory). Technological solutions that ignore 
policy questions risk irrelevance, as do policy initiatives that ignore 
the limits and capabilities of technology. So besides investing in 
developing a science base for trustworthiness, we must also invest in 
research that bridges the technical and the non-technical. We need to 
understand when we might get more traction for trustworthiness from a 
policy solution than from a technology one. For example, identifiers--
your mother's maiden name, your credit card number, your bank account 
number, and your social security number--are not a good basis for 
authentication because they will be known to many. So regulation that 
prohibits the use of identifiers as authenticators might more 
effectively defend against identity theft than new technology could. As 
another example, there is talk about making the Internet more secure by 
adding the means to trace packets back to their senders. But the 
Internet is as much a social construct as a technological one, and we 
need to understand what effects proposed technological changes could 
have; forgoing social values like anonymity and privacy (in some sense, 
analogous to freedom of speech and assembly) in order to make the 
Internet more-trustworthy might significantly limit the Internet's 
utility to some, and thus not be seen as progress.
    Investments in cyber security research are best accompanied by 
investments in cyber security education, because this provides an 
efficient path for the research to reach industry where it can be 
applied. In particular, research undertaken in academia not only 
engages some of our nation's best and brightest researchers but because 
these researchers are also teachers, new generations of students can be 
exposed to the latest thinking from the people who understand it best. 
And when these students graduate and move into the workplace, they will 
bring this knowledge and understanding with them. Moreover, faculty in 
this dual role of researchers and teachers have incentives to write 
textbooks and prepare other teaching materials that allow dissemination 
of their work to a very wide audience, including teachers elsewhere.

Question: Does the current range of federally supported research 
adequately address existing cyber security threats as well as new and 
emerging threats? If not, what are the research gaps, and how would you 
prioritize federal research investments in cyber security?

    Federal expenditures for unclassified cyber security research do 
not match the severity of the threat. IT security expenditures are 
estimated to reach $79 billion annually by 2010.\2\ According to the 
NITRD Networking and Information Technology Research and Development 
Program,\3\ $342.5M is being requested for FY 2010 ``Cyber Security & 
Information Assurance.'' This means federal budget requests for 
unclassified research in system trustworthiness total roughly .4 
percent of the expenditures that might be leveraged by the research. 
Moreover, anecdotal information about specific funding programs at 
various key federal agencies suggests that only a portion of the 
$342.5M is spent on academic research in cyber security. It then comes 
as no surprise to find the recent National Research Council CSTB report 
Toward a Safer and More Secure Cyberspace\4\ stating that funding 
levels for cyber security research are low, preventing researchers from 
pursuing their promising research ideas. And this echoes the findings 
in the President's Information Technology Advisory Committee's 
independent report Cyber Security: A Crisis of Prioritization\5\ which 
stated that (i) cyber security solutions would emerge only from a 
vigorous and well funded program of research and (ii) that levels of 
funding were dangerously low to solve problems or to sustain a 
community of researchers.
---------------------------------------------------------------------------
    \2\ Information Security Products & Services--Global Strategic 
Business Report, Global Industry Analysts, Inc., July 2007.
    \3\ The Networking and Information Technology Research and 
Development Program. Report by the Subcommittee on Networking and 
Information Technology Research and Development, May 2009. Page 21. 
http://www.nitrd.gov/Pubs/2010supplement/FY10Supp-FINAL-Preprint-
Web.pdf
    \4\ Toward a Safer and More Secure Cyberspace. S. Goodman and H. 
Lin (eds.), National Academies Press, Washington, DC, 2007. Appendix 
B.6. http://books.nap.edu/catalog.php?record<INF>-</INF>id=11925
    \5\ Cyber Security: A Crisis of Prioritization. President's 
Information Technology Advisory Committee, Feb. 2005. http://
www.nitrd.gov/pitac/reports/20050301<INF>-</INF>cybersecurity/
cybersecurity.pdf
---------------------------------------------------------------------------
    The NRC CSTB report also states that, excepting the National 
Science Foundation (NSF), federal funding agencies predominantly target 
short-term problems rather than addressing the harder, longer-term 
challenges that constitute our only hope to win this war. A culture 
that targets easily quantifiable progress is particularly dangerous, 
because it discourages funding research efforts that, being more 
forward-looking, could provide the real pay-offs.
    The PITAC report also noted damage being caused by the lack of 
continuity in cyber security funding and by the inadequate oversight 
and coordination exerted by Federal Government over its cyber security 
research programs. For example, a lack of funding continuity stymies 
the development of a research community, because younger faculty and 
graduate students are disinclined to enter fields where future funding 
is uncertain. This, in turn, leads to a national shortage in cyber 
security expertise.
    PITAC argued, in vain, for a significantly increased investment in 
``fundamental research in civilian cyber security,'' noting that 
civilian systems comprise the lion's share of our nation's critical IT 
infrastructure, and that the government and military rely in large 
measure on civilian hardware and software components and systems. 
Moreover, expenditures by the private sector for long-term cyber 
security research have historically been quite small, probably because 
return on such investments is expected to be low. If the Federal 
Government doesn't make these investments then nobody else will, and we 
all miss the opportunity for the revolutionary advances that are 
unlikely to result from the current regime of funding evolutionary 
steps. By the same token, the existence of a healthy IT-security 
industry suggests that the private sector does make investments in 
short-term research; so there is a less-compelling reason for federal 
investments here.
    There is a disconnect between research being funded and what is 
needed. Federal research funding has been too focused on a few 
established technical battle-fronts (e.g., firewalls, anti-virus, 
intrusion detection, buffer overflows, etc.). In some cases, this focus 
reflects views held by researchers; in other cases, the focus comes 
from program management in the funding agencies. Whichever it is, this 
mindset is a decade or more out of step with the reality of our current 
adversaries. We need to re-imagine the scope of the cyber security 
problem itself and refocus our attention the same way our adversaries 
have refocused. We cannot afford simply to develop technologies that 
plug holes faster; we need to think of security research more 
holistically, determining how most efficiently to block, disrupt, or 
dis-incentivize opponents.

        <bullet>  We must establish a goal of developing a science base 
        for trustworthiness, as discussed in detail above. Such a 
        science base is crucial for understanding how to build systems 
        that are trustworthy.

        <bullet>  We must investigate mechanisms--both operational and 
        forensic--for better attributing cyber-attacks to the actors 
        behind them, because this is essential for applying virtually 
        all other instruments of policy, from law enforcement to 
        diplomacy. This approach might well be a last resort, invoked 
        only after defenses to prevent attacks have failed. So it needs 
        to be an option, despite being technically quite challenging as 
        well as raising non-technical questions ranging from privacy 
        all the way to international law.

        <bullet>  We must consider not merely hypothetical opponents, 
        but the real attackers we face today and those we expect to 
        encounter tomorrow. The military does not train against a 
        hypothetical adversary with hypothetical resources, strategies 
        and interests, nor should cyber security researchers 
        investigate defenses absent that information.

        <bullet>  We must prioritize developing better quantitative 
        measures around cyber security risk, efficiency, and value. The 
        government and the private sector cannot invest arbitrary 
        amounts in securing our systems without better understanding 
        the return on this investment.

        <bullet>  We must invest in research that bridges policy 
        (regulation and economics) with technology. To do research in 
        technology without knowledge of policy or vice versa risks 
        irrelevance.

        <bullet>  We must better understand the human element in our 
        systems. Too often system security is synonymous with 
        inconveniencing users. And users are inclined to circumvent 
        security controls they find inconvenient, defeating a system's 
        defenses even before it is attacked.

        <bullet>  We must continue to invest in research concerned with 
        building software systems: operating systems, networks, 
        programming languages, formal methods, database systems, etc. 
        Ultimately, the things that undermine a system's 
        trustworthiness will be traced to errors in design, 
        implementation, requirements, or assumptions--subjects that are 
        studied by software researchers. And we must continue making 
        research investments in the relevant theoretical areas, such as 
        logics and cryptography.

    While there is certainly both a role and need for undertaking 
classified research in trustworthy systems, there are significant 
limitations that come with the secrecy. Classified research does not 
engage many of the most capable cyber security researchers, is 
necessarily less likely to receive broad scrutiny by a diverse 
community of experts, and does not contribute to educating the next 
generation of cyber security researchers and practitioners. Classified 
research programs are also slow to impact the civilian cyber-
infrastructure and its equipment, on which so much of our nation's 
critical infrastructure depends.
    Having an Ecology of Federal Agencies is Valuable. There once was a 
diverse ecology of funding sources for the various styles and topics 
that trustworthiness research spans, but that ecosystem has been 
eroding as funding agencies have redefined their priorities. Some of 
these decisions are difficult to defend, given the central role that 
system trustworthiness plays in the missions these agencies are suppose 
to support.
    Funding from a single agency (NSF) now dominates unclassified 
federal cyber security research. In the past, DARPA had been a 
significant source of funding for university researchers doing work in 
systems and security, but for the last eight years DARPA has not been 
making those investments. DHS has funded work in cyber security, but at 
significantly lower levels and focusing on problems with a short-term 
horizon. DOD, through AFOSR, ARO, and ONR, does fund some fundamental 
research in security, but the number of projects supported is 
relatively small and some of the funding is for special one-time 
initiatives (i.e., the MURI program). IARPA inherited from its 
predecessor organizations a small but strong trustworthiness research 
program. That, however, is being terminated, and new programs to take 
its place have been slow to get started. Also, the funding philosophy 
at IARPA appears to be oriented more toward production of quantifiable 
results than toward open-ended curiosity-driven explorations.
    This ecology of different government agencies with their different 
needs, goals, and cultures, could yield a robust and diverse research 
climate. However, many of the potential benefits have not materialized, 
both because the interagency coordination has been voluntary and 
because tight budgets led some of the participants to reduce their 
cyber security research investments and/or to focus those expenditures 
on short-term work, which they saw as better suited for their missions.
    Today, NSF is the only natural home for fundamental research in 
civilian cyber security. They not only fund single-investigators doing 
more-theoretical work, but they also fund larger-scale multi-
investigator efforts that involve prototyping non-trivial systems. 
NSF's Trustworthy Computing (formerly Cyber Trust) program, the likely 
agent for funding investigations that will have high payoff, is 
woefully under-resourced. In the past, what had been DARPA's style 
complemented NSF's style by supporting larger groups (three to five 
investigators) to work for relatively longer periods (five to ten 
years) in order to take a game-changing idea to a demonstrable 
embodiment. The NSF and former DARPA styles are complementary, and both 
ought to be supported. Another point of contrast between the different 
styles concerns the manner they review and select proposals for 
funding. External peer-review by the research community leads to 
funding work having a different character from internal review (where 
programmatic goals play a role in project selection).
    There is a tension between maintaining a diverse ecology of federal 
agencies to fund trustworthiness research and allowing each individual 
funding agency the autonomy to alter its priorities. So we must be 
mindful: seemingly local decisions within an agency actually can have a 
broader impact by changing the federal portfolio of trustworthiness 
research (as well as changing the total amount of federal expenditures 
for trustworthiness research). This tension would be resolved if a 
coordinating body were to monitor such decisions and offset their 
impact on the federal portfolio by allocating additional resources and 
recreating the now-absent styles at agencies electing to continue 
funding trustworthiness research.
    Finally, it is worth noting that new initiatives in energy (e.g., a 
``smart grid''), transportation, and electronic medical records will 
almost certainly require solving new trustworthiness research 
questions. A failure to engage the community early in such initiatives 
is a mistake. This kind of trustworthiness research is not done well in 
a vacuum from applications; there is no substitute for direct 
experience with the application area. Thus, part of these new 
initiatives should be to involve the trustworthiness research 
community, so they can help ensure that the inter-networked systems 
required will be ones we can depend on.

Question: What is the state of cyber security education? Are future 
cyber security professionals being adequately trained by colleges and 
universities to meet anticipated demands of the private sector? If not, 
what kind of cyber security training is appropriate and necessary for 
institutions to develop, and for what kinds of students?

    The University Landscape. Cyber security professionals are today 
not being adequately trained to meet the needs of either the private 
sector or the public sector.

        <bullet>  Part of the problem is resources. University Computer 
        Science (CS) departments lack the faculty to offer the relevant 
        courses. Few faculty members have the necessary expertise to 
        offer courses in this area. And even if a CS department has 
        managed to hire a few cyber security specialists, they will 
        likely also be involved in teaching the large complement of 
        other classes that need to be covered by a department giving 
        undergraduate and graduate CS degrees.

        <bullet>  Part of the problem is content. The field is 
        relatively young and fast moving. There is not yet widespread 
        agreement about what technical content must be covered, which 
        makes this an exciting time to be teaching cyber security at 
        the university level. But it also means that textbooks and 
        other teaching materials have short lives unless they are 
        frequently revised, which is a disincentive to some authors. So 
        there are fewer good textbooks than would be found in a more 
        mature subject. Yet, creating agreement on content by 
        legislating a curriculum would be a serious mistake at this 
        point, because it would retard the dissemination of new ideas 
        to students and it would discourage faculty from writing texts 
        that reflect improvements in our understanding of the field.

    A Cyber Security Professional Degree. I believe that a well trained 
cyber security professional needs to have exposure to a broad variety 
of topics. One would expect to see courses that cover technical topics, 
such as computer security principles, distributed systems and 
networking, systems reliability, software engineering, cryptography, 
and user interfaces and human factors. But I also strongly advocate 
exposure to non-technical topics, including cyber-law (intellectual 
property law, communications law, privacy law), ethics, economics of 
computing and networking, business strategy, and human relations (i.e., 
management of people). This broad education would enable a cyber 
security professional to use all conceivable technical and policy tools 
for achieving trustworthiness. It would also ensure that solutions 
could be evaluated in a broader societal context, so that risk-
management and trade-offs between different social values (such as 
privacy versus accountability) can be contemplated.
    There is likely more than one year's worth of content past today's 
CS BS degree, but there is probably less than three years of course 
material. This would argue for creating some sort of graduate, 
professional degree program. It would be designed so that its students 
would learn both the technical and the non-technical topics needed to 
define and develop trustworthy computing systems, manage them, and 
oversee their deployment, use, and evolution.
    Undergraduate Education. Computer Science departments today educate 
students to pursue a rather diverse set of careers. And, in particular, 
not all undergraduate Computer Science majors are headed for system-
building careers. Thus, it would be inappropriate to impose a cyber 
security requirement on all graduates from a Computer Science 
department. The more sensible model would be for universities to offer 
a programme of study for system trustworthiness, analogous to pre-law 
or pre-med. Such a program is typically not associated with a single 
university department but rather offered in conjunction with a various 
majors; it prescribes a set of courses for the electives available in 
that department's major. The courses would cover the subjects outlined 
above in connection with the cyber security professional degree. And it 
should be open to students in the various relevant majors.
    Finally, it certainly seems reasonable that students destined to 
build systems--no matter what their major--should have exposure to the 
basic ideas needed for making those systems trustworthy. This means 
that they need exposure to basic cyber security, software engineering, 
and various systems topics (operating systems, networking, etc.). Such 
students will be found enrolled in various majors. So while the CS 
department is the obvious place to offer these courses, the courses 
will not be populated only by CS majors. And this has implications 
concerning what pre-requisites can be assumed.

                    Biography for Fred B. Schneider
    Fred B. Schneider is Samuel B. Eckert Professor of Computer Science 
at Cornell University. He joined the Cornell faculty in Fall 1978, 
having completing a Ph.D. at Stony Brook University, preceded by a B.S. 
in Engineering from Cornell in 1975. Schneider currently also serves as 
the Chief Scientist for the NSF-funded TRUST Science and Technology 
Center, which brings together researchers at U.C.-Berkeley, Carnegie-
Mellon University, Cornell University, Stanford University, and 
Vanderbilt University.
    Schneider's research has focused on various aspects of trustworthy 
systems--systems that perform as expected, despite failures and 
attacks. His early work concerned formal methods to aid in the design 
and implementation of concurrent and distributed systems that satisfy 
their specifications; he is author of two texts on that subject: On 
Concurrent Programming and A Logical Approach to Discrete Mathematics 
(co-authored with D. Gries). He has also known for his research in 
theory and algorithms for building fault-tolerant distributed systems. 
For example, his paper on the ``state machine approach'' for managing 
replication brought an SOSP ``Hall of Fame'' award for seminal 
research. More recently, his interests have turned to system security. 
His work characterizing what policies can be enforced with various 
classes of defenses is widely cited, and it is seen as advancing the 
nascent science base for security. He is also engaged in research 
concerning legal and economic measures for improving system 
trustworthiness.
    Schneider was elected Fellow of the American Association for the 
Advancement of Science in 1992, the Association of Computing Machinery 
in 1995, and the Institute of Electrical and Electronics Engineers in 
2008. He was named Professor-at-Large at the University of Tromso 
(Norway) in 1996, and was awarded a Doctor of Science honoris causa by 
the University of NewCastle-upon-Tyne in 2003 for his work in computer 
dependability and security.
    Schneider has served since Sept. 2006 as a member of the 
Information Security and Privacy Advisory Board (ISPAB), which advises 
NIST, the Secretary of Commerce, and the Director of OMB on information 
security and privacy issues pertaining to Federal Government 
Information Systems. He chaired the National Academies CSTB study on 
information systems trustworthiness that produced the 1999 volume Trust 
in Cyberspace. He also served as a member of CSTB from 2002-2008 and 
from 2004-2007 on the CSTB study committee for improving cyber security 
research. Schneider was a member of the NSF CISE advisory committee 
2002-2006. And in Fall 2001, he chaired the United Kingdom's pentennial 
external review of research funding for academic Computer Science.
    In 2007, Schneider was elected to the Board of Directors of the 
Computing Research Association (CRA) and appointed to the steering 
committee of CRA's Computing Community Consortium. CRA is an 
association of more than 200 North American academic departments of 
computer science, computer engineering, and related fields; part of 
it's mission is to strength research and advanced education in the 
computing fields and to improve public and policy-maker understanding 
of the importance of computing and computing research in our society.
    Schneider is a frequent consultant to industry, believing this to 
be an efficient means of implementing technology transfer as well as 
learning about the real problems. He is Co-Chair of Microsoft's 
Trustworthy Computing Academic Advisory Board, which comprises outside 
technology and policy experts who meet periodically to advise Microsoft 
about products and strategy. He also provides technical expertise in 
computer security as well as more broadly to a variety of firms, 
including: BAE Systems, Fortify Software, Lockheed Martin, and 
Microsoft.

    Chairman Lipinski. Thank you, Dr. Schneider.
    I now recognize Mr. Brown.

  STATEMENT OF MR. TIMOTHY G. BROWN, VICE PRESIDENT AND CHIEF 
               ARCHITECT, CA SECURITY MANAGEMENT

    Mr. Brown. Good morning, Chairman Lipinski, Ranking Member 
Ehlers and the Members of the Subcommittee. My name is Timothy 
Brown. I am the Vice President and Chief Architect for Security 
Management for CA Incorporated. I will testify today on behalf 
of CA, and I will draw in several instances upon the positions 
of the Business Software Alliance, of which CA is an active 
member. I appreciate the opportunity to testify today on cyber 
security and R&D. I commend you for your focus on these issues 
which are of great importance to CA and the cyber security of 
the Nation.
    The threats to our security are real and ever changing. The 
days of the hobbyist hacker are long past. Today most threats 
are posed by organizations for profit, groups which run very 
much like businesses except their business plan is to steal 
data, identities, credit card numbers and other valuable 
information and convert them into profit. My job at CA is to 
help stop these bad actors. We develop tools that individuals 
and businesses can use to protect themselves, but the threats 
are ever changing. For example, we have an immense and recent 
growth in social networking sites like Twitter and Facebook. 
This is a good development, but the cyber criminals look at 
these developments as simply new business models.
    So, what can we do about all this? We believe the solution 
requires a multi-prolonged and smart approach consisting of 
four elements. Industry and government need to work together, 
set comprehensive goals that meet the full range of threats and 
develop rapid and effective responses. As a country, we need to 
invest more in basic research. The science must advance for us 
to develop the tools we need to address the threat and we need 
to make sure that those advances in the laboratory are quickly 
turned into the products people and companies need to protect 
themselves and maintain their security. We need more and better 
educated security specialists. We have made some advances in 
this area but our universities must be encouraged to devote 
more resources to supplying the security professionals of 
tomorrow.
    Finally, we must ensure the public is fully aware of the 
threats they face. Today, too many Internet users fail to take 
the needed steps to ensure their data and valuable information 
is safe and secure. One of these elements stands out. We 
believe the indispensable element of addressing the security 
threats is ensuring our country continues to invest in basic 
research into the ever-changing information-sharing 
environment. In my written testimony, I set these points out in 
great detail. I would now like to highlight a few of the 
technology changes that will create new opportunities for cyber 
criminals.
    First, increased bandwidth and connectivity to laptops and 
smartphones is very important to our economic recovery and key 
to our long-term growth, but this trend also poses new 
challenges to security by pushing our existing security 
technology to its limits. Second, demand for data storage and 
computing power are ever increasing. Over the coming years we 
expect these demands to increase sharply. More data means more 
cyber criminals have more opportunity to do harm. Third, as I 
have mentioned already, the emergence of social networking has 
happened very fast and is transforming the way the Internet is 
used both at home and work through increased collaboration and 
information sharing, but the security systems used by social 
networks need to get much better very quickly. Fourth, today 
businesses collaborate and share data. They no longer operate 
independently, and this is good. For example, hospitals 
collaborate with other hospitals, universities, health care 
providers, but more collaborations create more vulnerabilities. 
Finally, the source of risk is also changing. Too often today, 
the threats come from within an organization rather than from 
malicious outsiders trying to infiltrate systems. To date we 
have not given enough attention to these insider threats.
    To address these problems, we recommend the following ways 
federal support for advanced research can help: developing test 
tools and products that can identify vulnerabilities, logical 
inconsistencies and inappropriate back doors; ways to ensure 
security measures can keep pace with data being used by 
hundreds, sometimes thousands of people simultaneously; new 
identity management technology and business models that are 
acceptable to consumers and industry, models enabling people to 
collaborate and interact securely; research into insider threat 
detection and advanced data leakage protection. But this is not 
enough. Colleges and universities have made great progress and 
security courses are now mandatory in many programs. However, 
the security knowledge tends to focus more on secure coding 
practices and less on implementation and design of secure 
systems. We need simply more security professionals well 
trained in areas such as identity and access management, threat 
detection and response, and cryptographic systems.
    Finally, we believe we need to significantly increase our 
national effort to raise public awareness about cyber security. 
This would decrease the likelihood that consumers will become 
victimized as well as decrease the likelihood that the 
computers would be hijacked to serve as launching pads for 
larger attacks. We simply need to develop a national cyber 
security public awareness and education strategy.
    I would be happy to answer any questions you may have for 
me. Thank you.
    [The prepared statement of Mr. Brown follows:]
                 Prepared Statement of Timothy G. Brown
    Good morning Chairman Lipinski, Ranking Member Ehlers, and Members 
of the Subcommittee. My name is Timothy Brown. I am the Vice President 
and Chief Architect for Security Management for CA, Inc. I will testify 
today on behalf of CA. However, in several instances, I will also draw 
upon the cyber security policy positions of the Business Software 
Alliance (BSA), an association representing the world's commercial 
software industry and its hardware partners. CA is a member of BSA and 
we actively participated in the development of those positions.\1\
---------------------------------------------------------------------------
    \1\ The Business Software Alliance (www.bsa.org) is the foremost 
organization dedicated to promoting a safe and legal digital world. BSA 
is the voice of the world's commercial software industry and its 
hardware partners before governments and in the international 
marketplace. Its members represent one of the fastest growing 
industries in the world. BSA programs foster technology innovation 
through education and policy initiatives that promote copyright 
protection, cyber security, trade and e-commerce. BSA members include 
Adobe, Apple, Autodesk, Bentley Systems, CA, Cisco Systems, CNC 
Software/Mastercam, Corel, CyberLink, Dassault Systemes SolidWorks 
Corporation, Dell, Embarcadero, HP, IBM, Intel, Intuit, McAfee, 
Microsoft, Minitab, Quark, Quest Software, Rosetta Stone, SAP, Siemens, 
Sybase, Symantec, and The MathWorks.
---------------------------------------------------------------------------
    CA (www.ca.com) is one of the world's largest information 
technology management software providers, providing software and 
expertise support to more than 99 percent of Fortune 1000 companies, 
as well as United States Federal, State and local government entities, 
educational institutions and thousands of other companies and 
governmental organizations worldwide. Founded in 1976, CA is a global 
company with headquarters in the United States, 150 offices in more 
than 45 countries, and more than 5,300 developers worldwide. To 
strengthen relationships among research communities and our company, we 
established CA Labs in 2005. CA Labs works closely with universities, 
professional associations and government on various projects that 
relate to CA products, technologies and methodologies. The results of 
these projects include research publications, best practices, and new 
directions for products. We also work with many universities to enable 
and promote innovation--including funding university research projects 
in specific areas, working with faculty to enhance curriculum, and 
providing opportunities to interact with CA research and development 
experts.
    I appreciate the opportunity to testify today on cyber security 
research and development (R&D), cyber security in higher education, and 
public education and awareness of cyber security. These three issues, 
which you raise in the questions you have asked that I answer, are of 
great importance to CA and to the cyber security of our nation, and I 
commend you, Mr. Chairman, and Ranking Member Ehlers, for focusing on 
them. They correspond to three key aspects of cyber security: R&D is 
central to our capacity to provide innovative and secure information 
technology products and services; university-level education directly 
impacts our workforce's ability to both develop and operate secure 
information technology products and services; and public awareness 
contributes to a sound foundation of technology and security savvy 
users.

INDUSTRY AND THE FEDERAL CYBER SECURITY RESEARCH AGENDA

    I would like to start by addressing the issue of the role of the 
private sector in setting the federal cyber security research agenda. 
Specifically, you asked the following question:

How does the private sector provide input regarding its research needs 
into the process by which the federal research portfolio is developed? 
Do you believe your needs are adequately addressed by the federal 
research agenda? How can the Federal Government more effectively 
partner with the private sector to address common research needs?

    As a prelude, let me first say that the recently released 
Cyberspace Policy Review, announced by President Obama on May 29, 
reflects cyber security concerns understood by virtually all 
information security professionals. The state of cyber security today 
clearly shows that we need to deliver game-changing security 
innovations and practices. Cyber criminals, State and non-State actors, 
and other cyber adversaries move rapidly and adeptly to exploit 
weaknesses and vulnerabilities in systems, networks, applications and 
practices. They are successful at taking control of machines and 
stealing data. Their motivation may be monetary gain or broader, more 
sinister goals, but they all have the luxury of picking and choosing 
both targets and methods to take advantage of the weakest links 
available. They are increasingly sophisticated and technically adept. 
So today's reality is that we are in a very tactical arms race with our 
adversaries.
    The software industry has raised the bar considerably in the past 
few years. We have implemented mature, responsible vulnerability 
disclosure practices, internal secure code training, penetration 
testing, and code inspection tools. Large software vendors now have 
security as one of the major architectural components of any software 
they build and have made important changes to their development 
processes based on the demand of their corporate customers. The 
industry has also worked to simplify security and make it more user-
friendly.
    However, we need to supplement these tactical successes with 
strategic ones. We face increasing cyber security risks emerging from 
factors such as the extension of the enterprise externally to partners 
and customers, the rapid pace of technology adoption, the integration 
of physical devices into a networked environment, and increasingly 
sophisticated threats. Industry's research efforts are typically 
directed to product feature development and relatively short-term 
objectives that have a high probability of success in the marketplace. 
Game changing, strategic research is a difficult investment because of 
financial risk and unclear return on investment. Because of this, 
federal research programs can and should look to longer-term research 
requirements that prepare us not for the past or present, but for the 
future, a research agenda that will focus on strategic, systemic and 
structural cyber security issues not addressable by short-term, 
tactical solutions.
    The federal research agenda is laid down in the Federal Plan for 
Cyber Security and Information Assurance Research and Development 
(hereafter ``the CSIA plan''). I will now address the shortcomings of 
this plan and of the process by which it was developed. I will also 
propose solutions to make this agenda more inclusive of the needs of 
industry. In doing so, I will draw upon the positions of the BSA.
    First, while it identifies many worthy cyber security R&D 
priorities, the CSIA plan does not propose national-level objectives. 
Rather, it is an aggregation of the cyber security R&D objectives of 
the federal agencies that fund or conduct cyber security R&D. While it 
is appropriate for these agencies, in support of their individual 
missions, to have specific cyber security R&D objectives, their 
aggregation does not produce a cohesive picture of the Nation's overall 
R&D needs.
    CA and BSA recommend that the objectives of the CSIA plan be 
established on the basis of a truly comprehensive and holistic view of 
the cyber security needs of the Nation. Once a set of comprehensive, 
national objectives has been identified with the input of government, 
industry and academia, then the plan can determine what entities--
government, industry and academia, whether by themselves or in 
partnerships--are, or should be, pursuing each of them. The Office of 
Science and Technology Policy is responsible for coordinating the 
Federal Government's efforts surrounding cyber security R&D, and should 
ensure that federal R&D actually supports the Nation's strategic cyber 
security goals. President Obama announced on May 29, 2009 the future 
appointment of a Cyber Security Coordinator in the White House. CA and 
BSA recommend that the Cyber Security Coordinator provide joint 
oversight and direction to this effort, alongside OSTP. Once a national 
framework for R&D has been established, individual agencies should be 
assigned R&D projects within their areas of expertise.
    Second, for the CSIA plan to reflect the cyber security R&D needs 
of the Nation, a wide community of stakeholders needs to play an 
integral role in the creation of the plan and the identification of its 
objectives. CA and BSA recommend that stakeholders, and in particular 
the owners and operators of critical cyber infrastructure and 
developers of critical cyber technology, be involved from the earliest 
stages of the process and throughout the creation of the plan, as well 
as when the plan's objectives and implementation activities are 
reviewed. The IT industry is a key stakeholder not only because it owns 
and operates the critical infrastructure of cyberspace and develops its 
underlying technology, but also because it invests tens of billions of 
dollars each year in R&D.
    Another important avenue for identifying cyber security research 
gaps is via industry-government partnership initiatives organized 
jointly by the Department of Homeland Security and industry 
organizations such as the Information Technology-Information Sharing 
and Analysis Center (IT-ISAC) and the Information Technology Sector 
Coordinating Council (IT-SCC).
    An extremely timely example of such an initiative is the IT Sector 
Baseline Risk Assessment, a major report that will be released soon, 
which results from a multi-year partnership between the IT-SCC, IT-
ISAC, industry subject matter experts and DHS. The IT Sector's Baseline 
Risk Assessment is intended to provide a cyber and all-hazards risk 
profile that IT Sector partners can use in particular to inform 
resource allocation for security research and development in core IT 
functions. Those key functions include producing and providing IT 
products and services; incident management capabilities; domain name 
resolution services; identity management and associated trust support 
services; Internet-based content, information and communications 
services; and Internet routing, access and connection services. With a 
powerful methodology for assessing risks and identifying necessary 
mitigation requirements, the Baseline Risk Assessment can serve as a 
foundation and industry-supported model for developing a strategic 
cyber security R&D agenda and plan of action.
    I believe the inclusiveness is very much in line with the recently 
released conclusions of the White House Cyberspace Policy Review, which 
states that ``the Federal Government should greatly expand coordination 
of [NITRD and other R&D-related] strategies with industry and academic 
efforts.''\2\
---------------------------------------------------------------------------
    \2\ Cyberspace Policy Review, pp. 32-33.
---------------------------------------------------------------------------
    Third, in addition to contributing to the identification of the 
overall objectives of the national cyber security R&D plan, companies 
can play a role downstream in the definition of specific R&D projects 
that will contribute to reaching those national objectives. CA and BSA 
believe that it would be appropriate to facilitate federal support for 
specific research topics or projects that were not conceived originally 
by a federal agency, but rather pro-actively suggested to an agency by 
a company. In such a situation, the company is awarded funding as a 
``sole source.'' We believe a mechanism should be found that would make 
it easier for agencies to act upon such suggestions. Today, such a 
process is insufficiently used, because of legitimate concerns 
regarding the fairness of the award process. CA and BSA's goal is to 
encourage more companies to suggest promising avenues for cyber 
security innovation to the Federal Government. Naturally, projects pro-
actively suggested by private industry should be closely related to the 
national R&D plan, as well as to the particular part of that plan that 
was delegated to the agency to which the idea was suggested.
    We would like to make it clear that we do not in any way oppose the 
mechanism by which companies receive federal funding because they 
submitted proposals in response to a competitive federal solicitation. 
In fact, CA and other companies actively review and respond to such 
proposals, and we believe it should continue to represent a large part 
of the federal R&D funding. We merely want to find a way to ensure 
that, in addition to this reactive role, companies can play a more pro-
active role in the definition of R&D projects.
    Fourth, I would like to address the issue of short-term vs. long-
term R&D. We believe it is appropriate to include both. As a general 
rule, however, CA and BSA recommend that the government focus on long-
term and basic cyber security research. We believe it is appropriate 
for the government to be involved in applied R&D if: the technological 
solution that is sought is not commercially available; and its absence 
creates a measurable security gap.
    In most cases, when government agencies seek to develop specific 
technologies, we are concerned that they do not check beforehand 
whether commercially available solutions provide the same or an 
equivalent capability. We recommend requiring federal agencies to 
ascertain whether or not commercial solutions exist--or could be 
readily adapted--before they invest in an R&D project to develop 
equivalent capabilities. This would allow the government to better 
leverage its limited resources. Importantly for industry, it would also 
ensure that the federal effort focuses more on research that may bring 
breakthroughs of considerable importance to the cyber security of our 
nation's infrastructure in the long run, but lacks demonstrated short- 
or medium-term commercial viability. Commercial companies rarely 
undertake such research by themselves, but it is an ideal topic for 
federal research. This recommendation aligns with the White House 
Cyberspace Policy Review's emphasis on R&D in ``game-changing 
technologies that will help meet infrastructure objectives.'' \3\
---------------------------------------------------------------------------
    \3\ Cyberspace Policy Review, p. 32.
---------------------------------------------------------------------------
    We note, however, that cyber security research is underfunded when 
compared to other research programs. For example:

         ``. . . the President's fiscal year 2009 budget requests $29.3 
        billion for life science research, $4.4 billion for earth and 
        space sciences, $3.2 billion for the Advanced Energy 
        Initiative, $2.0 billion for the Climate Change Science 
        Program, and $1.5 billion for nanotechnology. The National 
        Information Technology R&D (NITRD) programs will receive $3.5 
        billion. Cyber security will receive about $300 million.'' \4\
---------------------------------------------------------------------------
    \4\ From ``Securing Cyberspace for the 44th Presidency: A Report of 
the CSIS Commission on Cyber security for the 44th Presidency,'' 
December 2008, page 74. This report is available at http://
www.csis.org/media/csis/pubs/
081208<INF>-</INF>securingcyberspace<INF>-</INF>44.pdf

    In order to increase cyber security for the Nation, funding for 
fundamental and applied research in cyber security is required. Keeping 
current funding levels will result--at best--in maintaining the current 
level of progress and therefore the current inadequate level of cyber 
security.
    Companies have an important role to play in fostering greater 
engagement with academic institutions and government. For example, CA 
today works with universities in a number of ways. Through the CA 
Academic Initiative, colleges and universities can get free access to 
select CA products, faculty education, professional courseware and 
technical support. CA also has a strong partnership with Universities 
for research. For example, CA is working with the University of 
California Davis and Pacific Northwest National Laboratory on insider 
threat research and with Dartmouth University on determining the 
benefits seen by organizations in the deployment of security software. 
CA is also working with Carleton University in Canada on data leak 
prevention research. This research is partially funded through the 
Canadian government's NSERC Strategic Network Grant.
    Finally, for federal cyber security R&D to best address the needs 
of industry, it is important that we facilitate the migration path of 
technologies developed through federal R&D, so that they can more 
quickly and widely contribute to improving our nation's cyber security. 
This is another issue on which our recommendations are consistent with 
the direction advocated by the White House in its Cyberspace Policy 
Review.\5\ CA and BSA propose two avenues to ease technology transition 
onto the marketplace. First, provide greater incentives for industry to 
participate in federally funded cyber security R&D by looking at the 
status of the intellectual property (IP) it generates. We recommend 
that Congress explore ways to make such industry participation more 
appealing through improved IP ownership or licensing, similar to what 
Congress did for small businesses, non-profits and universities through 
the Bayh-Dole Act in 1980. Second, the Federal Government should 
improve its sharing of the innovations generated by cyber security R&D 
conducted by federal agencies. Too often, those innovations are not 
shared with industry, where they could benefit the Nation as a whole 
through productization, even with licensing conditions that 
appropriately reward the agency in question.
---------------------------------------------------------------------------
    \5\ Cyberspace Policy Review, p. 33: ``To enhance U.S. 
competitiveness, the Federal Government should work with industry to 
develop migration paths and incentives for the rapid adoption of 
research and technology development.''

SPECIFIC CYBER SECURITY R&D TOPICS

    The second issue that you asked that I discuss in my testimony is 
that of specific topics and gaps in federal cyber security R&D:

Does the current range of federally supported research adequately 
address existing cyber security needs as well as new and emerging 
threats? If not, then what are the current research gaps and 
priorities?

    As I discussed above, we need a long-term, strategically-focused, 
national research agenda developed in partnership between the Federal 
Government and industry. As we look to the future, we see a number of 
trends that will impact both the cyber infrastructure as well as 
specific cyber functionalities. An understanding of these trends can be 
useful in informing research planning and prioritization. What are some 
of these important trends?

        <bullet>  Increased bandwidth and connectivity to a virtually 
        unlimited number of devices. The number of devices connecting 
        to the cyber infrastructure continues to grow: desktops, 
        laptops, smart phones, GPS devices, cars, houses and many more 
        to come. The available bandwidth continues to grow both in the 
        cellular environment, the wireless environment and the wired 
        environment. Managing cyber security risks in this new world 
        will push our existing security technology beyond its limits 
        given the sheer scale of networked devices and speed of 
        communications.

                <bullet>  CA recommends federal support for advanced 
                research in the area of threat detection, systems 
                management and security management allowing security 
                controls to scale to this emerging cyber generation.

        <bullet>  Huge amounts of storage and computing power will be 
        present in the home, in the enterprise and in the network. More 
        sensitive data in huge volumes will be stored and shared among 
        businesses, government agencies and consumers. The technical 
        disciplines of digital rights management, data leakage 
        protection, and data classification are in their infancy from a 
        technology perspective. Digital rights management is the 
        process of embedding and managing access control within data. 
        Data leakage protection refers to the identification and 
        control of sensitive data. Data classification refers to the 
        process of tagging data to indicate it is sensitive, owned by 
        an individual or part of a larger system, and to associate it 
        with controlling policies.

                <bullet>  CA recommends federal support for advanced 
                research to move these technologies into the mainstream 
                where data can be tagged appropriately and managed in 
                accordance with policy-driven rules, under the control 
                of the entity or individual responsible for its care.

        <bullet>  Greater expectations for managing identity risks. The 
        exponential growth of interconnected applications and systems 
        will require advances in identity management technology. 
        Today's user name and password model is inadequate. Stronger 
        forms of authentication are available, but their acceptance and 
        adoption have been slow. Similarly, the lack of a monetization 
        model for strongly validated identities has limited their 
        commercial success.

                <bullet>  CA recommends federal support for advanced 
                research to help with the development of new technology 
                and new business models that are acceptable to 
                consumers and industry.

        <bullet>  Emergence of new, interactive social networking 
        applications. Social networking continues to go through many 
        changes.

                <bullet>  CA recommends federal support for advanced 
                research to develop models enabling people to 
                collaborate safely and securely, both to share the data 
                they wish to share and to maintain anonymity as needed.

        <bullet>  Universal business connectivity, collaboration and 
        partnerships. Businesses no longer operate independently; it is 
        necessary for them to collaborate and share data as well as 
        establish enforceable security policies. For example, a small 
        hospital with 5,000 employees typically has 50,000 people in 
        its user directories and collaborates with other hospitals, 
        universities and health care providers. Today's technology can 
        support these business and clinical relationships, but more 
        advanced technology is necessary to truly enable a secure and 
        auditable infrastructure as the collaborative environment 
        expands almost exponentially.

                <bullet>  CA recommends federal support for advanced 
                research to enable a federated model where security and 
                responsibility are technically manageable at the scales 
                we expect to occur.

        <bullet>  User manageability and interaction. It is becoming 
        more and more difficult for someone to live an unconnected 
        life. Although technology has provided amazing capabilities, 
        the device-human interfaces used to connect and interact with 
        context and applications have not fundamentally changed.

                <bullet>  Although browsers have greatly improved and 
                are now being embedded in personal devices, as we look 
                to the future CA recommends federal support for 
                advanced research into flexible and manageable 
                technical interfaces, displays and supporting 
                instrumentality that incorporate seamless 
                understanding, manageability and security functionality 
                for users in many different environments and contexts.

        <bullet>  Increasingly sophisticated cyber adversaries. As I 
        said at the beginning of this testimony, our cyber adversaries 
        are sophisticated, they move rapidly and adeptly to exploit 
        weaknesses and vulnerabilities.

                <bullet>  CA recommends federal support for advanced 
                research to create test tools and products that can 
                identify vulnerabilities, logical inconsistencies and 
                inappropriate ``back doors.'' A new generation of tools 
                would give application builders the ability to identify 
                and fix vulnerabilities as well as meet industry 
                security certifications more quickly and reliably.

        <bullet>  The growing focus on insider threats. As industry 
        reacts to threats, cyber adversaries look for alternative 
        business models. The insider is one of the most effective.

                <bullet>  CA recommends federal support for advanced 
                research into insider threat detection and advanced 
                data leakage protection.

    Let me now briefly turn to the final two questions you have raised.

CYBER SECURITY IN HIGHER EDUCATION

What is the state of cyber security education? Are future cyber 
security professionals being adequately trained by colleges and 
universities to meet anticipated demands of the private sector? If not, 
what kind of cyber security training is appropriate and necessary for 
institutions to develop, and for what kinds of students?

    My comments focus on the education of the technical workforce that 
will be responsible for the engineering of our applications, the 
implementation of our systems and the processes necessary to run these 
systems. Security is an important element to each one of these areas.
    Cyber security education should consist of courses in secure coding 
practices, security architectures and security of complex systems. 
Colleges and universities have made great progress and security courses 
are mandatory in many programs. While still inconsistently deployed, 
there is also a movement within universities to incorporate secure 
coding practices into programming courses.
    The level of security knowledge for graduates has greatly 
increased, but in many cases it lacks real world experience. The 
security knowledge tends to focus more on secure coding practices and 
less on implementation and system design. In order to fill the gap 
large software vendors have implemented programs to reinforce security 
design and secure software development practices to their existing and 
new employees.
    Separate from the issue of developing secure systems is that of 
developing security systems and architectures. In this latter case 
students require more specialized knowledge of security, such as 
identity and access control, authentication, threat detection and 
response, cryptographic systems such as public-key cryptography, etc. 
Knowledge at this level tends to be obtained at the graduate level, and 
can be broadly categorized as operationally focused (typically the 
Master's level degrees) and research focused (doctoral degrees).
    The National Security Agency has a history of supporting security 
education through their National Centers of Academic Excellence in 
Information Assurance Education program, where they certify programs 
that meet a minimum set of requirements. These programs produce 
students who have a broad understanding of security and who can perform 
operational roles ranging from being responsible for the information 
security of an organization to understanding functional requirements 
for security-related software.
    At the doctoral level, the focus is on longer-term research in 
order to improve the cyber security field. This requires not only 
students who are interested in cyber security research, but also 
faculty who are active in this field. Government support at this level 
consists of providing support for students (e.g., through National 
Science Foundation grants and scholarship-for-service programs) and of 
supporting faculty research. Such programs should be strengthened.

PUBLIC AWARENESS AND EDUCATION

    Allow me to turn to the last topic that you had asked me to 
address, that of cyber security awareness of the general public. 
Specifically, your question was:

What role can the Federal Government play in educating the general 
public about protecting themselves and their networks against cyber 
threats?

    To address the need to increase public awareness of cyber security, 
I will draw upon the position of the BSA. CA and BSA believe we need to 
increase our national efforts to educate and raise awareness of the 
public about their cyber risks, and how they can protect themselves 
online, for two reasons. First, to decrease the likelihood that they 
will become victims of identity theft, and other harms that may befall 
them online. Second, to decrease the likelihood that consumers' 
computers will be hijacked to serve as launching pads for larger 
attacks against businesses, the infrastructure and our government--the 
botnet phenomenon.\6\
---------------------------------------------------------------------------
    \6\ A bot is a computer that has been infected by a cyber 
criminal--known as a bot-master--so that the bot-master can control it 
remotely and use it, along with many other hijacked bot computers, to 
carry out various types of large cyber attacks, from sending out spam 
and phishing e-mails, to disseminating to malicious code, to performing 
distributed denial of service (DDOS) attacks against banks or 
government IT systems. The largest networks of botnets (networks of 
bots) can number in the hundreds of thousands, if not millions.
---------------------------------------------------------------------------
    CA and BSA agree with the White House's Cyberspace Policy Review's 
recommendation that the Federal Government, in partnership with 
educators and industry, should develop a national cyber security public 
awareness and education strategy. Its objective should be to educate 
about the threat as well as about changing public attitudes online, 
towards greater cyber security as well as digital safety and ethics, to 
promote a responsible and ethical use of the Internet.\7\ There are 
many such efforts: the National Cyber Security Alliance is a 
partnership between the Department of Homeland Security (DHS), the 
Multi-State Information Sharing and Analysis Center (MS-ISAC), 
corporate and non-profit partners to promote cyber security awareness 
for home users, small and medium size businesses, and in primary and 
secondary education. Information about their year-round campaigns, 
which culminate in National Cyber Security Awareness Month every 
October--and I note that Congress has for several years now recognized 
the October campaign in a resolution of support--can be found at 
www.staysafeonline.org I also want to mention the www.onguardonline.gov 
effort led by the Federal Trade Commission, as well as the 
www.playitcybersafe.com campaign of BSA, which offers tools and 
educational material for children, parents and educators about how to 
use the Internet safely and responsibly.
---------------------------------------------------------------------------
    \7\ Cyberspace Policy Review, pp. 13-14.
---------------------------------------------------------------------------
    One final comment: educational programs will be most effective when 
targeted to specific age groups. For example online activities may be 
very different for five- to ten-year-olds, 10- to 13-year-olds, 13- to 
17-year-olds and people over 18. Each age group has specific needs and 
should have appropriate messaging and education. The non technical 
community in all age groups is moving to cyber platforms at an 
unprecedented rate, and all need to understand the rules and the risks 
in the context of their work, social and academic life, and 
environment. This is another area where partnership initiatives are 
vitally important.
    Mr. Chairman, Ranking Member Ehlers and Members of the 
Subcommittee, I appreciated the opportunity to appear before you to 
share some thoughts on cyber security R&D, cyber security education, 
and public education and awareness of cyber security. CA shares the 
Subcommittee's goal of helping to enhance cyber security, and we would 
be happy, together with the Business Software Alliance, to work with 
you towards this goal.
    I would be happy to answer any questions you may have for me.
    Thank you.

                     Biography for Timothy G. Brown
    Timothy G. Brown is the Vice President and Chief Architect for 
Security Management for CA, Inc. He has overall technical direction and 
oversight responsibilities for the CA security products. This includes 
Identity Management, Server Security, Data Leakage Protection, Web 
Access Management and Single Sign On.
    With over 20 years of information security expertise, Brown has 
been involved in many areas of security including compliance, threat 
research, vulnerability management, consumer and enterprise identity 
and access management, network security, encryption and managed 
security services. In his career, Brown has worked with many companies 
and government agencies to implement sound and practical security 
policies and solutions.
    Prior to joining CA, Brown spent 12 years at Symantec's CTO office, 
where he was responsible for company-wide technical architecture, 
integration, gap analysis and technical strategy. Prior to joining the 
Symantec CTO office, Brown focused on Symantec's enterprise security 
architecture and the collection, correlation and prioritization of 
security data. Brown joined Symantec through the company's acquisition 
of Axent Technologies. At Axent he was responsible for the Identity 
Management, Single Sign On and multi-factor authentication products.
    Brown is an avid inventor with 14 filed patents in the security 
field. He is active in promoting cross industry initiatives and has 
participated on a number of standards boards.
    Brown earned a Bachelor of Science degree in computer science from 
MCLA and has participated in the Wharton School of Business Executive 
Education program.

                               Discussion

    Chairman Lipinski. Thank you, Mr. Brown. I thank all our 
witnesses for their testimony. At this point we are going to 
begin our first round of questions, which is the real fun point 
of these, so I am going to save my questions for the end and I 
am going to recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Chairman. It was made mention that we 
need to constantly update curriculum and make certain that we 
are creating state-of-the-art education for our cyber security 
professionals.
    Dr. Schneider, you and I claim New York as our base of 
operations, and we have a wealth of community colleges. Is 
there potential to draw in the infrastructure of our community 
colleges and develop some earlier investment in cyber security 
professionals? And I would throw out, into the question I would 
make the statement of the unusual glut that seems to be 
emerging in terms of professionals from outside our borders 
that are addressing this field, this arena, and we are not 
growing and cultivating domestically the talent we require.
    Dr. Schneider. Yes. Thank you for the question, and I 
completely agree with the premise that we need to employ a 
broad-spectrum educational approach to the problem. We are not 
going to solve this problem only with Ph.D.s or only with 
Bachelor's graduates. There are jobs that are suitable for 
somebody educated at the level of a community college, and 
there is life, which means people educated at the level of K 
through high school--and actually those of us who have 
graduated long ago and need to exist for some years to come--
need to have a much more sophisticated view of what is going 
on. So I believe there is going to be a broad spectrum of jobs 
available, some of which we would do best to train people at 
the community college level for, and I believe the community 
college will become more and more sophisticated as we get a 
better understanding of some of the cyber security challenges.
    Mr. Tonko. Are there others on the panel--and by the way, 
let me thank the panelists. Your information is very helpful. 
Is there anyone else that would like to respond to that? Dr. 
D'Amico.
    Dr. D'Amico. I think you raise a very interesting point 
about the role of community colleges, and I fully agree with 
you that there are not enough U.S. citizens who are being 
trained in this area. I think community colleges can 
participate in the training of security professionals because 
as we have learned, this is not all about academic education. 
There is a lot of learning by doing, and I think that we should 
incentivize the private sector to bring the community college 
students into internships. I sit on the Board of Directors of 
the Metro chapter of ISSA, which is the second-largest chapter 
of security professionals in the world right in New York City. 
We have people who want to bring in interns from places like 
community colleges to work with them, so I think this is part 
of structuring a mentorship program.
    Mr. Tonko. Thank you.
    Dr. Goodman.
    Dr. Goodman. Let me return to the Scholarship for Service 
program for a moment and talk about one of the offshoots of 
that effort. Having these students, by the way, has enabled 
quite a number of departments--computer science departments or 
MIS departments around the country--to build their own 
capacity, and several of them use that greater capacity to seek 
roles in trying to develop curriculum and educate students 
regionally in other institutions, particularly community 
colleges and law enforcement schools in their areas. I mention 
in particular Mississippi State University and the University 
of Tulsa. And there is a very strong feeling among most people 
who are very seriously concerned about developing a workforce 
and an educated user community that this effort must be 
extended far more broadly than just the universities in this 
country, and I would also again endorse the idea of programs 
that specifically are geared to do that.
    Mr. Tonko. Thank you.
    Ms. Franz.
    Ms. Franz. Thank you. I would only like to add the notion 
that as we discuss a broad spectrum of the kinds of education 
and skills that can contribute to resolving the problem that we 
don't then funnel all of our students into very rigid, specific 
requirements for cyber security professionals. The 
multidisciplinary nature, the multi-faceted types of education 
that can contribute to resolving the problem is something we 
need to retain. Imagine that those that might be working in the 
cyber security field now did not get a college degree and yet 
they are doing--they are big contributors. If they were shut 
out of the ability to provide that, that would be a detriment.
    Mr. Tonko. Thank you.
    Thank you, Mr. Chair.
    Chairman Lipinski. Thank you, Mr. Tonko, for your 
questions.
    The Chair now recognizes Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. It is a little hard to 
know where to start. It has been very rich testimony and very, 
very helpful. Several of you testified there needs to be better 
interaction between the government and the private sector with 
regard to cyber security, and by the way, these questions are 
going to be for everyone because I picked up ideas from all of 
you.
    And Ms. Franz, I believe, testified a more formal mechanism 
needs to be put in place for private sector input and 
collaboration, and so one of the questions I am asking is, what 
has your involvement been with NITRD or any of the mission 
agencies to initiate such interactions or discussion? Have you 
been rebuffed or have you been accepted, and if you have been 
accepted, how have the conversations gone?
    Dr. Goodman, you also note in your testimony that market 
forces have failed to provide the Nation with a level of cyber 
security adequate for its needs, and this seems to imply that 
government regulation or other significant intervention is 
required to achieve adequate cyber security, but it seems to me 
the government hasn't done that good a job itself in governing 
its own needs, and so the question is, can the government 
really provide the leadership you need or it is just the money 
you need, or how can we reach the point that you and I both 
seem to want to get to?
    One other aspect as some of you mentioned, it is hard to 
recruit people for security jobs, and it wasn't clear to me 
whether it is because these jobs are not particularly 
appealing. Perhaps computer experts would rather be programming 
rather than playing cops-and-robbers. I don't know. Or maybe 
you have to appeal to cops-and-robbers people and provide them 
with appropriate cyber security training. But I am just 
wondering if the cyber security jobs are just not appealing 
enough to the people that you are trying to get. So it is a 
potpourri of questions but I think you are all sort of focusing 
in that same area.
    So, Dr. Goodman, if you would kick it off, and we will just 
go down the line.
    Dr. Goodman. Thank you, Mr. Ehlers. I think a fundamental 
problem out there that is largely behind the statement that I 
made is that for a variety of reasons, cyber security has 
frankly not been taken as seriously as it should be in putting 
all of these systems out there that are simply so vulnerable. 
Security has not been a major design consideration. It has not 
been a major driver for the businesses who are out there in 
cyberspace doing whatever they do in cyberspace. There has been 
no pressure on them, and when things go wrong, they usually are 
not the people who suffer the consequences. I am a believer 
that, as is the case with lots of other security and safety 
issues and other infrastructural domains, that some 
requirement, if you would like, needs to be made on those who 
are in the best position to mitigate risk to do so; and that 
may in fact require regulation, may require certain kinds of 
laws that for example heighten liability; it may benefit from 
coming up with the kind of technology that is so easy to use 
and so cheap to use and so easily integratable with what we 
have out there now that you just cannot not use it. 
Nevertheless, we have a situation where much of cyber defense 
is pushed on the end users, you and me and all the other 
citizens and organizations that are out there. This is partly 
built into the architecture of the Internet and other things, 
and we are increasingly incapable of defending ourselves 
against increasingly capable attacks and attackers. So an 
effort must be made to get those people who are in the best 
position to mitigate risk to do so, and I think what should be 
done and it has been done in other areas, industry and 
government need to get together and they need to get together 
under some perhaps formal form or other kind of institutional 
mechanism with the mandate that they come up with greater 
security in cyberspace. It is as simple as that. There are 
again other--most recently this seems to have produced some 
results in the electric power industry where there has been 
great concern about how vulnerable increasingly IT-controlled 
electric power generation and distribution may be to outside 
attacks or to other forms of failure, and FERC, the Federal 
Energy Regulatory Commission, got together with the industry 
associations and basically came up with mandated standards for 
the systems that they use to generate and distribute power, and 
I fear something like that will have to be necessary, 
particularly with regard to mobile telephony but elsewhere as 
well.
    Mr. Ehlers. Thank you. Good comments.
    Ms. Franz.
    Ms. Franz. Thank you for your question on the partnership 
efforts. Most of the interaction that we have had with NITRD 
has been through our increasing dialogue with the Interagency 
Working Group on Cyber Security and Information Assurance, so 
we have had more and more discussions in the work of the 
Information Technology Sector Coordinating Council, or ITSCC, 
under the NIT framework that I mentioned, and that has been 
increasingly positive as well. However, I would like to say 
that we would like to see that discussion and dialogue start at 
the very beginning of a process rather than at the end, you 
know, where a document may be presented for review and input 
but at that point it is almost too late to do so, so the 
dialogue hasn't started in the beginning so you might see 
overlaps at a time that is too late. You might miss gaps in 
things that needed to be done and weren't. And you might see 
areas where innovation might be stifled by the proposals that 
the government may make. So I would say that in order to avoid 
all of those landmines, we would want that partnership to start 
earlier. But our dialogue has been increasingly positive and 
rich and we are finding out a lot more about what industry is 
doing, what government is doing and where we can coalesce those 
efforts more productively.
    Mr. Ehlers. So progress is being made but you would like it 
to be more formalized and proceed more rapidly?
    Ms. Franz. Agreed. I mean, I think that a more formal 
process, a mechanism, as I mentioned, would enable that 
interaction at the earliest stage and get the expertise of both 
government and industry and other stakeholders in the room at 
the table, perhaps with a blank document, as some have 
mentioned, rather than a fully fledged product.
    Mr. Ehlers. Okay. Dr. D'Amico, what can you add?
    Dr. D'Amico. Thank you. You have raised some interesting 
questions. I would like to address the one about how we 
increase the number of cyber security experts in the United 
States. The thing that is keeping this from happening is not 
the money. We know that they are well paid. In industry, the 
average salary for a security manager is $108,000, in the 
Federal Government, it is $98,000, and in the state and local, 
it is $79,000. So it is not the money. I think it has to do 
with three things. One is the availability of jobs, the second 
is the perceived status and the third is the lack of U.S. 
citizens. There are not that many jobs available in industry, 
and I think it is because they don't see the return on 
investment. The only reason that people are really investing in 
security is because of the compliance legislation, but from an 
economic perspective, they don't see the ROI. In the military, 
there is no real perceived status for being a techie in the 
military. If you are in the cyber defense force, you are not on 
the path to advancement and so you have to move out of that in 
order to advance in the military. And then with respect to U.S. 
citizens, more and more of the advanced degrees in information 
security and computer science are not granted at--not as many 
of them are granted to U.S. citizens as in prior years, and so 
a lot of Bachelor's degrees are given to U.S. citizens. Only, I 
think, eight percent of the degrees are to foreign nationals 
but by the time you get to Ph.D.s, there 38, 39 percent are 
given to foreign nationals, so we need to change that around as 
well.
    Mr. Ehlers. Thank you. Dr. Schneider.
    Dr. Schneider. If you want somebody to get to do something, 
there is this basic dichotomy of the carrot versus the stick. 
The only way industry that plays in cyberspace--not the cyber 
security industry but companies that benefit by doing business 
over it--are going to build more-secure systems, is if they are 
somehow incentivized to do that. Return on investment is the 
carrot. Legislation is the stick. I am not an expert on 
suggesting which way to go but I will point out that if there 
was an incentive structure, then two problems would be solved. 
One, there would be employment of experts and cyber security 
experts might be technical and they might be policy oriented, 
and second, companies would be very anxious to facilitate tech 
transitions from researchers into companies. You have only to 
look back at the dot com era to notice that lots of good ideas 
were being discovered in research and were very quickly being 
monetized in the industry community. So there was an incentive 
structure. It was a carrot in this case, and it moved. It is 
the lack of incentive structure that in my opinion is what is 
holding things up.
    Mr. Ehlers. Thank you. And finally, Mr. Brown.
    Mr. Brown. It is one of the things when we look at research 
gaps and try to resolve some of those between industry and 
government. You know, we look at these gaps, we identify these 
gaps. Industry today is focused, you know, primarily on 
satisfying their customers' needs today. We prioritize those 
needs. We staff for those needs. We make sure that we are 
creating products that can meet those needs today. One of the 
major challenges industry has is, how can we prepare for things 
that are going to happen five, six, seven years from now, how 
can we set up that infrastructure that is really going to 
prepare us for that, and, you know, there is a challenge there 
that says those investments are very high risk. You know, how 
many of those investments are going to really be fruitful, and 
as we looked at the list of the research areas, when we see 
those, we see that they are identified as areas but really 
plans are not put into place to say how we are going to address 
those areas. Some of those areas are better left to research of 
government. Some of those areas are better left to research for 
public and private partnerships. Some of those research areas 
are better for university research. It is important that we lay 
out plans to address each one of those areas and stay to those 
plans.
    Mr. Ehlers. Okay. Thank you very much, very useful.
    Chairman Lipinski. Thank you, Dr. Ehlers, for your 
questions, but now you know that you have used up your question 
time for the next two hearings also, so----
    Mr. Ehlers. That is fine.
    Chairman Lipinski. No, that was very interesting and very 
good questions and good answers, very interesting responses 
there. I will now recognize myself for five minutes.
    Some of the things that I was going to ask about, some of 
the other Members have asked questions along those lines. I 
want to follow a little bit more--I am not sure if there is 
more we can learn or not but I just want to push a little bit 
more on one of those questions Dr. Ehlers just asked. It seems 
like one of the issues that we face with cyber security is that 
everyone thinks that it is not their problem, from individuals 
to companies, whether they have, you know, companies are 
producing software or operating systems or companies that just 
have data that is not protected. So I think that one of the 
issues--and I also think that there is not enough attention 
paid to this also. I am very happy that the Administration is 
paying attention to it because it is shining a light on this 
and what is going on and that is not just a political 
statement. I am very happy to see that because I think that is 
really needed in our country because a lot of people, they hear 
cyber security, they don't realize how much impact it is going 
to have on them. But just take an example. Yesterday Microsoft 
issued updates that patched 31 vulnerabilities in Windows and 
Office programs including 18 bugs that they marked critical. 
You know, just focusing on Microsoft there, yes, I do use an 
Apple computer, a Macintosh operating system, always have, but 
not just to pick on Microsoft. But where--how do we better 
incentivize? Like I said, you have all kinds of different 
individual types of companies. How do we better incentivize 
trying to get these, whether it is on software programs, how do 
we keep data better protected? You touched a little bit on 
this, but does anyone have anything to add on that right now? 
Dr. Schneider.
    Dr. Schneider. I think some sunlight would help. I think we 
don't do a good job of informing the population about the risk 
or about the consequences. You have a good notion of what the 
chances of being burglarized if you walk in any part of this 
city or probably the city you have come from. You don't have 
any notion of how often successful penetrations are occurring 
at banks or military installations or any of the attractive 
targets. There are good reasons why these institutions don't 
make this information public, yet if you look at the success of 
the California breach legislation that is now spreading 
throughout the Nation whereby when private information is 
disclosed, the institution that leaked it is obligated to 
inform the potential victims. That has had a very interesting 
effect and raised the consciousness both of the owners of this 
data and of people at large. So I see all this talk about 
raising public consciousness and public campaigns. I think if 
business were more obligated to be candid about what was 
happening, we would all understand and build a better model of 
the risks, and once people are more concerned about it, I think 
that is going to drive innovation and deployments.
    Chairman Lipinski. Mr. Brown.
    Mr. Brown. Yeah, in the past few years, you have to 
remember that the software industry is, you know, ever 
changing. Our threats are ever changing. The adversaries we are 
up against are changing as well. So when we look at software 
vulnerabilities, you know, just four or five years no one had a 
plan in place to train their software professionals. Now I 
can't think of any large software vendor that doesn't put their 
coders through at least secure code training. So the level of 
awareness has raised to, you know, a very good extent. Now, we 
have to deal with a lot of things from the past so software 
that was written five years ago is still in place. Software 
slowly moves out of both industry and consumers, and, you know, 
the industry has done better at announcing vulnerabilities and, 
you know, they should be applauded for announcing 
vulnerabilities and working with--working in ways to patch 
those vulnerabilities as quickly as possible. So overall, I 
think the industry is getting better. Now, can we do more? 
Absolutely. Should we have more trained people coming into our 
organizations? Yes. Should we have better, more trained 
professionals? Absolutely. But things are taking time but they 
are getting better. So we have to remember where we were three 
years ago versus today.
    Chairman Lipinski. Ms. Franz.
    Ms. Franz. I would like to build on a couple of things that 
my other distinguished panelists have mentioned. First, I think 
there is still a great need for awareness or sunlight, as Dr. 
Schneider said, on what the issue is, and particularly there is 
only a small community that knows what the threats are to them 
or what the activity is in cyberspace and so we have often 
asked for a mechanism that allows more information sharing 
between the government and industry on just what the problem is 
and what are the problems we are trying to solve. That 
certainly needs to be done in as trusted environment as 
possible, so that goes back to the partnership mechanism, but 
that information sharing and exchange is important.
    I would like to touch upon the incentive piece from a 
positive side of the equation, more of a carrot and stick, I 
suppose. Dr. Schneider mentioned the data breach notification 
laws and certainly that is something TechAmerica has been 
actively engaged in, particularly looking at the requirement 
for notification when there is a breach and providing for a 
safe harbor for industry and companies or other organizations, 
government or academic institutions if they have taken 
protective steps to protect that data before it could even be 
breached, to render that data unreadable, unusable, and so 
there is a presumption of a lack of harm in that instance. And 
so on the one hand, it incentivizes companies and other 
organizations to take protective mitigative steps before hand 
and then makes the data unreadable, unusable if it is accessed. 
So that is a positive incentive to look at sort of the carrot-
and-stick approach. I also might suggest that we consider ways 
that the tax structure could benefit efforts in R&D or other 
investments in cyber security efforts.
    Chairman Lipinski. Thank you. I am over time, but I want to 
throw one other part in here. Dr. D'Amico talked about how we 
need a cultural shift here so that people understand that what 
they are doing and the damage that can be caused, and I will 
give the credit where it is due. John Veysey, who works for me, 
sitting behind me, said if I wanted to cause trouble, what I 
would do would be to take some thumb drives and throw them out 
in the parking lot with a Trojan horse on there because almost 
everyone is going to pick it up, take it in the office and plug 
it into their machine just to even see who this might belong 
to, just things as simple as that. How do we change people's 
habits and just automatic reactions that they have that can be 
very dangerous and cause these vulnerabilities? How do we reach 
out to the general public to do that? Dr. D'Amico.
    Dr. D'Amico. We need a marketing campaign, and Americans 
are very good at marketing and there is a lot of research on 
how to market effectively to Americans. People want to be good 
U.S. citizens and we really need some kind of marketing 
campaign for individuals and for companies that you too can 
make a difference, engaging good computer hygiene so that 
before--they wouldn't touch a dirty object on the ground 
because of health considerations. They shouldn't touch a 
potentially dirty thumb drive on the ground because of computer 
hygiene considerations, and I think it is well within our 
capability to engage in a public awareness campaign using 
everything we know about good marketing. I think the second 
thing, and this is much harder, is that we really need to 
understand what the impact is of any single failure. So if 
somebody picks up that thumb drive and sticks it into the 
computer and they get some kind of infection, what are the 
cascading effects of that? We really don't know, and this 
really is a ripe area for research. We don't know enough about 
the interdependencies within an enterprise and across 
enterprise to be able to say you pick up that thumb drive, you 
put it into your computer, well, guess what? Somebody in a bank 
account two states away from you is going to have some money 
taken out of their account. We just don't know that and we need 
to study that.
    Chairman Lipinski. Dr. Goodman.
    Dr. Goodman. The problem of educating the public or making 
the public really fear what might happen to them out there is 
very, very difficult in this domain. We have a situation--I 
mean, in other domains usually there is some immediate physical 
threat that gets public interest and arouses them to protect 
themselves and to get help from others to protect them. This 
kind of threat for most users, not only in this country but 
especially around the world, it is so remote, it is so 
abstract, they are connected to these systems. They see all the 
good stuff that is going on out there. That is why they are 
spending so many hours at terminals, on their cell phones and 
what have you, and any kind of threat is out in oblivion 
someplace, okay, and physically it may well be out on the other 
side of the world. They don't see the immediacy. They don't 
see--and it is very difficult to educate them to this, given so 
many other things they have to think about. And we have again a 
situation where even when the public has seen immediacy, for 
example, in the world of automobile safety, those industries 
that are in the best position to do something about it have had 
to have a great deal of government push to do something to 
protect the public, and I don't think the public--each 
individual out there can do things to help them as they do with 
their homes, with locks on their doors and what have you. That 
is not going to be enough, and the public doesn't fully 
appreciate it and I am not sure what kind of educational 
program will bring it home what kinds of risk they have out 
there.
    Chairman Lipinski. Thank you. I have gone way over time 
here so I am going to conclude at that and recognize Mr. 
Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman, and thank you for 
calling this hearing. I think the first question, in most of 
your testimony you indicate that a lot of the infrastructure 
for cyberspace is in the private sector, and a lot of ideas 
have kicked around of how to enhance the cyber security, and 
one of those is to establish a rigorous regulatory regime to 
impose on these private companies and I think the second one is 
to somehow give those companies some kind of liability 
protection for maybe mandates that the government would impose 
on those companies to do certain activities. So those are two 
ideas. One of them sounds like more big government. You know, 
what are your thoughts on the current things that are being 
talked about. And third is, are there better ideas that we need 
to be thinking about? I will throw that open to whoever wants 
to jump in.
    Ms. Franz. I will take the first cut at that. I think that 
certainly right now we see a lot of proposals for the kinds of 
things that either regulatory or--the regulatory nature or with 
regard to practice requirements. The problem is, while the bulk 
of the information technology or cyber security or critical 
infrastructure is owned and operated by the private sector, the 
issue is, it moves so quickly. We see transitions and 
evolutions in the technology at a very rapid pace and 
legislation is not always the best way to address that, at 
least not in very specific ways. It usually is a blunt hammer 
for a very specific problem. So if there is a way to identify 
the problem, and again, I would suggest doing that in a 
collaborative sense, and then finding the best way to approach 
it, either through a standard or a best practice in many of the 
collaborative bodies that we have, either standards bodies 
nationally and internationally. Again, it is also a global 
issue. We don't want to put into place a regime that is 
restrictive, would be irrelevant in a very short period of time 
and then is either conflicting or provides--causes extra burden 
on companies or other organizations that have national and 
multinational operations. So it requires a really good robust 
dialogue on the best way for legislation to address the issue 
as well as other mechanisms.
    Mr. Brown. Ms. Franz also brought up the point of 
standards, and standards are extremely important when we look 
at adhering to--as software is developed, adhering to standards 
will help us have more consistent and more secure 
infrastructure across the board. So that is also an extremely 
important component of this. You know, the infrastructure 
players in the private sector are--you know, they are driven to 
do the best that they can. You know, you see who is out there 
and who hasn't survived, and, you know, the bottom line is, if 
they don't do their job, they don't do things securely, they 
don't do things in high-bandwidth methods, then, you know, they 
won't survive as a company. So there are a lot of incentives 
for the private sector to do the right thing here.
    Mr. Neugebauer. I agree with you, and I think that is one 
of the things that kind of concerns me about, you know, the 
government stepping in. Sometimes when the government does 
that, it leaves a false impression that oh, the government is 
watching out for me now and so I don't have to be careful, I 
can pick up that thumb drive, you know, and so I think we ought 
to--because most companies are very competitive business.
    Mr. Brown. Absolutely.
    Mr. Neugebauer. And, you know, they encourage you to buy 
firewalls and virus software because they know that if you have 
a disruption in your service, something that came over their 
network, whether they could have, you know, prevented it or 
not, there is problems to do that.
    I want to move to another area, and that is with the huge 
amount of growth in the use of PDAs and cell phones and 
texting, you know, that has become a huge piece of our world. 
Dr. Goodman, you kind of mentioned that in your testimony. What 
is going on as far as threats to my PDA and to my cell phone 
and what--I don't know. There may be virus software and 
firewalls for PDAs but, you know, I am not aware of it. So can 
you kind of update us on that?
    Dr. Goodman. There is nothing in this world, I mean world, 
expanding faster than cellular telephony and mobile devices 
more generally, and to perhaps restate some of what I said 
earlier, I think before you came, the devices are becoming 
increasingly powerful computers. Many are not yet around the 
world but the trend is very much there, and as such, they have 
all of the vulnerabilities, particularly as they become the 
principal devices for most of the world to connect to the 
Internet, that you have such things as laptops and desktop 
computers. So everything that is seen as a vulnerability that 
can be exploited with desktops and laptops will be coming with 
those cellular devices. I can guarantee that. Plus, and I 
rattled off a number of other features that are associated with 
mobile devices, that are uniquely vulnerable to them such that 
they use airwaves. They have very limited battery power and 
there is a disinclination on the part of everybody, the 
providers, the cell phone manufacturers and what have you to 
use up some of that battery power for security kinds of 
functions. I could go on and on. The list is really very 
substantial. I believe, and I used the word ``tsunami'' in my 
oral statement, that there is a tsunami of insecurity far 
greater than what we are seeing now coming with those devices, 
okay, and it will be worldwide, and to make another point with 
regard to worldwide on a comment that you raised, Mr. 
Representative, there are limitations. You used the term 
``rigorous regulatory regime'' and I advocated more regulation 
or at least thinking about regulation. There are limitations to 
that and everything else that everybody has raised here with 
regard to educating the American public and what have you and 
that is, we are dealing with infrastructure to an extent like 
no other on this planet that is connected to the rest of the 
world and you can regulate U.S. businesses, you can regulate 
U.S. users. Universities have been dropping. Our universities 
are not the best protected places on earth, I hate to say, but 
what sort of leverage does that regulation or law enforcement 
have on the other 200 countries or semi-sovereign entities 
where the Internet and cellular telephony all come to ground 
and some real thought has to be given to that and I am afraid 
close to no thought has been given to that except from a law 
enforcement standpoint around the world. And I will also say 
that as a crime and punishment approach, you know, people who 
are doing things out there are almost safe from being caught 
and prosecuted. Real attention needs to be given to prevention 
and recovery, and the world as a whole, much even worse than 
the United States, is giving very little thought to that.
    Mr. Neugebauer. Just a quick follow-up, Mr. Chairman?
    Chairman Lipinski. Thank you. We are going to have to--if 
we have time, we can come back. We have a couple more members 
that have questions to get in here. The Chair will now 
recognize Mr. Carnahan for five minutes.
    Mr. Carnahan. Thank you, Mr. Chairman, and welcome to the 
panel. I had a few questions I wanted to jump through, so I 
will try to move this along.
    First, I wanted to ask, what is in the panel's opinion the 
most effective route for small innovative companies that have 
new cutting-edge technologies to get visibility and 
consideration within the Federal Government cyber security 
area? Yes?
    Dr. D'Amico. Well, I am from a small business in New York 
and we do cyber security research, so I could say from 
experience that the Small Business Innovation Research Program 
is one of the best vehicles for small businesses to become 
involved in cyber security. It is an excellent program and it 
requires that the small businesses not just work in cyber 
security and R&D but also transition the technology. So I think 
that that is very important. One of the things that hurts small 
businesses and innovations is the common criteria certification 
that is required on security products. In order to get a new 
security product used in the Federal Government, one has to go 
through a very expensive common criteria certification. Entry-
level price is about a quarter of a million dollars and very 
few small businesses can afford that, so as a result you have 
some of the most innovative ideas that really never get into 
the Federal Government because of this certification 
requirement.
    Mr. Carnahan. Thank you. Anybody else on that? Ms. Franz.
    Ms. Franz. I would like to touch upon two aspects. One is I 
think building upon the awareness aspect. There are several 
mechanisms for making small business and other users more aware 
of the steps they can take to protect themselves, so looking at 
it from that perspective, what does a small business need to do 
vis-a-vis what a large company or individuals need to do, and 
one great resource for that is the National Cyber Security 
Alliance, which is involved in a lot of awareness efforts and a 
partnership with the Department of Homeland Security. Those 
kinds of efforts certainly could be bolstered to have more of a 
marketing campaign-like effect that Dr. D'Amico alluded to 
earlier and I think would be positive.
    With regard to how they can take advantage of cyber 
security efforts in the government, I just think it is a great 
awareness need, outreach need, a look at how procurement 
efforts can be undertaken to take those into consideration and 
make it easier for them to participate.
    Mr. Carnahan. Thank you. In the defense reauthorization 
bill, section 254, entitled ``Trusted Defense Systems,'' it 
calls for an assessment of various methods of verifying the 
trust of semiconductors procured by the Department of Defense 
from commercial sources for use on mission-critical components 
potentially vulnerable defense systems. How can the Federal 
Government better prepare and provide for these critical needs 
in a more comprehensive manner and a more timely schedule to 
meet those critical semiconductor requirements today? Yes?
    Dr. Schneider. So I think you are alluding to what is known 
as the supply chain problem wherein we are now purchasing 
semiconductors, boards and software from abroad, either through 
U.S. companies or not, and using them in defense systems, and 
we are using them also in private sector systems which are used 
in defense and which are controlling critical infrastructures 
that are not used in defense. This is a big problem, and it 
does not have a short-term solution. It is a very difficult 
problem involving probably five to ten years' worth of research 
before we will have some basic engineering approaches to solve 
it, and we should appreciate the severity of the threat and 
hope that the sophistication of our attackers is not at the 
level it could be.
    Mr. Carnahan. Anyone else on that? Ms. Franz.
    Ms. Franz. I would just like to highlight the notion that 
suppliers, whether they be U.S. companies or otherwise, are 
very aware of the vulnerabilities they have if something goes 
wrong. So they have taken steps in a number of ways to address 
their supply chain cycles and efforts in order to shore that up 
along the way. Of course, there are always situations in which 
that doesn't happen. Those measures aren't undertaken and not 
only the company but others could possibly see the 
ramifications of that, but before we do anything that disrupts 
the economic model that many companies and governments are 
benefiting from, we need to have a discussion about how best to 
construct that in a positive way. So again, that partnership is 
really important to figure out exactly what is happening, what 
is industry doing, perhaps what it is and what the parts that 
need to be addressed before we disrupt the system, and thereby 
restrict the kinds of innovations that government can get in a 
timely manner. Certainly the spectrum of sensitivity or 
classification or criticality of a mission needs to be taken 
into consideration as well, where do they need the most 
critical, the most secure solutions and where might they be 
able to leverage a global marketplace better. So that 
discussion and consultation is necessary for that.
    Mr. Carnahan. Let me just wrap up with the last question. 
There was a recent article in the New York Times entitled 
``Contractors Vie for Plum Work Hacking for the U.S.'' that 
focused in part on the growing demand for cyber warriors. How 
can the government and our educational system ensure that we 
meet the demands for these, not only meet the demand but also 
win the cyber security race and stay ahead of the curve here?
    Dr. D'Amico. I recall that article, and there are a few 
things about it. One is that they mentioned that there are very 
few people who have the security clearances that are needed to 
engage in some of that work. We need to have more U.S. citizens 
who get advanced degrees in computer science, engineering and 
the interdisciplinary areas that are related to computer 
security. The second thing is that a lot of those people came 
out of the military. One of the reasons they came out of the 
military is because of something that I alluded to before, that 
if you are a techie in the military, you don't get an 
advancement. We really need to have in the military a way of 
rewarding those people who are cyber defenders, cyber warriors, 
and then you will grow them in the military, and then when they 
retire they will be there to help in those areas that were 
mentioned in the New York Times article.
    Mr. Carnahan. Mr. Brown.
    Mr. Brown. Yeah, I think one of the other things--so 
education is definitely important. Educating people--you know, 
a lot of our workforce is coming out of universities with 
education on secure coding capabilities but not really secure 
systems. Understanding how to design systems in a secure 
fashion is actually a lot more difficult than understanding how 
to code securely. A lot of the threats that we see are really 
more systems threats. You know, you are using fine software 
throughout your system but, you know, it has got a weak 
password rule or those types of things are in place. So making 
sure that we have people that understand those and are coming 
up through the ranks of our universities that understand how to 
design secure systems. Now, we do have--you know, we have been 
producing more of those professionals in the last few years but 
it is still just a growing field so we need to do more. It is 
also important that we institute strong internship programs, 
strong programs that link them with industry, link them with 
government because the university environment only gives so 
much focus to the real world essentially. So a lot of our work 
with universities today, we fund university research, but when 
we see the researchers come in, a lot of those researchers, we 
are teaching them about the real world and trying to give them 
enough knowledge to have impact in other places.
    Mr. Carnahan. Thank you all very much.
    Chairman Lipinski. Thank you, Mr. Carnahan. Mr. Neugebauer 
had a follow-up question so the Chair recognizes Mr. 
Neugebauer.
    Mr. Neugebauer. Well, thank you. I was just going to go 
back to our conversation that Dr. Goodman was talking about in 
the cell phone area, and we talked about the devices 
necessarily may not be equipped to process some of the threats, 
but I guess the question is, what is the industry doing I guess 
out there to make sure that, you know, their systems have 
integrity because obviously a lot of people, it is big business 
so other panel members, if you have some knowledge on that, I 
think it would be helpful for us as well.
    Dr. Goodman. I will let Fred also respond, but from where I 
sit, I don't see--and it is big business. I mean, it is big 
business worldwide, not just the providers of the service but 
the makers of the devices and so on and so forth. So far I 
don't see much. I would also like to say something hopefully 
encouraging in that we are at the beginning of what I perceive 
to be a very rapidly rising curve in this domain. We have a 
certain amount of history with mistakes and not getting ahead 
of the game with regard to the Internet and all sorts of other 
security areas. Right now most of the users of cell phones, 
most of that 3.5, probably four billion people in the world now 
are using fairly weak devices that limit the kind of risk they 
are taking. That is going to be changing rapidly. Can we all of 
us, industry, government, governments around the world actually 
for once get ahead of the curve on this and do something to 
mitigate these risks before it becomes the kind of tsunami that 
I am afraid is going to become?
    Mr. Neugebauer. Mr. Brown? I thought you----
    Mr. Brown. Yes. Thank you. So when we look at--you know, I 
agree. In some cases we are in infancy in the cell phone/PDA 
world. We have opportunity to do a lot better in this world 
than we have in the laptop/desktop world. The threats are going 
to be different here though as we open up new interfaces and 
new capabilities to these phones. You know, Apple first put out 
their iPhone and they said a browser will be your only 
interface. That was easy to secure. But guess what? Consumers 
demanded that I have an application for everything, as the 
Apple commercial says, and each one of those applications now 
has increasing functionality. Each one of those applications 
has potential vulnerabilities. You know, we have--they have 
done a better job at securing things but there are more 
vulnerabilities, more opportunities to either socially engineer 
threats, which is actually probably more of a threat than 
software engineering of a threat. So we are at the point where 
we can do more and not have the same problems that we had sort 
of in the desktop/laptop world.
    Mr. Neugebauer. Dr. Schneider.
    Dr. Schneider. Let me point out a few technical differences 
between the cell phone world and the desktop world and the way 
they are evolving that might give you some reason to sleep at 
night. First, there is no dominant producer of the operating 
system for cell phones. There are a fair number of producers. 
That means there is not a monoculture so it is difficult for a 
single attack to attack all the processors. Second, early in 
the evolution of cell phones, the phone companies established a 
model that they owned the software and that they would 
periodically change your software without telling you when they 
decided to make a change in feature or fix a bug. So the model 
that we have for desktop software where Microsoft announces a 
bunch of patches for some vulnerabilities, notice they didn't 
announce that they were successfully attacked. They were 
preempting that. But the model where it is the user's 
responsibility to configure the system and it is the user's 
responsibility to keep it up to date has been abandoned and at 
least for the basic operating system of the cell phone, this is 
under the control of the manufacturer. There is a possibility 
now that everyone is going to be able to download their own 
applications and they will be responsible for that piece of the 
picture. That will be a problem. But if the cell phone 
manufacturers retain the view that they manage your security, 
then we might be better off.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Chairman Lipinski. Thank you. We keep pushing back. I am 
looking at the TV screen here to see about when we are going to 
vote. I don't want to get into--we don't have much time so I 
just want to very briefly get into--throw out one more 
question. I was looking through my notes that I had made so I 
will recognize myself for five minutes but hopefully we can 
keep it to shorter than that. Dr. D'Amico talked about need to 
incentivize technology transfer and Dr. Schneider also talked 
about needing to bridge the gap between the research and 
policy. How do we do this? And this is always an issue that is 
facing so many different areas in technology transfer. It is 
something I am very interested in because I think it is very 
critical, getting that research, especially from our 
universities and getting them together with industry. How do we 
do that in this instance? So Dr. D'Amico?
    Dr. D'Amico. We really need to make the government program 
managers who are monitoring this federally funded research 
accountable for the technology transition and make the 
researchers incentivized to do it. First of all, the programs 
that are funded should include a technology transition phase 
and not stop at well, you have built a prototype, you have 
demonstrated in a laboratory and now we are done and we write 
the paper. It really has to go through usability testing and 
operational environment, and the money has to be there to do 
it. The second thing, and this is something I raised in my oral 
testimony, is that I think that the researchers need to go out 
to the security professionals who are ultimately going to be 
using the results of their work. So much of research is 
really--so many researchers brief themselves or their 
community. They publish papers within their community and they 
never really go out and talk to the security practitioners, and 
we need to have the results of the research brought out to 
those security practitioners, write an article for information 
security, see if you can turn your research into something that 
makes sense to the practitioners, and it may change the way you 
do your research. So those are two of the ideas that I have.
    Chairman Lipinski. Thank you.
    Dr. Schneider.
    Dr. Schneider. Let me comment on two things. First, so I am 
one of those researchers and I do get government grants. I run 
a fairly big operation. Today if you want to get a grant, you 
are much better off being able to assert in the grant 
application what your successful technology transitions were 
than to list publications. At least in many of the funding 
agencies, there is a culture that people who succeed in having 
a real impact are the ones they want to fund and publications 
don't matter so much. The other question has to do with 
teaching policy and technology. I think academia may be a bit 
ahead of the curve here but when I read places asserting we 
need to teach all our students the list of common security 
holes and secure coding practices and the next step is to teach 
them how to do secure designs, I think we need to teach them 
ethics, I think we need to teach them law, because if they 
don't understand these things, they are not going to know when 
they can trade off between a technological solution and a 
policy solution. If they don't have a good sense of ethics and 
sociology, then they won't understand how when they change the 
Internet so it is more secure, the fact that it became less 
usable makes it a less attractive place for all of its users 
and it gets ruined in another way, and so I think it is the 
responsibility of universities and any educator to have a much 
broader view than this kind of technology, and we shouldn't get 
railroaded into believing that we should produce technologists 
to solve this problem because they will come up with solutions 
but they are not going to be good solutions in the big picture.
    Chairman Lipinski. Thank you.
    Mr. Brown.
    Mr. Brown. Just one quick comment. When you talk about 
moving from research into products and applications, we have to 
understand that some of that takes a long time. You know, even 
if I come up with the greatest idea today within my company, 
within my position, I am a year and a half out before that idea 
gets into a product because we are mid-cycle in products, we 
are going to take that time. So patience and diligence, 
diligence and follow-through is critical to get anything done. 
So we have great ideas, we have great research. They take time 
to get implemented in products and they take time for people to 
implement them in the commercial sector or in the government 
sector. So we need to have processes in place that are going to 
attract those that research that we are doing through its life 
cycle and not give up on it after a year or two years.
    Chairman Lipinski. Thank you.
    You have to be very brief, Dr. Goodman.
    Dr. Goodman. Very brief, I guess. There is another side to 
this. The implication in a lot of what has just been said is 
that somehow the innovators, the people who do the research 
need to push what they have done into the real world, and 
perhaps by offering things get policy changed or what have you. 
There is the other side of things, and that is that people who 
are going to be the primary consumers of better security, 
whether they are trying to manifest this through policy or 
through what they think will really help their products, their 
commercial activities be more secure, they have got to send 
serious signals that there is a demand for certain kinds of 
research to solve certain kinds of problems, and that demand I 
think will filter into the research community and with funding 
they will get results. It is a two-way street to get things 
from ideas into useful practice.
    Chairman Lipinski. Thank you, and I want to thank all of 
our witnesses for your testimony today. I certainly have 
learned a tremendous amount, and as we move forward right now, 
we have, as I said, two more hearings on cyber security. As we 
move forward with legislation in this area, we are certainly 
going to take a lot of what you have said and any more follow-
up that you may have for us, we would appreciate. The record 
will remain open for two weeks for additional statements from 
Members and for answers to any follow-up questions the 
committee may ask of the witnesses.
    So again, I thank the witnesses for their testimony. I 
thank the Members for their participation, and the witnesses 
are excused and the hearing is now adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Seymour E. Goodman, Professor of International Affairs and 
        Computing; Co-Director, Georgia Tech Information Security 
        Center, Georgia Institute of Technology

Questions submitted by Chairman Daniel Lipinski

Q1.  The Administration's Cyberspace Policy Review calls for the 
development of an R&D framework that focuses on game-changing 
technologies, but at the same time new threats that need immediate 
attention are constantly emerging. What is the appropriate balance 
between long-term, game changing research and research targeted toward 
incremental improvement?

A1. It is easy to wish for R&D leading to ``game changing 
technologies.'' But it is much harder to identify promising ways to go, 
and to see them through to widespread and effective adoption, a 
necessary condition if any game is really going to change. Identifying 
good candidate possibilities must be done by exercising bold expert 
assessments of the possibilities, with an appreciation of what 
successful pursuit of those R&D possibilities might mean for effective 
and comprehensive cyber security. There will not be many such 
proposals, but funding should be available to pursue the most promising 
to stages where they may prove their viability as serious game changing 
candidates.
    To that end, what might ``game changing'' technologies actually do? 
The National Research Council committee and report that I recently 
chaired (Toward a Safer and More Secure Cyberspace, National Academies 
Press, 2007) proposed a Cybersecurity Bill of Rights that consisted of 
``10 basic provisions that the committee believes users should have as 
reasonable expectations for their online safety and security.'' I 
suggest that new technologies, and policies for their implementation, 
leading to demonstrable progress towards making a significant part of 
this vision a reality would constitute game changers.
    There is also a pressing need for effective and timely work on 
extremely important emerging problems. A prime example that I raised in 
my oral testimony is comprehensive security for mobile devices, 
especially cellular phones, with an eye toward getting ahead of the 
problem and ``getting security right,'' or at least much better than is 
now the case, as they become more powerful computing devices that will 
be truly ubiquitous, including the likelihood that they will become the 
primary vehicle everywhere in the world for access to the Internet. 
Another may be ``cloud computing.'' Both have the promise for creating 
massive new waves of cyber insecurity unless we can get ahead of the 
technology and diffusion curves. Some people might consider successful 
work on these problems as ``game changing'' since they are so 
important, rapidly emerging, and would affect very large user 
communities. Certainly this would amount to much more than 
``incremental improvement.''
    I believe an appropriate balance should be weighted towards 
problems like these, with no more than about 20 percent devoted to 
finding grander and more comprehensive ``game changing'' solutions, and 
no more than about 20 percent devoted to incremental improvement. I 
believe most of the latter should be done by industry, including 
funding third party research and development people. If promising 
directions towards ``game changers'' are clearly demonstrated, the 
funding agencies should have the flexibility to redirect resources 
toward their aggressive pursuit.
    As stated in my oral testimony, I believe a fundamental issue for 
both the near and long terms is effectively assigning responsibility 
for exploiting the results of R&D and implementing security in the real 
world of cyberspace. Right now this doesn't exist to anywhere near the 
extent it should. People and organizations who are most at risk of 
being victims are among the least capable of defending themselves and 
doing what needs to be done to protect what might be called the ``cyber 
commons.'' Analogies can be made with the histories of safety and 
security in other infrastructures, e.g., with seat belts, shatter proof 
windshields, air bags, traffic laws and police and courts (but we must 
be careful of trying to make such analogies too close). One might argue 
that responsibility needs to be with those who are in the best position 
to make cyberspace significantly more secure. I would argue that 
resolving this problem is both researchable--although not in the narrow 
computer science sense, and will require thinking about incentives, 
regulation and law, economics, the makeup of the IT industry, and 
technical feasibility--and a necessary precursor for any effective 
``game changer.''

Q2.  Beyond the Scholarship for Service program, discussed in your 
testimony, do you have any specific recommendations for existing 
federal agency programs that should be expanded or new programs that 
might be created to address cyber security education needs? Is there a 
specific level of education that is in need of increased attention?

A2. Two opposite ends of the education spectrum need much increased 
attention: the general user community and graduate level education. The 
first addresses people who are most vulnerable, and most defenseless 
against increasingly sophisticated threats. They need to understand 
more about the risks they are subject to in cyberspace and what they 
can do to decrease their vulnerabilities. My response to Rep. Hall's 
fourth question below addresses two important age brackets of the 
general user community. My comments here are mostly concerned with the 
second, the post-graduate degree granting institutions.
    People with graduate education are needed to professionally protect 
organizations, the ``cyber commons,'' and parts of the relatively 
defenseless general user community. People with graduate education will 
be necessary to do most of the research, development, and the 
deployment of better technology and policies, and become the teachers 
of others. Presently, there are far too few to meet these needs.
    Currently I would estimate that there are fewer than 50 
universities each capable of graduating even a small, steady stream of 
graduate level professionals in information security. For example, 
Georgia Tech has one of the largest and most substantial programs, 
sustained by an unusual number of faculty members seriously concerned 
with cyber security, but we graduate only about 30-40 new MS and Ph.D. 
people a year in this area. And, again, we are one of the largest.
    It is not easy to create more, as partially evidenced by the fact 
that the capacity building track of the SFS program has not worked out 
particularly well. And it is not easy to build up those schools that 
exist, e.g., because of internal competition from other areas for 
faculty hiring and coverage, and enrollment problems in computer 
science departments where most of this capacity resides. There is much 
less in information systems departments that are typically part of 
business or public policy schools, and efforts must be made to get 
cyber security into their programs. A necessary condition for doing 
better is to build up the number of Ph.D. level faculty members, and 
this takes time. One possible way of trying to deal with this might be 
to expand the SFS program to include more Ph.D. students, and to permit 
them to satisfy their immediate service obligations through teaching 
and program development in a range of K-12 and post-secondary 
educational institutions, including universities and community 
colleges.

Questions submitted by Representative Ralph M. Hall

Q1.  Some experts have suggested that we should consider taking 
critical infrastructure networks such as those that control electricity 
transmission and distribution ``off the grid''--into a network 
physically not connected to the public Internet, just as we do with our 
classified military networks. Please comment on whether you think such 
an approach warrants further consideration, and if so what potential 
benefits as well as challenges would accompany it.

A1. If much of the risk to these networks arises through connectivity 
to the public Internet, then that risk must be mitigated. Until this is 
effectively done in ways that permit safe forms of connectivity, it 
might be best to keep at least some of them disconnected, although 
connectivity has become such that this may be harder to do than it 
sounds. In the discussions about balancing the risks of insecurity 
against other factors, e.g., profitability, efficiency, or convenience, 
security usually seems to come up short.
    But at least for the electric power distribution industry and 
infrastructure, the regulator (the Federal Energy Regulatory 
Commission) seems to be trying to step up to the problem. For a 
discussion of this effort, and much more, I refer you to a recent paper 
by one of my colleagues at Georgia Tech: Stephen J. Lukasik, ``Reducing 
Threats to Users of the Global Cyber Commons,'' Center for Strategy, 
Technology, and Policy, Georgia Institute of Technology, Atlanta, GA 
2009. A copy of this paper has been left with the Committee staff.
    The positions that Dr. Lukasik has held over the years include 
Deputy Director and then Director of ARPA (now DARPA) when the ARPANET 
was being conceived and first implemented, and the first Chief 
Scientist of the Federal Communications Commission. In the spirit of 
this question, and given the precarious state of cyber security more 
generally, Dr. Lukasik suggests, ``users should seriously revisit the 
premise that any two things are better connected than left 
unconnected.'' I would endorse that cautionary statement.

Q2.  The comprehensive cyber security initiative that was created by 
President Bush and is continuing under President Obama focused on 
improving cyber security coordination across government and on funding, 
game-changing ``leap-ahead'' technologies. Do you agree with these 
priorities? If you had an additional $100 million to spend on cyber 
security R&D, to what agencies and research areas would you devote it? 
Is there general agreement within the scientific community regarding 
security research priorities?

A2. Our 2007 NRC report, referenced in my response to Rep. Lipinski's 
first question, advocated a broad, defense in depth approach covering a 
number of important and complementary technologies. As also discussed 
in my response to that question, some effort to identify and develop 
game changing, ``leap-ahead'' technologies should be pursued, but the 
problems of cyber security are so extensive and complex that such 
silver bullets may be hard to come by at best, and are unlikely to come 
quickly.
    Some areas, like improving methodologies for designing and 
engineering or re-engineering of more fundamentally secure systems and 
applications, would underlie almost anything else that would be done. 
So would research into architectures that would be fundamentally more 
secure than what we now have. I believe there is fairly general 
agreement within the scientific community on these points, but less so 
on many others. Again, I would place a large fraction on any new 
funding on dealing with the security problems associated with very 
large and rapidly emerging new technologies, notably mobile phones and 
other devices, and cloud computing, and also on research that looks 
into the problems of the timely, effective, and widespread 
implementation of new security policies and technologies. Many of the 
latter problems are at least as much matters of management, 
organization, and incentives as they are matters of technology. The 
problem of effective, widespread adoption is so enormous and complex 
that it might well negate good new technology if it is not given 
serious attention.
    There are many agencies under the NITRD umbrella. I would hope that 
some of them would see these problems as particularly relevant to their 
mission statements and eagerly step up to producing solutions.

Q3.  The strategy of both the past and current administration has 
focused most of our cyber security investment several billion dollars 
annually--on procuring and deploying intrusion detection systems. Due 
to the cat-and-mouse nature of cyber warfare and defense that several 
of you noted in your testimony, it seems that these systems are only 
effective against threats that we already know about and understand. 
Given this reality, can this type of approach produce effective results 
over the medium- or even short-term? If not, is research on a new and 
fundamentally secure Internet architecture the only long-term answer?

A3. Given the attention and investment over a long period in R&D for 
intrusion detection systems (IDS), I would suggest that it is time for 
a serious assessment of its impact. This would provide a far better and 
more constructive answer than what I might offer in this short 
response. I believe that most R&D in cyber security should be done as 
if application matters. In keeping with that, we must learn to do 
serious evaluations of progress towards a safer and more secure 
cyberspace, and IDS is a good place to start.
    Are we able to detect almost all intrusions into almost all of our 
computers? Are we doing anything that is effective against emerging 
threats? If so, what combination of technical R&D and deployment 
incentives and strategies made this possible? What has this gotten us 
in terms of safer and more secure computers? Have we been able to 
thwart the intents and limit the damage done by these intrusions? Are 
we really limited to those threats that we failed to anticipate and 
prevent and ultimately learned about the hard way?
    If not, then we need to understand why not before we pour billions 
of dollars and other resources more into IDS or something else. With 
most of the well-educated professionals among the good guys, why can we 
not pre-empt new forms of intrusions as they are happening or before 
they happen? Do we have good technical solutions that are not being 
implemented? Is the technology just not up to it, or are our systems so 
fundamentally insecure and there are so many threat possibilities that 
we should not have unrealistic expectations here, or is part of the 
problem apathy or resistance on the parts of the people and 
organizations in the best positions to implement and sustain these 
solutions? If the latter is the case, what can change this?
    Note that intrusion detection is largely a matter of computer 
security. A ``new and fundamentally secure Internet architecture'' is 
more about network security and some different kinds of forensics, 
although it might have some positive effect on computer security. It 
may well be the necessary and best long term answer. There is no doubt 
that we could do better producing a more secure architecture today than 
was originally the case, but ``fundamentally secure'' is a very tall 
order, especially if it also is to be effective in protecting us from 
insecure applications that could be put on the net. And ultimately 
there is the massive and very difficult problem of the huge legacy 
Internet to be abandoned or moved to the new architecture. In this 
regard, we have not always been very successful on much smaller scales.

Q4.  When this committee discusses a STEM education issue, we don't 
just focus on higher education: We start at the pre-K levels and extend 
beyond post-graduate work. Most of the education-related testimony has 
focused on our adult population either from an academic and workforce 
perspective, a behavioral perspective, or a public awareness 
perspective. What are your education recommendations for our children 
when it comes to cyber security in all of these areas?

A4. Children and young people in the age range usually associated with 
primary and high schools, roughly ages 5-18, are a particularly 
vulnerable and important category of general user. In the United 
States, beyond the first few grades as a group they are probably coming 
increasingly close to being almost 100 percent users of the Internet or 
mobile phones and other devices. And the Internet has become part of 
many programs in K-12 educational institutions in this country, even if 
just as an augmentation to or substitute for traditional hard copy 
libraries.
    It is important to include the concept of ``safety'' in addition to 
the common usages of ``security'' in discussing this age group. Some 
undesirable Internet enabled activities specifically involving children 
and teenagers range from the unauthorized use of credit cards (to 
paraphrase a classic New Yorker cartoon: ``on the Internet, nobody 
knows if you are a child''), to massive violations of the intellectual 
property of others, to risking their own privacy on an unprecedented 
scale, to hacking for sport, bragging rights, and profit, to enabling a 
huge worldwide child pornography underworld, to providing unprecedented 
entries for people who physically or mentally prey on children. 
Furthermore, the naive or undereducated or malicious use of the 
Internet by children and teenagers may put others at risk.
    But this is an age group that is almost totally accessible through 
their schools. Education covering the safe, secure, and ethical use of 
cyberspace is thus arguably a necessary and desirable addition to the 
curriculum in the primary and secondary schools. More generally, I 
would reflect a view expressed in the Association for Computing 
Machinery (ACM), the oldest and one of the largest professional 
associations devoted to computing, that we should look for ways to 
integrate grade-appropriate cyber security curriculum into existing 
courses, but we also need to expand the teaching of core computing 
concepts at the K-12 level. Computer science education is too often 
missing from the K-12 education landscape. As computing becomes 
ubiquitous through platforms such as hand-held or cellular devices and 
its role grows in society, it is imperative that students have a better 
grasp of the fundamentals of computing. We can do this by making a 
rigorous and engaging computing education part of the core that 
students must know and by making safe, secure, and ethical use a 
central part of this education.
    If a narrower focus is desired, many precedents exist for helping 
K-12 students to cope with some of the problems in the real world, for 
example, for hygiene, nutrition, driver and sex education. But it will 
be more difficult to deal with this subject since the risks are more 
abstract and usually not physically proximate. And the problems are 
much more dynamic and rapidly changing.
    We also have much to do with regard to educating the educators, 
i.e., developing capable teachers and the materials for them to use. 
This is not likely to be done well on a purely voluntary or local 
basis. In some ways and locales it is likely to be controversial, and 
care must be taken to get together material that is sensible, 
interesting, well presented, and does not needlessly scare the wits out 
of children (or senior citizens, see below). As stated above, the 
subject might be treated as a separate course, or distributed 
throughout the computer-using curriculum. It would also need to be 
reinforced in other public domains such as libraries and Internet 
cafes. This is a difficult assignment that must be given to the 
Department of Education, with start-up help from the NSF. Other 
professional organizations could also be constructively involved. These 
might include the ACM, the IEEE Computer Society, the Computer Science 
Teachers Association, the International Society for Technology in 
Education, and some industry associations.
    I have one final concern at the opposite end of the spectrum, with 
an adult age group that usually does not figure into the academic or 
workforce discussions noted in the statement of this question. A 
sizable and growing fraction of senior citizens are users of the 
Internet, having been coerced and cajoled into doing so for what are 
often good reasons. But many do not take to computing as easily and 
``naturally'' as young people. I believe that seniors are particularly 
vulnerable to exploitation and accident, and to fraud in particular. 
Some thought and effort should be given to help them. The institutional 
means of broadly educating this group is much less obvious and more 
diversified than is the case for children and teenagers. But there are 
a large number of vehicles for ``lifelong learning'' in the United 
States, and safe computing and computing more generally should be made 
a much larger part of their curricula than is now the case. Again the 
professional associations, and the AARP in this case, might be 
constructively engaged in dealing with this problem.
                   Answers to Post-Hearing Questions
Responses by Liesyl I. Franz, Vice President, Information Security and 
        Global Public Policy, TechAmerica

Questions submitted by Representative Ralph M. Hall

Q1.  Some experts have suggested that we should consider taking 
critical infrastructure networks such as those that control electricity 
transmission and distribution ``off the grid''--onto a network 
physically not connected to the public Internet, just as we do with our 
classified military networks. Please comment on whether you think such 
an approach warrants further consideration, and if so what potential 
benefits as well as challenges would accompany it.

A1. There would be considerable impacts on the usability and innovation 
derived from critical infrastructure networks should they be ``taken 
off the grid'' and put onto a classified-like proprietary network. In 
fact, in many cases such separation would be incompatible with the 
vision for improved, data-driven efficiencies that motivates ``smart 
grids.'' With regard to electricity transmission specifically, 
TechAmerica member companies cite such examples of pooling and analysis 
of real-time, end-devise power-consumption data that enables more 
efficient electricity generation and transmission. In addition, we 
caution against policies that would adversely impact innovation in home 
networks or consumer products, either in inhibiting the very innovation 
that helps drive our economic growth or in establishing one-size-fits-
all cyber security requirements that stifle functionality and, in many 
cases, may not deliver greater security.
    With regard to this question, specifically, I highlight two key 
principles: (1) Cyber security is not a one-size-fits-all endeavor, and 
no one solution will meet all the needs of any given client. Therefore 
it is imperative that government, industry, and even individual network 
owners and operators undertake a risk management approach to the 
security of their operations. (2) As manufacturers and users of 
innovative technological solutions consider ways to ensure inter-
operability and security measures, they should engage in appropriate, 
and global, standards development organizations in order to meet the 
specific needs of each product or service and involve all stakeholders.

Q2.  The comprehensive cyber security initiative that was created by 
President Bush and is continuing under President Obama focused on 
improving cyber security coordination across government and on funding 
game-changing ``leap-ahead'' technologies. Do you agree with these 
priorities? If you had an additional $100 million to spend on cyber 
security R&D, to what agencies and research areas would you devote it? 
Is there general agreement within the scientific community regarding 
security research priorities?

A2. The IT industry does support efforts to improve cyber security 
coordination across government and on funding for the development of 
``leap ahead'' technologies. As such we support the intent of the R&D 
efforts that are part of the Comprehensive National Cyber Security 
Initiative (CNCI). However, we believe those efforts can only be 
successful if they incorporate consultation and coordination with 
industry and the science community on identifying priorities. The IT 
sector is undertaking efforts now to engage the U.S. Government and 
provide suggestions and exchange information on R&D programs. The 
primary goal of these efforts is to ensure support for allocation of 
funds for projects that do not duplicate existing or ongoing work and 
help the government identify areas for research funding that lack a 
viable commercial market opportunity or incentives.
    Implicit behind the premise of ``leap ahead'' research is the idea 
that there may be problems too intractable to be addressed in a timely 
fashion through incremental research. At times, useful discoveries may 
occur from unanticipated multi- or cross-disciplinary investigations. 
The creation of public/private partnership models to support 
revolutionary (as opposed to evolutionary) research is an important 
part of a balanced national strategy for cyber security research and 
development.
    Another important part of balanced approach to R&D is ensuring that 
the benefits of that research are made available to others. Such 
technology transfer is the ultimate goal of industrial research 
programs that bring the effect of research successes to the market and 
to product users. To the extent that government can streamline the 
environment for technology transfer the greater the benefit.
    With regard to research areas where additional funding could be 
applied, we highlight two that have been part of recent discussions, 
including the recent Nation Cyber Leap Year Summit. First, given new 
challenges to IT management as systems become more automatically 
adaptable or self-modifying in order to resist attacks, we may benefit 
from research into the management of adaptive systems. Second, research 
into cyber security metrics is another area where there is significant 
opportunity for progress.
    Lastly, whichever agency or agencies receive funding for such 
research and development efforts, we strongly urge requirements for 
coordination and collaboration with other agencies and with the private 
sector and the academic community.

Q3.  The strategy of both the past and current administration has 
focused most of our cyber security investment--several billion dollars 
annually--on procuring and deploying intrusion detection system. Due to 
the cat-and-mouse nature of cyber warfare and defense that several of 
you noted in your testimony, it seems that these systems are only 
effective against threats that we already know about and understand. 
Given this reality, can this type of approaches produce effective 
results over the medium- or even short-term? If not, is research on a 
new and fundamentally secure Internet architecture the only long-term 
answer?

A3. It is precisely the dynamic and evolving threat environment that 
calls for taking a risk management and all-hazards approach to 
protecting ourselves from cyber attacks, to include not only 
technology, but people and processes as well. Certain technologies will 
address specific kinds of attacks, while a more sophisticated 
enterprise architecture will help defend against various kinds of 
intrusions. Each enterprise--or individual--needs to assess their 
specific usage, system, and security needs and make their investments 
accordingly. While R&D on a new Internet architecture may be something 
to consider, such an approach must be evaluated with all the 
stakeholders at the table to ensure a thorough vetting of the 
objectives, potential solutions, and intended and possibly unintended 
consequences. In the meantime, however, we must continue to invest in 
key cyber security R&D for both short and medium term innovative 
solutions to today's challenges.

Q4.  When this committee discusses a STEM education issue, we don't 
just focus on higher education. We start at the pre-K levels and extend 
beyond post-graduate work. Most of the education-related testimony has 
focused on our adult population either from an academic and workforce 
perspective, a behavioral perspective, or a public awareness 
perspective. What are your education recommendations for our children 
when it comes to cyber security in all of these areas?

A4. At the most rudimentary level, we should be including ways to 
sensitize our children to cyber security considerations when they are 
learning how to use a computer and the Internet, something which is 
occurring at very young ages today. We can take advantage of that early 
learning to infuse good user practices that address safety (what 
information you put on the Internet about yourself), security (if you 
are learning how to download any number of ``fun'' applications, you 
can also download anti-virus software and encrypt your wireless 
connection), and ethics (consequences of cyber bullying or cyber 
fraud). Building such elements into the K-12 curriculum must recognize 
the dynamic nature of the cyber medium and the threats it faces and, 
therefore, be set up in a way that is flexible to be updated as 
necessary, and to provide resources for educators and students about 
where they can go to get the most up-to-date information. One good 
source for such information is www.staysafeonline.org, which is run by 
the National Cyber Security Alliance (NCSA), a non-profit public-
private partnership to build cyber security awareness with all user 
groups.
    At a more strategic level, we can be developing curriculum that 
lays the foundation for a workforce that is capable of designing secure 
systems. Congress could call for a short-term task force that engages 
industry, academia, the Department of Education, the Department of 
Homeland Security, and the Department of Commerce's National Institute 
for Science and Technology (NIST) to make recommendations for 
establishing such a foundation, evaluating and building upon any 
existing efforts and/or developing new ones.

Q5.  Ms. Franz, in your testimony you call for a ``true government-
industry collaboration on research projects.'' Please elaborate on this 
recommendation. How would it be structured, and how would research 
priorities be identified? What agency or agencies do you think should 
fund such an effort?

A5. In my testimony, I wanted to emphasize the need for collaboration 
among government-industry partners on equal footing. Such equal footing 
could be achieved a number of ways, including through a structure that 
ensures engagement with government and industry representatives at the 
very beginning of any evaluation and prioritization process. In 
addition, a governance structure could ensure that each partner has 
equally weighted ``votes'' in the deliberation process. Too often one 
partner works on a process alone for so long that once the other 
partner is brought into the process, it is too late for a fully 
deliberated discussion and prioritization. Finally, true collaboration 
would include commensurate stakes and investment by each partner. For 
example, should the government fund an effort, industry could provide 
expertise that meets the need--and the stated level of partnership. 
Such ``true'' collaboration would require a change in how government 
and industry each approach the R&D discussion today and bring them 
together at the beginning of the partnership process--even in how that 
process is conceived.
    For funding a cyber security R&D collaborative effort, I believe 
any number of agencies could--and should be involved to maximize not 
only the funding sources but also the expertise from various 
constituencies and bring them--and their industry stakeholders--
together for such a project.
                   Answers to Post-Hearing Questions
Responses by Anita D'Amico, Director, Secure Decisions Division, 
        Applied Visions, Inc.

Questions submitted by Chairman Daniel Lipinski

Q1.  In your written testimony you indicate that good security 
decisions are based on an understanding of risk. How is cyber security 
risk assessed and are the current methods or tools adequate? If current 
measures of cyber security are not adequate, what research is needed to 
improve cyber security risk assessment?

A1. The methods and tools for measuring cyber security risk are not 
adequate. There is an excellent May 2009 publication entitled 
``Measuring Cyber Security and Information Assurance'' by the 
Information Assurance Technology Analysis Center (IATAC) which is 
available through the Defense Technical Information Center. It 
summarizes the state-of-the-art of measuring cyber security, which is a 
prerequisite to understanding and measuring the actual risk associated 
with the security state, and describes several measurement approaches. 
It concludes: ``there are no universally recognized, reliable, and 
scalable methods to measure the security of [IT] assets.''
    Even if the risk measurement tools and methods were scalable and 
reliable, their value for enhancing security state would be minimized 
without commitment by the decision-makers to consistently use the tools 
and methods. However, business managers have not yet committed to 
regular measurement and mitigation of the discovered risks. What will 
it take for risk measures to be embraced by corporate and military 
officers?

        <bullet>  Answer the ``Risk to what?'' question--The broad 
        usage of security risk measurement is more likely to occur if 
        the industry managers and military commanders understand the 
        impact of these risks to their specific mission, whether that 
        mission is to build a greater revenue stream or protect Afghani 
        citizens from terrorists. Risks must be put into the context of 
        the goals of the organization and the individual investing in 
        the risk measurement. A ripe research area is to identify 
        methods for automatically linking the availability, 
        confidentiality and integrity of IT assets to the specific 
        business processes or mission tasks that the organization or 
        individual must perform.

        <bullet>  Establish the credibility of the risk measures--As 
        with any metric, it must be grounded in systematic observation 
        of lots of data. The data on which the metric is based must be 
        recognized as meaningful to the ultimate users of the metrics.

        <bullet>  Make it easy to collect--Automated tools for 
        collecting relevant data from the network enterprise and 
        calculating the risk measures would decrease resources needed 
        to perform risk measurement. Research and technology 
        development is needed to determine the best methods for 
        collecting and calculating risk measures in real-time.

        <bullet>  Make it easy to mitigate--The IATAC report cites a 
        need for research in ``self-healing'' measures in which an 
        automated response would be triggered when a threshold of risk 
        metric is reached. In addition to the automated mitigation 
        approaches, we need methods of presenting the outcome of risk 
        measurement in intuitive and actionable form.

    Finally, most cyber security risk measurement is focused on wired 
networks, ignoring the ubiquity of wireless devices. Wireless access 
points, wireless cards within laptops, and smart phones can be 
exploited by attackers to penetrate critical wired networks. Even 
though wireless networks may be excluded by policy from many military 
and industry organizations, the mobile devices carried by the personnel 
hold high-value information which can be exploited by cyber criminals 
or foreign agents. Future research in risk measurement must factor the 
wireless landscape into the calculation of risk.

Questions submitted by Representative Ralph M. Hall

Q1.  Some experts have suggested that we should consider taking 
critical infrastructure networks such as those that control electricity 
transmission and distribution ``off the grid''--onto a network 
physically not connected to the public Internet, such as we do with our 
classified military networks. Please comment on whether you think such 
an approach warrants further consideration, and if so what potential 
benefits as well as challenges would accompany it.

A1. I don't feel I have the background to respond to this question.

Q2.  The comprehensive cyber security initiative that was created by 
President Bush and is continuing under President Obama focuses on 
improving cyber security coordination across government and on funding 
game-changing ``leap-ahead'' technologies. Do you agree with these 
priorities? If you had an additional $100 million to spend on cyber 
security R&D, to what agencies and research areas would you devote it? 
Is there general agreement within the scientific community regarding 
security research priorities?

A2. I thought the NITRD Cyber Leap Year call for leap-ahead 
technologies was an innovative approach to exciting the cyber security 
research community. They reviewed 238 responses, and produced five 
categories of technology that NITRD cited as critical areas for 
funding:

        <bullet>  Digital Provenance--basing trust decisions on 
        verified assertions

        <bullet>  Moving-Target Defense--attacks only work once if at 
        all

        <bullet>  Hardware-Enabled Trust--knowing when we've been had

        <bullet>  Health-Inspired Network Defense--move from forensics 
        to real-time diagnosis

        <bullet>  Cyber Economics--crime doesn't pay

    I concur that all of these are important areas for future funding. 
However, there are a few areas that I believe warrant government 
investment such as the $100 million to which you referred:

        <bullet>  Cascading effects of an attack--More work is needed 
        in understanding the interdependencies within the cyber 
        infrastructure, and between the cyber infrastructure and other 
        critical infrastructures. Other work is needed to understand 
        the dependencies of critical business operations on the IT 
        infrastructure and how a cyber attack can cascade to affect 
        several business operations within and across organizations.

        <bullet>  Resiliency and recovery--Attackers will get into our 
        systems. The cascading effects of an attack will occur. How do 
        we continue to work through and fight through the attack?

        <bullet>  Information value--The cascading effects of an 
        attack, and recovery decisions, are based in part on the value 
        of the information needed to maintain critical operations. 
        However, we have little understanding of what makes information 
        valuable to people and critical operations. If we knew how to 
        measure the value of information, we would be able to apply 
        security measures to follow the high-value information, even as 
        it moves throughout a network.

        <bullet>  Attack attribution and legal response--Proving the 
        source of an attack remains difficult. Research is needed on 
        how to identify the attack source. Additional work on the legal 
        aspects of cyber crime must determine the appropriate level of 
        evidence needed for attack attribution, and the laws and 
        policies that will permit the collection of that evidence.

        <bullet>  Security of socially connected wireless devices--The 
        steady rise of social networking, much of it performed with 
        mobile devices, poses threats to our cyber infrastructure as 
        well as potential opportunities for remediation. Research in 
        this area is still in its early stages, and should be continued 
        with greater investment.

    A few minor criticisms of the Cyber Leap Year format for 
solicitation:

        <bullet>  There would have been more responses, particularly 
        from some of the large industrial R&D organizations, if NITRD 
        had made a provision for protecting proprietary approaches and 
        proposing classified ideas. The companies with the biggest 
        Internal R&D funding were unlikely to toss out their best ideas 
        for anyone on the Internet to review.

        <bullet>  It is surprising that none of the 238 responses were 
        deemed of sufficient merit to warrant a topic-specific 
        workshop. The fact that no one got an invitation to a workshop 
        based on the merit of their response is likely to negate future 
        enthusiasm for such a program.

    Regarding which agencies should receive the funding, I think the 
decision should be guided in large part by which agencies are most 
likely to transition the resulting technology into widespread 
operations, and are most likely to manage research that combines 
researchers from various communities, i.e., academia, industry, 
government, classified and unclassified. I believe that the service 
laboratories (e.g., Army Research Laboratory, Air Force Research 
Laboratory, Naval Research Laboratory) and DHS Cyber Security R&D are 
in an excellent position to bring together academic, industry and 
government researchers. NSF is largely biased toward academic 
researchers. NSA requires clearances that many academicians don't have. 
The service laboratories and DHS-CSRD also have the mindset and 
contractual experience to handle classified and unclassified work and 
address contract terms relevant to both academia and industry.
    Perhaps most important, the service laboratories are in a position 
to help transition the technology into military and homeland security 
programs.

Q3.  The strategy of both the past and current administration has 
focused most of our cyber security investment--several billion dollars 
annually--on producing and deploying intrusion detection systems. Due 
to the cat-and-mouse nature of cyber warfare and defense that several 
of you noted in your testimony, it seems that these systems are only 
effective against threats that we already know about and understand. 
Given this reality, can this type of approach produce effective results 
over the medium, or even short, term? If not, is research on a new and 
fundamentally secure Internet architecture the only long-term answer?

A3. Intrusion detection systems, while not the ultimate solution, can 
be useful in the short term because they add a layer (albeit weak) of 
defense that thwarts script kiddies and other amateurs. They also 
creates a nuisance for more-sophisticated attackers, thereby increasing 
the amount of time and effort they must expend in order to penetrate 
our systems. However, intrusion detection systems do not warrant 
significant government research funding, as the commercial companies 
deploying them are incentivized by their sales to continue this work.
    Government research does need to focus on the larger, game-changing 
issues in order to achieve real security. A new and fundamentally 
secure Internet architecture is an excellent long-term goal. However we 
must accept the fact that no system or architecture can achieve 
complete security without completely sacrificing openness. Therefore 
research needs to continue to focus on defensive techniques, but from 
the new perspectives discussed earlier--not from the perspective of 
just making better intrusion detection systems.

Q4.  When this committee discusses a STEM education issue, we don't 
just focus on higher education. We start at the pre-K levels and extend 
beyond post-graduate work. Most of the education-related testimony has 
focused on our adult population either from an academic and workforce 
perspective, a behavior perspective, or a public awareness perspective. 
What are your education recommendations for our children when it comes 
to cyber security in all of these areas?

A4. Students need to acquire an understanding about computers and the 
Internet as basic elements of life in the digital age. Safe computing 
should be a basic element of our K-12 curriculum, like math and 
reading, not an elective. Organizations such as the National Cyber 
Security Alliance are already working to support safe computing 
education for K-12, but additional assistance and attention is needed.
    Education of children is also the first step in a cultural shift 
towards a more secure digital world and away from the current view of 
digital information as a free-for-all. The ease with which information 
can be shared, copied, pirated, and distributed has created a sense in 
the current generation that the information itself has no real value. 
Teaching adults to fear the Internet and to be careful about 
downloading may achieve behavioral change to some degree, but does not 
affect cultural change.
    The younger generation is the driving force in this cultural shift: 
they are the ones stealing music and movies, posting personal 
information on social networking sites, installing peer-to-peer 
software on their computers without concern for the security risks, and 
in general treating their digital lives with the same carelessness with 
which they clutter their rooms. They do this because they can, and 
because they have not been taught that this is all wrong. This 
fundamental lesson of respect for information--its financial value, its 
privacy implications, its intrinsic importance to their lives--must be 
ingrained in them from the earliest days. From this will flow a 
cultural shift away from the information-wants-to-be-free attitude of 
the early Internet days towards a more mature, and secure, digital 
world.
    The building of a culture of safety, respect and ethics in the 
digital world should begin in early elementary school education. This 
should start with awareness training in elementary school for cyber 
safety and cyber security basics such as safe browsing and e-mail, 
identity theft, and issues around social networking--think of it as 
hygiene lessons for the digital world--and should also instill the 
ethics of information. Children need to learn that information has real 
value, and must be protected and respected just as much as physical 
treasure. Most well-raised American children wouldn't even consider 
walking into a Wal-Mart store and stealing a Nintendo game, yet 
millions of them think nothing of downloading music illegally from Lime 
Wire every day.
    Cyber education should progress during the middle school years to 
more advanced issues of cyber security and ethics such as data 
protection, data sensitivity, privacy, and digital copyright. Digital 
privacy issues should be emphasized in grades five through nine. 
Current middle-schoolers, though conscious of their privacy needs at 
home, really have no sense of digital privacy--something that some 
adults unfortunately exploit. The kids cry ``invasion of privacy'' when 
Mom cleans their room and finds some sort of contraband under the bed, 
yet they think nothing of installing bitTorrent on their iMac and 
opening their files for the entire world to see. They cringe if you put 
their class photo on the refrigerator, yet they gleefully post photos 
of their latest binge on Facebook.
    By the time students reach high school, they should be prepared to 
drive themselves in the digital world. The goals should be similar to 
those of driver education: know how to operate the equipment, be 
knowledgeable of the laws and the repercussions of breaking them, and 
be able to travel without injury to yourself or others. Those with even 
greater interest can learn how to build, take apart and speed up the 
information technology--always with safety in the forefront.
                   Answers to Post-Hearing Questions
Responses by Fred B. Schneider, Samuel B. Eckert Professor of Computer 
        Science, Department of Computer Science, Cornell University

Questions submitted by Chairman Daniel Lipinski

Q1.  In your written testimony you indicate that good security 
decisions are based on an understanding of risk. How is cyber security 
risk assessed and are the current methods and tools inadequate. If 
current measures of cyber security are not adequate, what research is 
needed to improve cyber security risk assessment?

A1. Risk is usually defined as an ``expected value'' (in the 
statistical sense) and, therefore, requires identifying all possible 
hazards and then estimating the cost and probability of each. Applying 
this definition to a computing system would require calculating or 
estimating these costs and probabilities (as well as identifying all 
hazards), and that is far beyond the state of the art. Moreover, 
historical data, which works so well for writing life, health, and 
property insurance policies does not help for doing a cyber security 
risk assessment: a system's internals (hence the system's 
vulnerabilities), where systems are being deployed (hence the 
consequences and cost of a successful attack), and attacker 
sophistication (hence the likelihood of an attacker's success) change 
too rapidly for the past to be a good predictor of the future.
    Given these inherent difficulties in measuring the constituents of 
the ``expected value'' that defines cyber security risk, I believe we 
would be better off focusing our research investments on science and 
engineering that helps ascertain a system's compliance with given 
behavioral specification or properties. This is, in a sense, the flip 
side of cyber security risk, since risk involves the probability of a 
system's exhibiting behavior that departs from those specifications.
    Examples of the kinds of research I am advocating can be found in 
(among others) the area of programming language design and the area of 
automated tools for analyzing program execution--for instance, research 
into rich type systems for programming languages and model checking for 
program verification. These technologies can help establish that a 
program's execution will exhibit certain properties and, as a side 
effect, enable tools to detect large classes of code vulnerabilities. 
We should also invest in research that aspires (i) to developing a 
principled way for extracting ``trust assumptions'' in systems and (ii) 
to understanding how various security technology relocates ``trust 
assumptions'' from one component to another, since this is a way to 
surface the risks in a system design.
    Although this proposed research ignores the probabilities and costs 
of attacks, its fruit doesn't prevent individuals from using insights 
about threats, system internals, or the circumstances of a system's 
deployment when deciding how best to manage the risk of cyber attacks. 
Here, broadly disseminating information about attackers, successful 
attacks, and cost or consequences of attacks would be in everyone's 
best interest, because system operators and their users all could then 
evolve a better understanding of the risks they face and have a basis 
to make more intelligent decisions. Therefore, I advocate putting in 
place incentives for public reporting of successful attacks, attacker 
capabilities, and their consequences as another key step toward being 
able to assess cyber security risk.

Q2.  One of the near-term action items of the Administration's 
Cyberspace Policy Review is to provide the research community with 
event data. What is the quality event data currently utilized by the 
research community and is it a realistic representation of network 
activity.

A2. Event data is today not broadly available to the research 
community. This means researchers do not have good data against which 
to evaluate solutions they develop nor do they have a way to gain the 
kind of first-hand experience that is often crucial for understanding 
the real problem and inventing solutions.
    Today we find that to avoid undermining public trust, information 
about successful attacks is generally kept confidential. Information 
about vulnerabilities is generally not made public until after a 
defense has been widely deployed. And information about network traffic 
is not generally available from ISPs or from other network operators 
because it can reveal information about their cost and pricing models; 
it also can reveal users' private information.
    Network traffic data sometimes is made available today to selected 
researchers if they agree not to further disclose that data nor 
disclose its attribution in publications that analyze the data. Such 
data cannot be shared with other researchers, making comparative 
analysis of work done in different labs impossible.
    Various test-beds allow researchers to experiment ``at scale'' and 
sometimes it is possible to use those as a source of data. However, 
load (including attacks) in these testbeds is either generated 
artificially or (in the case of PlanetLab\1\ ) would depend on 
concurrently executing experiments (hence is difficult to reproduce). 
In short, today's testbeds are a poor substitute for experiments that 
use real, operational, datasets.
---------------------------------------------------------------------------
    \1\ http://www.planet-lab.org/
---------------------------------------------------------------------------
    Recently, the Office if Science and Technology Policy invited the 
National Science Foundation to organize a group of NSF-supported 
computing researchers and provide a white paper detailing specific 
kinds networking and cyber security data that would be useful for the 
academic research community. Professor Nick Feamster (Georgia Tech) 
coordinated that effort, and a short white paper is now available.\2\
---------------------------------------------------------------------------
    \2\ Jean Camp, Lorrie Cranor, Nick Feamster, Joan Feigenbaum, 
Stephanie Forrest, Dave Kotz, Wenke Lee, Patrick Lincoln, Vern Paxson, 
Mike Reiter, Ron Rivest, William Sanders, Stefan Savage, Sean Smith, 
Eugene Spafford, Sal Stolfo. Data for Cybersecurity Research: Process 
and ``Wish List.'' June 10, 2009. Available at http://
www.cc.gatech.edu/feamster/papers/data-wishlist.pdf

Q3.  Do you have any specific recommendations for existing federal 
agency programs that should be expanded or new programs that might be 
created to address cyber security education needs? Is there a specific 
---------------------------------------------------------------------------
level of education that is in need of increased attention?

A3. I am aware of two federal programs in support of cyber security 
education:

        <bullet>  The Federal Cyber Service Scholarship for Service 
        (SFS)

        <bullet>  National Centers of Academic Excellence in IA 
        Education (CAEIAE)

    I have no direct experience with SFS.
    I have some experience with CAEIAE. This program certifies whether 
a college or university offers an educational program deemed by the 
National Security Agency (NSA) to provide a suitable background for 
working in information assurance. The criteria for CAEIAE designation 
include requirements about what is taught and about the qualifications 
of who does the teaching.
    I decided not to pursue CAEIAE for Cornell because I did not find 
current thinking about cyber security well represented in the 
curriculum requirements for CAEIAE certification. And while the number 
of schools with CAEIAE certification is rather substantial, Cornell is 
hardly the only outsider. Only Carnegie Mellon University (CMU) of the 
five universities in the NSF funded TRUST Science and Technology Center 
pursued a CAEIAE certification, yet these five universities are among 
the very top cyber security programs in the country; also only two (CMU 
and University of Illinois) of the top five ranked Computer Science 
departments are listed on the CAEIAE web site as having CAEIAE 
certification. Recently, Purdue, which hosts the nationally known 
Center for Education and Research in Information Assurance (CERIAS), 
decided against renewing its CAEIAE certification. Professor Eugene 
Spafford, Director of CERIAS, contributed to creating the CAEIAE 
program in 1997; he details his reasons to now forgo CAEIAE 
certification in his on-line blog.\3\
---------------------------------------------------------------------------
    \3\ http://www.cerias.purdue.edu/site/blog/post/
centers<INF>-</INF>of<INF>-</INF>academic<INF>-</INF>adequacy/
---------------------------------------------------------------------------
    The field is moving rapidly, and what we teach needs to keep pace 
with what is known and with the needs of all the stakeholder 
communities; CAEIAE doesn't. Moreover, the dividing line between what 
constitutes training and education is shifting, with various software 
producers now taking an active role in training their workforces about 
(for example) secure coding and avoiding common vulnerabilities. What 
gets taught in the university should reflect those realities and not 
waste time duplicating current industry-training efforts. Needless to 
say, one way that I believe the Federal Government can help move cyber 
security education forward is by not imposing constraints on content.
    Second, our very best faculty, who typically are exploring new 
approaches to organizing and teaching cyber security, need incentives 
to spend that extra time and effort necessary for disseminating this 
work (just as the academic culture today provides incentives that 
prompts the dissemination of research results). So, for example, 
programs for funding cyber security education should endeavor to 
attract research-focused faculty at our Tier 1 institutions. And 
although funding is an important part of the picture, it is not the 
only part--it is crucially important that opportunities for peer 
recognition be present and that some means exist to surface evidence of 
national impact from a faculty member's efforts to further cyber 
security education.
    I believe the greatest opportunities for having impact in cyber 
security education--and ultimately on the workforce--hence the place to 
focus increased attention, is in creating a new cyber security 
professional degree, analogous to what we have today in law and 
medicine. The undergraduate major serves a broad set of needs and, as a 
result, offers few opportunities for adding new content. Moreover, 
there is simply not enough time for an undergraduate to get a broad 
education in Computer Science and also be exposed to all the material 
that a cyber security expert (or even an apprentice) should see. 
Graduate education, by contrast, allows the flexibility to require 
substantial course work in specialized areas.
    Universities and students will not invest in a new degree unless 
there is some clear benefit. Requiring some sort of credential for 
cyber security professionals is often suggested, just as lawyers and 
doctors have their respective credentials. But if we are going to 
pursue this, then we should first understand the options (since, 
looking across the other professions, there are many possibilities) and 
be clear about the consequences. Therefore, I would argue that before 
mandating a credential, we first commission one or more objective 
bodies, such as the National Research Council's Computer Science and 
Telecommunications Board (CSTB) and/or the Government Accountability 
Office (GAO), to do a study that lays out the options. Inputs should be 
solicited from researchers, educators, systems builders, and systems 
operators (private sector and the government). And the study should:

        1.  Assess what (if any) benefits would come from imposing 
        liability-based and/or regulation-based incentives for 
        credentialing cyber security professionals. What would the 
        costs be?

        2.  Identify practical structures for defining and evolving the 
        content that a cyber security credential covers, and consider 
        the various candidate examination instruments.

    In parallel, we should make investments in community workshops, 
planning grants, and curriculum development, as a way both to 
understand whether a new cyber security professional degree is workable 
and to facilitate building a community consensus for such a new degree 
program. Yes, there is a crucial and immediate need for better-educated 
cyber security experts and what I am proposing will take some time. But 
a poorly thought-out credential and mandating the wrong content for our 
students is not going to improve matters (and might well set things 
back).

Questions submitted by Representative Ralph M. Hall

Q1.  Some experts have suggested that we should consider taking 
critical infrastructure networks such as those that control electricity 
transmission and distribution ``off the grid''--onto a network 
physically not connected to the public Internet, just as we do with our 
classified networks. Please comment on whether you think such an 
approach warrants further consideration, and if so what potential 
benefits as well as challenges would accompany it.

A1. Separating the networks used by critical infrastructures from the 
Internet could entail a significant opportunity cost, and it would be 
virtually impossible to enforce. I therefore think it would be unwise 
to pursue this approach.
    The opportunity cost of separating the networks comes from the 
potential loss of services. First, certain Internet services could 
provide important benefits to critical infrastructures; isolating the 
networks would make those services unavailable to those critical 
infrastructures. Access to on-line weather predictions, for example, 
could be useful in automatically controlling electric-generation 
capacity, allowing new generators to spin-up in time to serve peak air-
conditioning loads on a summer day. So-called network-guard technology 
could be deployed here and connect the networks, but this sacrifices 
the bullet-proof appeal of complete isolation. And the critical 
infrastructure's network could not be designed under the assumption 
that this network is completely isolated from the Internet, since 
attacks have been known to pass through guards.
    Second, the Internet provides pervasive connectivity that would be 
quite costly to replicate. And there will be strong temptations to use 
that connectivity in making our critical infrastructures more 
convenient, more efficient, and more effective. For example, an 
engineer in charge of controlling a critical infrastructure might well 
prefer to make after-work unexpected adjustments from his home rather 
than trekking into the office at odd hours, and an Internet connection 
to that critical infrastructure could be used for that--quite securely, 
if VPN (virtual private network) technology is employed. And a smart 
grid might serve us better if homeowners could remotely control 
appliances, thermostats, or even the class of electric service being 
purchased to run the household at any time. But implementing this kind 
of functionality would mean sacrificing isolation because there would 
be devices connected both to the Internet and to the network 
controlling a critical infrastructure.
    Regarding the enforceability of a network-isolation mandate, it 
takes but one person connecting a single computer to both networks for 
the isolation to be destroyed. Likely this connection would be done as 
a matter of convenience and, judging from past experience reported for 
the public telephone network, the connection would be made by a low-
level technician and without the consent or knowledge of management. 
Desktop machines running commercial operating systems are not known for 
their strong security guarantees, so we would be unwise to depend on 
the desktop's security to provide isolation between the networks when 
both are connected to the same machine.

Q2.  The comprehensive cyber security initiative was created by 
President Bush and is continuing under President Obama focused on 
improving cyber security coordination across government and on funding 
game-changing ``leap-ahead'' technologies. Do you agree with these 
priorities? If you had an additional $100 million to spend on cyber 
security R&D, to what agencies and research areas would you devote it? 
Is there general agreement within the scientific community regarding 
security research priorities?

A2. I am not knowledgeable about the details of CNCI, because the 
initiative has been classified and, therefore, information about it has 
not been generally available to the academic research community. I 
nevertheless can offer high-level comments about what seem to be the 
key elements.
    Better coordination of cyber-defense across government should be a 
national priority. A cyber-defense is only as good as its weakest link. 
So a coordinated defense, if overseen by a technically strong 
organization that has the power to compel federal agencies to deploy 
specific cyber-defensive measures, is likely to decrease the chances 
that any agency's computing system becomes such a ``weak link.'' The 
existence of a central clearinghouse for information about attacks--on-
going and past--also would be valuable for cyber-defense.
    To deploy new cyber-defenses will require replacing and 
reconfiguring systems. I presume funding for these activities is a 
large part of the CNCI budget. We will want to be sure this money is 
spent wisely, and the absence of opportunities here for advice from the 
research community or from the private sector concerns me. Some 
government agencies are well served being advised by the intelligence 
community, with its strong track record of securing our nation's 
classified systems. But other agencies are more like the commercial 
organizations found in the private sector, with different needs and a 
different tolerance for risk. Such agencies might benefit more from 
advisors outside the intelligence community. Finally, I should report 
that the utility of various CNCI-proposed defenses has been questioned 
by cyber security experts in the private sector and in the research 
community (albeit, people who did not receive classified briefings and 
therefore have an incomplete understanding of the problem and 
solution). This questioning suggests that any kind of central 
coordination should be in conjunction with some sort of advisory board 
that is populated by cyber security experts (technical and policy) from 
the private sector and academia.
    The CNCI emphasis on ``game-changing `leap-ahead' technologies'' 
seems well intentioned, but we should be careful about exactly how this 
is interpreted. For sure, if we continue with business as usual then we 
will never get to the point of running networked information systems 
that are trustworthy. But, as noted in my testimony, the way to be 
proactive and have the greatest chances of revolutionary advances--what 
I presume is meant by ``game-changing leap-ahead technology''--is to 
build a science base for trustworthiness. The science base must come 
first; an initiative that focuses on only the technologies would likely 
fail without a science base.
    Second, the advances CNCI seeks are not going to come if we just 
concentrate on developing new technologies and educating the workforce. 
Economics and law play a significant role in determining what (if any) 
investments system builders and operators actually do make in support 
for system trustworthiness. If we as a nation are not prepared to make 
game-changing alterations to our values and policies, then business as 
usual will continue despite any game-changing technologies we might 
develop, because it is virtually certain that trustworthiness will be 
far from free.
    Finally, I note that we might ``leap-ahead'' but our attackers will 
surely follow. Cyber security is not a game that can be won once and 
for all. We must win it each day anew. Let nobody believe that we only 
need one set of ``game-changing `leap-ahead' technologies.''
    How to spend an additional $100M on cyber security research? Page 6 
of my testimony gave a list of research areas. This list was based on 
(i) a consensus view of academic cyber security researchers NSF brought 
together earlier this year to provide input\4\ for Melissa Hathaway's 
White House 60-day Cyber-Policy review as well as (ii) a recent 
National Research Council study\5\ on a cyber security research agenda; 
I was directly involved in both efforts.
---------------------------------------------------------------------------
    \4\ Notes for White House 60-day Cyber-Policy Review. Available on 
WWW at http://www.cs.cornell.edu/fbs/publications/SciPolicyNSFnotes.pdf
    \5\ Toward a Safer and More Secure Cyberspace. S. Goodman and H. 
Lin (eds.), National Academies Press, Washington, DC, 2007. Available 
on WWW at http://books.nap.edu/catalog.php?record<INF>-</INF>id=11925
---------------------------------------------------------------------------
    NSF is the obvious agency to distribute additional cyber security 
research funding. Up to 200 additional researchers in cyber security 
could be funded at $500K per year, and I would argue that an individual 
researcher's funding needs to be at (or preferably above) that level if 
we can have hopes of supporting enough graduate students to make in-
roads into the demand for additional faculty and private sector 
experts. But should all the money be sent to NSF? I have no basis for 
justifying a scheme to divide the funds among various funding agencies. 
For example, there is now a new DARPA director, with indications that 
she will return DARPA to its past role in funding cyber security 
research at universities. This would be a wonderful development, 
because DARPA-funded research has a very different character from the 
efforts that NSF supports; I have no idea whether this redirection of 
effort within DARPA would require additional funding. The Air Force, 
Army, and Navy also have (modest) cyber security research programs that 
fund faculty; these have yet a different character from the DARPA and 
NSF programs, and they likely would make good use of additional funds.

Q3.  The strategy of both the past and current administration has 
focused most of our cyber security investment--several billion dollars 
annually--on procuring and deploying intrusion detection systems. Due 
to the cat-and-mouse nature of cyber warfare and defense that several 
of you noted in your testimony, it seems that these systems are only 
effective against threats that we already know about and understand. 
Given this reality, can this type of approach produce effective results 
over the medium- or even short-term? If not, is research on a new and 
fundamentally secure Internet architecture the only long-term answer.

A3. Despite the difficulty with intrusion detection that is noted in 
the question statement, this approach does have defensive value if 
relatively little time elapses between isolating the signature of a new 
attack and distributing that signature to intrusion detection 
subsystems on hosts that have not yet been attacked. Some recent 
research results will help put this into context. Simulations of the 
Internet done by cyber security researchers at U.C.-San Diego (and 
elsewhere) have shown that a worm could spread though the Internet so 
quickly that having a human involved anywhere in the path from 
signature-isolation to signature-distribution would introduce too much 
delay for intrusion detection to be effective. That suggests intrusion 
detection has limited value against attacks that propagate rapidly. But 
investigators at Microsoft Research designed and prototyped an 
automated system that can detect a successful worm attack, 
automatically generate filters and/or patches for that attack, and 
disseminate those defenses to other systems ahead of the worm. Thus, 
there are deployments that avoid direct human involvement on the 
critical path for defense.
    Virus scanners can be seen as a special case of intrusion 
detection. And they have been quite effective at defending desktop 
systems against malware, which to date has tended to propagate through 
the Internet slowly. Even for malware that is not slowly propagating, 
downloading a new signature file for a virus detector is usually faster 
and less likely to destabilize a production system than patching the 
vulnerability being exploited by that malware. So updating a virus 
detector's signature file is often the fastest way to securely 
reconnect a system that had been vulnerable to Internet malware. 
However, new attacker technology, which obfuscates different copies of 
a given virus differently, can make it impossible to create the 
malware-signatures needed by today's virus scanners. Thus, virus 
scanners are likely to become less and less effective.
    The design and deployment of a ``fundamentally secure Internet 
architecture'' would be important step towards improving the 
trustworthiness of our networked information systems. However, we 
should be clear about what it involves and what would be its 
consequences. It involves new research--various proposals for improved 
Internet architectures have been made, but there is much investigation 
and prototyping to be done before we might attempt to use these 
proposals as a basis for replacing the Internet. These investigations 
might take a decade or more.
    And having a ``fundamentally secure Internet architecture'' would 
not mean the problem is solved. Today's networked information systems 
comprise end-systems (desktops and servers) interconnected using the 
Internet. For example, the DNS service is part of the Internet 
architecture but services (like Google and Amazon) and desktops 
(running Windows and Linux) are end-systems. Virtually all attacks 
originate at the end-systems and most attacks are directed at the end-
systems today because the compromise of end-systems offers value to 
attackers and these end-systems are low-hanging fruit. Thus, having an 
Internet that is ``fundamentally secure'' only solves part of the 
problem--to solve the entire problem, we must also have end-systems 
that are ``fundamentally secure.''
    It does seem clear that designing a new, secure, Internet 
architecture is a crucial step towards supporting trustworthy networked 
information systems, and it seems equally clear that a new Internet 
architecture (notably, one that supports stronger notions of provenance 
and accountability) would be a key enabler for building ``fundamentally 
secure'' end-systems. Yet, leveraging accountability would also depend 
on making progress on policy matters. New privacy questions would be 
raised and need to be resolved; and international agreements about 
jurisdiction and extradition would need to be negotiated, since the 
premise of accountability is that attackers can be found and punished.

Q4.  When this committee discusses a STEM education issue, we don't 
just focus on higher education. We start at the pre-K levels and extend 
beyond post-graduate work. Most of the education related testimony has 
focused on our adult population either from an academic and workforce 
perspective, a behavioral perspective, or a public awareness 
perspective. What are your education recommendations for our children 
when it comes to cyber security in all of these areas?

A4. Our children use computers, so it is sensible to suggest that they 
ought to be told something about actions they might take that could be 
risky. And some risky behaviors are indeed simple enough to teach a 
child about (e.g., don't play with matches and don't accept candy from 
strangers). But other behaviors are not (e.g., don't attend movies with 
adult themes)--we as a society prevent such behaviors, not by educating 
the child but instead with other safeguards. So the real issue is 
whether we can devise guidance even a child can understand and that, if 
followed, would serve that child well when venturing in cyberspace.
    I'm afraid the flexibility and universal nature of computers that 
is their strength is also the reason simple guidance is unlikely to be 
useful in describing to children (or even to many adults) a large space 
of potentially unsafe behaviors. Unlike Smokey the Bear's exhortation 
about the prevention of forest fires (``Only you can . . .''), vague 
exhortations about risky cyber security behaviors are hard to apply 
when defenses and attacks co-evolve, since what is risky periodically 
changes.
    For example, consider what we might tell a child concerning web 
sites he/she might visit or what actions might be ``safe'' when 
visiting a web site. The browser interface changes every few years, and 
attacks seem to keep pace with the creation of defenses these 
interfaces embody. In fact, ``human-computer interaction'' research 
studies have now demonstrated that people taught about a browser 
security icon (e.g., the ``key icon'' signifying an https connection) 
are still fooled by attackers who--knowing what these users have been 
told--create a facsimile of the icon or fashion some message that 
convinces users all is safe even with the icon absent. In general, as 
each defense fails, we as defenders create a new symbol or structure; 
attackers then find a way to spoof that, causing people who practice 
what we have previously preached to fall prey.
    In light of this co-evolution of attacker and defender, we must 
disseminate a message for each defense we deploy. And we have a choice 
about that message:

        <bullet>  If we disseminate messages that are general enough so 
        they don't have to be changed for each defense, then our 
        messages are likely to require sophistication to interpret and 
        act on. Children (and many adults) will not be well served by 
        such messages.

        <bullet>  If we disseminate very specific messages that are 
        easy to interpret and act on, then the message must change for 
        each new generation of defense. Moreover, the different 
        messages might have to be inconsistent with each other. Again, 
        children (and many adults) will not be well served by such 
        messages.

    What we really need first is good tools (i) for informing users 
what they can trust and (ii) for users to authenticate what is at the 
other end of an Internet connection. Until we have such tools, our 
``public education'' campaigns will have to be vague, hence have 
limited effectiveness because they cannot be converted into advice that 
a child can act on.

Q5.  You testify that cyber security professionals are not being 
adequately trained to meet our needs citing lack of faculty resources 
and technical curriculum content as the major problems. Which of these 
do you consider to be the biggest challenge and what recommendations do 
you have to address both of these issues.

A5. The number of cyber security faculty is the bottleneck for getting 
research done as well as for the development of the much needed 
curriculum and the delivery of that content to undergraduates, masters 
students, and doctoral students. Moreover, the rate at which we can 
graduate additional cyber security faculty will accelerate only if we 
can increase the number cyber security faculty members who are teaching 
and actively engaged in research at Ph.D.-granting institutions.
    How many cyber security faculty does the Nation need? Here is one, 
conservative, analysis. Approximately 250 faculty are today doing 
research in cyber security, judging from attendance levels at research 
conferences and numbers of grants made by agencies that fund this kind 
of work. Since there are approximately 125 Ph.D.-granting institutions, 
that works out to approximately two researchers per institution. In 
reality, the distribution is skewed--the top-raked departments have 
more (maybe three or four) because cyber security is today a hot 
research area.
    The list of cyber security research topics is long enough to easily 
justify a community of 500 researchers, since that size would allow 
approximately five researchers per topic area (and anything smaller 
does not constitute a critical mass to form a community or make 
significant progress). So that would mean an average of four faculty 
per institution, which is also a reasonable number given the number and 
variety of courses that should be covered.
                   Answers to Post-Hearing Questions
Responses by Timothy G. Brown, Vice President and Chief Architect, CA 
        Security Management

Questions submitted by Representative Ralph M. Hall

Q1.  Some experts have suggested that we should consider taking 
critical infrastructure networks such as those that control electricity 
transmission and distribution ``off the grid''--onto a network 
physically not connected to the public Internet, just as we do with our 
classified military networks. Please comment on whether you think such 
an approach warrants further consideration, and if so what potential 
benefits as well as challenges would accompany it.

A1. Although there are instances where it may be desirable to segment 
networks completely, with no interconnection (for example, this 
approach is considered valuable for separating commercial aircraft 
flight control systems from passenger Internet access and entertainment 
systems), as a practical matter effective management of networked 
information systems, including such critical infrastructure assets as 
electrical generation and transmission systems facilities, require 
interconnection to ensure effective management, administration, 
maintenance and reliability. Internet connectivity is becoming 
increasingly necessary, as we can see from new proposals for the 
``smart grid,'' which may require Internet communications from business 
premises and customer homes to help monitor electricity demand and 
other factors important to support national energy policy.
    Even in the existing environment, companies have implemented 
Supervisory Control and Data Acquisition systems using the Internet to 
enable logins to remote sites to check systems and fix problems. 
Without Internet access, the cost of taking these systems off-line and 
putting them on a private network would be enormous.
    Related to this are the fact that for all practical purposes even 
separate networks will rely on Internet Protocol (IP) technologies, 
standards and products to operate and will require the assessment and 
management of cyber security risks. In today's environment, even very 
sensitive government networks require some connectivity to the public 
Internet, but have in place very strong controls to mitigate known 
risks.
    The bottom line is that proposals to completely separate control 
systems from the public Internet are typically not feasible. We do have 
a responsibility, however, to treat our critical infrastructure 
networks differently. We should understand the risks and design systems 
and procedures that appropriately address these risks. In some rare 
cases this may require a dedicated network, but in most cases a mature 
well designed system of processes and technology will suffice. Our 
focus must be on effective cyber security risk management.

Q2.  The comprehensive cyber security initiative that was created by 
President Bush and is continuing under President Obama focused on 
improving cyber security coordination across government and on funding 
game-changing ``leap-ahead'' technologies. Do you agree with these 
priorities? If you had an additional $100 million to spend on cyber 
security R&D, to what agencies and research areas would you devote it? 
Is there general agreement within the scientific community regarding 
security research priorities?

A2. Many details related to CNCI are classified, and so it remains 
difficult for private sector subject matter experts to assess the 12 
CNCI components and their relative priorities in sufficient detail to 
understand how ``leap-ahead'' technologies development--technology is 
only one of the CNCI focus areas--ranks in terms of dollars and 
importance. To many external experts, the broad bias in the CNCI's 
publicly-available descriptions appears to be on the defense and 
response aspects of cyber security, such as reducing the number of 
Internet connections, intrusion detection, intrusion prevention systems 
and situational awareness.
    The absence of designated components in the critical areas of 
identity management, authentication, authorization, data leak detection 
and prevention, insider threats, and governance areas such as records 
management and e-discovery does not mean they are not being addressed 
or given priority in the research and development initiative, but they 
are not given emphasis in public information. This reinforces the 
points I made in my testimony about the need for much more trusted 
collaboration between the government and industry in developing an 
effective national cyber security research and development agenda.
    In terms of what to do with $100 million in cyber security R&D 
funding, my response would be that a reasoned way to answer that 
question is to put into place the model which I advocated in my 
testimony: a collaborative research agenda, reflecting tactical, mid-
term and strategic research investments, and an accountability system 
for achieving results. Again, it is very important that our limited 
research dollars are not allocated using the current contracts and 
grants model. That model must be improved.

Q3.  The strategy of both past and current administration has focused 
most of our cyber security investment--several billion dollars 
annually--on procuring and deploying intrusion detection systems. Due 
to the cat-and-mouse nature of cyber warfare and defense that several 
of you noted in your testimony, it seems that these systems are only 
effective against threats that we already know about and understand. 
Given this reality, can this type of approach produce effective results 
over the medium- or even short-term? If not, is research on a new and 
fundamentally secure Internet architecture the only long-term answer?

A3. As suggested in my previous response, an unbalanced focus on 
intrusion detection systems (IDS) overlooks the complexity of the cyber 
security infrastructure and the multiple, interrelated areas of risk 
that must be managed as part of a balanced cyber security risk 
management program.
    With respect to IDS specifically, in the academic arena IDS 
research has focused largely on anomaly detection, certainly an area of 
promise for detecting new attacks (unlike signature-based approaches). 
However the false positive rate is still far too high, and it is 
possible that funding of research might help over the medium-term. 
However, IDS, while important, can never be the complete solution. IDS 
is a known entity in cyber warfare and as a known entity, it can be 
subverted. Therefore, we must address other critical areas of cyber 
security risk, and I would focus long-term research in the areas which 
I listed in my testimony.
    For the long-term, I am not convinced that a ``new and 
fundamentally security Internet architecture'' is possible. For 
example, even in terms of advanced Internet protocols (which also have 
security implications), we have not seen the widespread deployment of 
Internet Protocol Version 6 (IPv6), despite many operational benefits. 
And so the adoption of a completely new architecture would be more 
challenging by an order of magnitude.
    Perhaps a better approach is to fund research into how you can 
build accountability into systems, and what changes would be required 
to the current Internet to do that. Accountability may not be possible 
at the packet level, but it may be possible with changes in deployed 
software and applications, which may contribute to some measure of 
improvement to cyber security risk management.

Q4.  When this committee discusses a STEM education issue, we don't 
just focus on higher education. We start at the pre-K levels and extend 
beyond post-graduate work. Most of the education-related testimony has 
focused on our adult population either from an academic and workforce 
perspective, a behavioral perspective, or a public awareness 
perspective. What are your recommendations for our children when it 
comes to cyber security in all of these areas?

A4. It cannot be repeated too often: cyber security risk management 
represents an unprecedented challenge for government, business and 
individuals and the global society, and one of its many components is 
the need to educate Internet users at all ages. As I noted in my 
testimony, education must play its appropriate role and do its part to 
provide cyber security awareness, knowledge, skills for our youngest 
students, and also contribute to the widespread adoption of ethical 
behaviors and practices by our youngest technology users.
    I believe educational programs should be developed to ensure that 
teachers and schools have the skills and resources they need to make 
this possible and can tailor their programs to specific age groups, 
which have specific characteristics and needs, and must have age-
appropriate content, messaging and approaches. Like cyber security 
itself, the programs need to address complicated subjects and issues, 
and an effective program will require a strong partnership and broad-
based partnership among many stakeholders: school boards, educators and 
administrators, parents, and other communities. This is an area where 
well-understood approaches to educating the very young can and must be 
applied in support of a national cyber security educational agenda. 
Again, this is an area where collaboration and partnering among key 
stakeholders is critical.

Q5.  You suggest in your testimony that it would be appropriate for a 
company to be awarded ``sole source'' federal funding for bringing a 
specific new research idea or project to the attention of government. I 
applaud your proactive approach and agree that there are many research 
ideas out there that will be conceived by the private sector and not by 
one of our federal agencies. However, I also agree with you awarding 
the company with the idea raises ``legitimate concerns about the 
fairness of the award process.'' How would you suggest we make this 
work and encourage companies to participate, while at the same time 
ensuring the integrity of competitive federal solicitations? Wouldn't 
the government and the American taxpayer gain more by an open 
solicitation process that would perhaps even stimulate better ideas?

A5. As I indicated in my testimony, a sole source approach would not 
supplant open solicitations, but would serve an important role in 
augmenting the current process. If my proposal for a jointly-developed, 
partnership-based cyber security research and development agenda were 
implemented, it would make possible the identification of clear 
categories and specific areas of research, a prioritized ranking based 
on risk imperatives, and a new process for funding contracts and grants 
using existing research funding agencies and programs. This national 
cyber security R&D strategy could also incorporate a category for 
novel, unanticipated, breakthrough ideas that could be submitted via 
unsolicited proposals or that could be awarded by research funding 
agencies directly outside the competitive solicitation process.
    Whether agency-identified or proposed by external research 
entities, the awards process would require that the sole source grant 
or contract be awarded transparently, be viewed within the frame of the 
overall national research strategy, and be subject to accountability 
and performance controls.
    In effect, I am proposing an approach that injects greater speed 
and flexibility into the research grants and contracts process for 
proposals that align with national objectives, but are out of cycle 
with the regular solicitation process or are extremely novel. I do not 
see sole source awards as a major tranche of awards, but as a way to 
augment the current process.
    Finally, I believe that this option, as part of a broader national 
R&D strategy and plan, would serve as a clear incentive for research 
funding agencies to be more receptive to unsolicited proposals and see 
them as valuable--and supportable.

                                   

</pre></body></html>
